<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM: PERSPECTIVES FROM FAITH-BASED AND IMMIGRANT COMMUNITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  COMPREHENSIVE IMMIGRATION REFORM: PERSPECTIVES FROM FAITH-BASED AND 
                         IMMIGRANT COMMUNITIES
=======================================================================
                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2007

                               __________

                           Serial No. 110-37

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

35-602 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


















                            C O N T E N T S

                              ----------                              

                              MAY 22, 2007

                                                                   Page

                            OPENING REMARKS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1

                               WITNESSES

Reverend Luis Cortes, Jr., President, Esperanza USA
  Oral Testimony.................................................     2
  Prepared Statement.............................................     4
Most Reverend Thomas G. Wenski, U.S. Conference of Catholic 
  Bishops, Diocese of Orlando
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15
Reverend Charles G. Adams, Senior Pastor, Hartford Memorial 
  Baptist Church
  Oral Testimony.................................................    25
Mr. Gideon Aronoff, President and CEO, Hebrew Immigrant Aid 
  Society (HIAS)
  Oral Testimony.................................................    28
  Prepared Statement.............................................    30
Reverend Derrick Harkins, D.Min., Pastor, Nineteenth Street 
  Baptist Church
  Oral Testimony.................................................    33
  Prepared Statement.............................................    34
Mr. Dan Kosten, Director, World Relief Refugee and Immigration 
  Programs, National Association of Evangelicals
  Oral Testimony.................................................    36
  Prepared Statement.............................................    38
Mr. Jim R. Edwards, Jr., Ph.D., Adjunct Fellow, Hudson Institute
  Oral Testimony.................................................    44
  Prepared Statement.............................................    45
Mr. Stephen Steinlight, D.Phil., Center for Immigration Studies, 
  former National Affairs Director at the American Jewish 
  Committee (AJC)
  Oral Testimony.................................................    49
  Prepared Statement.............................................    51
Ms. Marleine Bastien, Executive Director, Fanm Asyisyen Nan 
  Miyami, Inc, Haitian Women of Miami
  Oral Testimony.................................................    57
  Prepared Statement.............................................    59
Ms. Janet Murguia, President and CEO, National Council of La Raza
  Oral Testimony.................................................    62
  Prepared Statement.............................................    65
Ms. Deepa Iyer, Executive Director, South Asian American Leaders 
  of Tomorrow
  Oral Testimony.................................................    74
  Prepared Statement.............................................    77
Ms. Karen K. Narasaki, President and Executive Director, Asian 
  American Justice Center (AAJC)
  Oral Testimony.................................................    87
  Prepared Statement.............................................    88
Mr. Niall O'Dowd, Chairman, Irish Lobby for Immigration Reform
  Oral Testimony.................................................    93
  Prepared Statement.............................................    95
Mr. Noel J. Saleh, President, Arab Community Center for Economic 
  and Social Services (ACCESS) Board of Directors
  Oral Testimony.................................................    96
  Prepared Statement.............................................    98
Ms. Rosanna Pulido, Illinois Spokesperson, ``You Don't Speak for 
  Me''
  Oral Testimony.................................................    99
  Prepared Statement.............................................   100
Mr. Jan Ting, Professor of Law, Temple University Beasley School 
  of Law
  Oral Testimony.................................................   103
  Prepared Statement.............................................   105

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................   119
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................   119
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................   120
Letter from Richard T. Foltin, Legislative Director and Counsel, 
  American Jewish Committee, to the Honorable Zoe Lofgren, 
  Chairwoman, and the Honorable Steve King, Ranking Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................   122
Letter from the Christian Reformed Church in North America, et 
  al. to President George W. Bush and Members of the United 
  States Congress................................................   123
Congressional Black Caucus Statement of Principles on Immigration 
  Reform.........................................................   129
``The Fiscal Impact of Immigration Reform: The Real Story,'' by 
  Daniel Griswold, Director, Center for Trade Policy Studies, 
  Cato Institute, May 21, 2007...................................   130
Prepared Statement of the Conveners of the Latino Congreso.......   134
Letter from Eric M. Gutierrez, Legislative Staff Attorney, 
  Mexican American Legal Defense and Education Fund (MALDEF), to 
  the Honorable Zoe Lofgren, Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................   140
Revised Prepared Statement of Ms. Karen K. Narasaki, President 
  and Executive Director, Asian American Justice Center..........   143


  COMPREHENSIVE IMMIGRATION REFORM: PERSPECTIVES FROM FAITH-BASED AND 
                         IMMIGRANT COMMUNITIES

                              ----------                              


                         TUESDAY, MAY 22, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:04 p.m., in 
Room 2237, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Gutierrez, Jackson Lee, 
Ellison, Conyers, Lungren, and Gohmert.
    Staff present: Ur Mendoza Jaddou, Chief Counsel; David 
Shahoulian, Majority Counsel; George Fishman, Minority Counsel; 
and Benjamin Staub, Professional Staff Member.
    Ms. Lofgren. The Immigration Subcommittee will come to 
order about an hour late, with tremendous apologies to 
everyone. We had votes called just as our hearing was to begin, 
and we have been voting ever since.
    And so, by unanimous consent, we will postpone opening 
statements. We will postpone the adoption of our rules, which 
we will do later. And we will go directly to our first panel.
    Everyone has been waiting, but I understand that two of our 
witnesses actually must leave 4 minutes ago, and I am wondering 
if we could hear from them first and then go to the other 
witnesses in their turn.
    And that would be Reverend Cortes, the Reverend Luis 
Cortes, Jr., the president and CEO of Esperanza USA, who also 
works with the Federal Home Loan Bank in Pittsburgh. He was 
appointed to the Pennsylvania Minority Business Development 
Association by Governor Rendell and has done numerous other 
impressive things.
    And also, His Excellency Bishop Thomas G. Wenski of the 
Roman Catholic Diocese of Orlando, who has done many things, 
but I will not read the whole introduction, so that I can allow 
him to leave.
    If we may, Reverend Cortes, first. Your written statement 
will be made part of the record. If we could ask you to briefly 
summarize before we go to the bishop to ask the same thing, and 
then we will go to the other panel.

            STATEMENT OF REVEREND LUIS CORTES, JR., 
                    PRESIDENT, ESPERANZA USA

    Reverend Cortes. Thank you, Madam Chair, for the invitation 
to appear before you today and to share our thoughts on the 
essential components we need for a workable, compassionate, 
comprehensive immigration reform.
    As faith leaders, we are called to ground our conduct and 
treatment of others in our reading and understanding of 
Scripture. So, too, for guidance on immigration policy, we turn 
first to Scripture. Our support for comprehensive immigration 
reform comes from the Biblical mandate to advocate on behalf of 
the stranger in one's land--a practice that we learn from the 
Old Testament.
    It is written in Leviticus 19:33-34, ``When an alien 
resides with you in your land, you shall not oppress him. The 
alien who resides with you shall be to you as the citizen among 
you. You shall love the alien as yourself, for you were aliens 
in the land of Egypt. I am the Lord, your God.''
    In Matthew, chapter 25, verses 35 and forward, Christ calls 
on all his followers to treat immigrants with fairness, justice 
and hospitality. ``For I was hungry and you gave me something 
to eat. I was thirsty and you gave me something to drink. I was 
a stranger in your land and you invited me in.''
    Our call for Congress is to pass comprehensive immigration 
reform. It is to recognize our history as a nation of justice, 
mercy, and compassion. These are American principles, and they 
must not be abandoned in any new immigration reform.
    I want to take a moment to congratulate your Senate 
colleagues of both parties, Senator Ted Kennedy and Senator Jon 
Kyl, for reaching a consensus on one of the most complicated 
and politically charged policy issues this Congress will face. 
While the deal, as we see it, is far from perfect, I am hopeful 
that their proposal could be the platform for the workable, 
compassionate, comprehensive solution we seek.
    I had hoped that Senator Kyl's conservative credentials 
would have finally put to rest the continuing distortion of the 
word amnesty. As Christians, we understand amnesty. Amnesty is 
what Christ provided for us--a forgiveness for our sins when he 
paid for our sins with his life. True amnesty is unconditional 
and without penalty.
    The dictionary defines amnesty as the act of an authority, 
as a government, by which pardon is granted to a large group of 
individuals. A pardon is defined as the excusing of an offense 
without exacting a penalty. Amnesty is a free pass. And what is 
being discussed in our country today is far from a free pass.
    American people understand this. Both Republicans and 
Democrats have understood this. A Quinnipiac University poll 
last November, after all the campaign rhetoric before the 
election, had 66 percent of Republicans and 72 percent of 
Democrats supporting a temporary guest worker program with a 
path to citizenship.
    Just recently, April 15 to 19, the Terrence Group and Lake 
Research survey showed once again the American people of all 
parties, of all demographic groups, are far ahead of their 
politicians. Seventy-five percent of likely voters favor 
passage of a legislation that would create a path to 
citizenship.
    Support for this legislation crosses all racial and 
partisan ideological lines. Whites, African-Americans, Hispanic 
Americans and Asian Americans would support the legislation 
from 70 to 75 percent; Republicans and Democrats, 76 and 74 
percent; very conservative voters, 74 percent; conservative 
Christians at 78 percent; and that famous group called ``talk 
radio listeners,'' 76 percent.
    No one in these groups believes that what has been offered 
is amnesty.
    There is a lot of good in the agreement that the Senate is 
discussing. Measurable efforts to secure our borders are sound 
policy. The creation of the Z visa is a workable solution. 
Revising the visitors' visas to allow parents to come to the 
United States is a workable compromise that balances our pro-
family values with the unfortunate and, I believe, irrational 
fear of chain migration.
    Several of the compromises present real concerns. Not 
allowing access to Social Security contributions seems 
hypocritical, especially for conservatives, who, when arguing 
in support of tax cuts say, it is your money.
    We are hopeful that adult children--always integral parts 
of families--can be included in the expanded visitor's visa.
    But by far, my biggest concern is a merit system that on 
its face seems to favor the wealthy and highly educated over 
low-skilled, low-wage workers who are essential to our 
workforce and to our communities.
    We will withhold judgment until all details are known. But 
the idea of creating a meritocracy in America strikes of the 
reason we had a revolutionary war against the British.
    Let me be clear. Although there are a number of pieces that 
cry out for revision and many more we wish were not in that 
compromise at all, we understand that, if we are going to see 
comprehensive immigration reform become law, if we are going to 
be able to finally bring 12 million hardworking, contributing 
members of our communities out of the shadows and away from the 
fear they have learned to live with, we must work in the 
political climate of the day and seek compromise.
    No one wishes to isolate the dangerous elements of our 
society more than we do. Criminals prey on our people, and no 
one is more vulnerable than the undocumented.
    The strident, obstructionist, often xenophobic voices of 
the ``send them home'' crowd are wearing thin on the American 
public. We have heard that they are wearing thin on the 
patience of many House Members and look to you for leadership 
to equip your colleagues of both parties with the information 
they seek to back down to these bullies.
    The Hispanic Evangelical Church stands ready to be a full 
partner with the Federal Government to educate our people about 
this legislation, to offer greatly expanded English and 
citizenship classes and to be the place where people will come 
forward and move out of the shadows.
    We look forward to working with you and your colleagues in 
the days and weeks ahead to see real, compassionate, workable, 
comprehensive immigration reform become law.
    Thank you, Madam Chair.
    [The prepared statement of Reverend Cortes follows:]
                 Prepared Statement of Luis Cortes, Jr.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               ATTACHMENT

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Lofgren. Thank you very, very much.
    Bishop Wenski, if we could now hear from you?
    And then I realize you both have to leave, and we 
appreciate your spending an hour waiting for us.

     TESTIMONY OF THE MOST REVEREND THOMAS G. WENSKI, U.S. 
       CONFERENCE OF CATHOLIC BISHOPS, DIOCESE OF ORLANDO

    Bishop Wenski. Thank you.
    I would like to thank you and Ranking Member Steve King for 
inviting me to testify today, and also to thank the full 
Committee Chairman, John Conyers, for his leadership in this 
issue, and, of course, Representative Gutierrez for his hard 
work over the years on this important issue and also for the 
STRIVE Act, which is a very good bill to look at and hopefully 
will educate the Senate.
    Madam Chair, the issue of immigration has been widely 
debated in our country. It has been analyzed as an economic, 
cultural, social issue. But from the perspective of our church, 
immigration is ultimately a humanitarian issue with important 
moral implications.
    In my oral statement, I would like to focus on the bishop's 
concern with the bill pending before the Senate. My complete 
testimony expands on these issues and goes on to comment more 
fully on the bishop's views on comprehensive immigration 
reform.
    We are encouraged that the legislation that the Senate is 
considering contains a program that would permit many 
undocumented migrants currently in the United States to come 
out of the shadows, legalize their status and earn permanent 
residency.
    We are also encouraged by provisions that would devote 
visas to reducing the backlog in the availability of some of 
the family preference visas.
    However, we are deeply concerned with a number of the 
provisions in that legislation. We will be working to modify 
those provisions as the bill works its way through the Senate. 
And we strongly urge that you not replicate these problematic 
provisions in any legislation that the House takes up and 
passes.
    While we appreciate the inclusion in Title IV of the Ag 
Jobs legislation, we strongly oppose the Title's adoption of a 
temporary worker program that does not provide workers with the 
option of pursuing a path to permanent residency.
    We also have misgivings about workers having to return home 
after 2 years and remain outside of the country for a year. We 
think this will have the unintended consequence of continuing 
the problem of illegal stay in the country.
    Also, families would only be allowed to be with the 
temporary worker for 2 years out of a potential 6 years while 
working in the United States.
    We also have serious concerns about much of Title V of the 
bill that the Senate is currently considering. They include the 
elimination of the first, second, third and fourth family 
preference categories, the elimination of parents of U.S. 
citizens from the immediate relative category, capping parents 
of U.S. citizens at 40,000 visas a year.
    Last year, 120,000 parents came to join their U.S. citizen 
children. That leaves out 80,000 of people that would not 
benefit under the current proposed legislation.
    It eliminates more than 200,000 family-based visas each 
year. It dismisses the petitions of more than 800 petitioners 
who have filed their family preference petitions after May of 
2005 from the family preference system.
    The imposition of an untried and untested merit-based 
system that gives no weight to family ties is very problematic 
to us. And the reduction of more than 50 percent in special 
immigrant visas, including the reduction by more than 50 
percent of the visas available to special immigrant religious 
workers and the elimination of the diversity visa program, is 
also quite troubling.
    We urge your Subcommittee to protect family unity in our 
immigration system by replacing Title V in the Senate bill with 
Title 5 of the STRIVE Act. We should not abandon family unity 
as the cornerstone of our immigration system.
    We have two major concerns with the legalization program 
contained in Title VI of the Senate legislation. We are 
troubled that legalizing aliens through the Z visa would--those 
Z visa holders would be unable to petition for their immediate 
family members, who live outside of the United States, until 
they obtain permanent residency.
    This could take a minimum of 8 years and go up to 13 years 
before they could have family members join them. Again, I think 
that would have the unintended consequence of continuing 
illegal entry into the country and exacerbating the prison 
problem we are trying to solve.
    A second concern that we have with Title VI is the 
requirement that Z visa holders return to their home country to 
apply for permanent residency. This requirement could place an 
undue burden on applicants who are either unable to afford a 
return home or unwilling to, for fear of not being allowed to 
return.
    This could have an unintended chilling effect on 
participation in the legalization program, which would defeat 
the whole purpose of the program.
    We urge the Subcommittee to examine this aspect of the 
program and eliminate it or amend it, replace it with the 
``touch back'' provision contained in the STRIVE Act.
    We also urge the Subcommittee to carefully consider our 
recommendations on implementation issues, which I have expanded 
upon in my written testimony, to ensure that legalizing 
immigrants will be able to better integrate in our society.
    Finally, Madam Chair, we are concerned with the triggers in 
the Senate bill, which must occur prior to implementation of 
certain aspects of the legalization programs.
    One trigger is the construction of 370 miles of wall along 
our southern border, the hiring of 18,000 Border Patrol agents 
and the implementation of some aspects of REAL ID. And this has 
to be done before the temporary worker program and the 
residency program can go into effect.
    These programs should not be dependent on events which may 
or may not occur.
    We are hopeful that the House of Representatives, as you 
debate this issue, you will assure that neither legal or 
undocumented immigrants will be made scapegoats of the 
challenges we face as a nation.
    Rhetoric which attacks the human rights and dignities of 
the migrant does not serve a nation of immigrants. Xenophobic 
and anti-immigrant attitudes do not make us a better people. 
And we are better than that as a nation.
    The U.S. bishops are hopeful that this debate will consider 
not only the negative impacts of illegal immigration, but also 
the many benefits that immigrants bring to our communities and 
our nation.
    The problem is not the immigrants. The problem is the 
broken system. And rather than scapegoating the immigrants, we 
should fix the system.
    And we look forward to working with you, the Subcommittee 
and the full Committee, in the months ahead to do just that.
    Thank you very much.
    [The prepared statement of Bishop Wenski follows:]
                 Prepared Statement of Thomas G. Wenski
    I am Bishop Thomas Wenski of Orlando, Florida, and am here today to 
testify on the issue of immigration reform on behalf of the U.S. 
Conference of Catholic Bishops (USCCB).
    I would like to thank Representative Zoe Lofgren (D-CA), chairwoman 
of the House Subcommittee on Immigration, and Representative Steve King 
(R-IA), ranking member, for having me today and for holding a hearing 
on the faith-based views on immigration reform. I would also like to 
thank full Judiciary Committee Chairman John Conyers (D-MI) for his 
ongoing leadership and support for immigration reform.
    Madam Chairman, the U.S. Senate is currently engaging in a historic 
debate on immigration reform. We are hopeful that the Senate will pass 
a fair and humane immigration bill and send it for consideration to the 
House of Representatives. We know that you have worked tirelessly since 
becoming Chair of this subcommittee to find a consensus in the House of 
Representatives on this important issue. We are hopeful that your 
leadership will produce comprehensive immigration reform legislation 
which comports with standards of fairness and justice.
    My purpose in testifying today is to communicate the position of 
the Catholic Church in the United States on the best model for 
immigration reform and to comment on legislation currently being 
considered in the Senate and U.S. House of Representatives. My 
testimony will focus upon 1) the role of the Catholic Church in the 
immigration reform debate; 2) the position of the USCCB on S. 1348, the 
Secure Borders, Economic Opportunity, and Immigration Reform Act of 
2007, which is currently being considered by the Senate; 3) the 
position of the Catholic Church on comprehensive immigration reform; 
and 4) the position of the USCCB on H.R. 1645, the Security Through 
Regularized Immigration Act of 2007 (STRIVE), that has been referred to 
your full committee.
    the role of the catholic church in the immigration reform debate
    Madam Chairman, the issue of immigration is complex, and it elicits 
strong opinions and emotions from all sides of the public debate. The 
immigration issue touches upon our national economic, social, and 
cultural interests, and it has been analyzed and dissected 
predominately in those terms. From the perspective of the Catholic 
Church, immigration reform is ultimately a humanitarian issue because 
it impacts the basic human rights and dignity of the human person.
    As providers of pastoral and social services to immigrants 
throughout the nation, we in the Catholic Church witness the human 
consequences of a broken immigration system every day in our parishes, 
social service programs, hospitals, and schools. Families are divided, 
migrant workers are exploited and abused, and human beings 
unnecessarily die in the American desert. As a participant in the 
public debate, the U.S. Conference of Catholic Bishops (USCCB) has 
attempted to point out the human suffering that occurs in our country 
each day as a result of an immigration system that lacks due process 
protections and fails to provide the legal status and legal avenues 
needed to protect immigrants from exploitation.
    As a moral matter, the United States cannot employ a system which 
accepts the toil, taxes, and other contributions undocumented 
immigrants make to our nation without providing them the protection of 
the law. I would also add that sending nations have an obligation as 
well to pursue policies that produce living wage jobs so that their 
citizens can remain in their country and support their families in 
dignity.
    Madam Chairman, the Catholic Church also will play an instrumental 
role once a new immigration bill is implemented and thus has a strong 
interest in helping to pass legislation which is fair and humane. The 
Church is present in communities around the nation and throughout 
sending countries. Migrants and immigrants will come to us to ask us to 
shepherd them through the new system. They also will ask us whether 
they should ``come out of the shadows'' and participate in any new 
program. We want to be able to tell them with authority and credibility 
to come into the light of day.
Catholic Social Teaching and Immigration
    The Catholic Church is an immigrant church. More than one-third of 
Catholics in the United States are of Hispanic origin. The Church in 
the United States is also made up of more than 58 ethnic groups from 
throughout the world, including Asia, Africa, the Near East, and Latin 
America.
    The Catholic Church has a long history of involvement in the 
immigration issue, both in the advocacy arena and in welcoming and 
assimilating waves of immigrants and refugees who have helped build our 
nation throughout her history. Many Catholic immigration programs were 
involved in the implementation of the Immigration Reform and Control 
Act (IRCA) in the 1980s, and those programs continue to serve 
immigrants today. In fact, the USCCB) was a national coordinating 
agency for the implementation of IRCA. We have a strong working 
relationship with the Department of Homeland Security (DHS) and with 
U.S. Citizenship and Immigration Services (USCIS), the agency that 
would be largely responsible for implementing any new legalization and 
temporary worker programs. There are currently 158 Catholic immigration 
programs throughout the country under the auspices of the U.S. bishops.
    The Church's work in assisting migrants stems from the belief that 
every person is created in God's image. In the Old Testament, God calls 
upon his people to care for the alien because of their own alien 
experience: ``So, you, too, must befriend the alien, for you were once 
aliens yourselves in the land of Egypt'' (Deut. 10:17-19). In the New 
Testament, the image of the migrant is grounded in the life and 
teachings of Jesus Christ. In his own life and work, Jesus identified 
himself with newcomers and with other marginalized persons in a special 
way: ``I was a stranger and you welcomed me.'' (Mt. 25:35) Jesus 
himself was an itinerant preacher without a home of his own as well as 
a refugee fleeing the terror of Herod. (Mt. 2:15)
    In modern times, popes over the last 100 years have developed 
Church teaching on migration. Pope Pius XII reaffirmed the Church's 
commitment to caring for pilgrims, aliens, exiles, and migrants of 
every kind, affirming that all peoples have the right to conditions 
worthy of human life and, if these conditions are not present, the 
right to migrate.\1\ Pope John Paul II stated that there is a need to 
balance the rights of nations to control their borders with basic human 
rights, including the right to work: ``Interdependence must be 
transformed into solidarity based upon the principle that the goods of 
creation are meant for all.'' \2\ In his pastoral statement, Ecclesia 
in America, John Paul II reaffirms the rights of migrants and their 
families and the need for respecting human dignity, ``even in cases of 
non-legal immigration.'' \3\
---------------------------------------------------------------------------
    \1\ Pope Pius XII, Exsul Familia (On the Spiritual Care of 
Migrants), September, 1952.
    \2\ Pope John Paul II, Sollicitudo Rel Socialis, (On Social 
Concern) No. 39.
    \3\ Pope John Paul II, Ecclesia in America (The Church in America), 
January 22, 1999, no. 65.
---------------------------------------------------------------------------
    In an address to the faithful on June 5, 2005, His Holiness Pope 
Benedict XVI referenced migration and migrant families; ``. . . my 
thoughts go to those who are far from their homeland and often also 
from their families; I hope that they will always meet receptive 
friends and hearts on their path who are capable of supporting them in 
the difficulties of the day.''
    In our recent joint pastoral letter, the U.S. and Mexican Catholic 
bishops further define Church teaching on migration, calling for 
nations to work toward a ``globalization of solidarity:'' ``It is now 
time to harmonize policies on the movement of people, particularly in a 
way that respects the human dignity of the migrant and recognizes the 
social consequences of globalization.'' \4\
---------------------------------------------------------------------------
    \4\ Strangers No Longer: Together on the Journey of Hope. A 
Pastoral Letter Concerning Migration from the Catholic Bishops of 
Mexico and the United States,'' January 23, 2003, n. 57.
---------------------------------------------------------------------------
    For these reasons, the Catholic Church holds a strong interest in 
the welfare of immigrants and the ways in which our nation welcomes 
newcomers from all lands. The current immigration system, which can 
lead to family separation, suffering, and even death, is morally 
unacceptable and must be reformed.
    position of the usccb on s. 1348, the secure borders, economic 
            opportunity, and immigration reform act of 2007
    Much attention is being focused on legislative efforts underway in 
the other body, where the Senate is considering a bipartisan 
comprehensive reform proposal negotiated between the White House and 
several senators, including Senators Edward M. Kennedy (D-MA) and Jon 
Kyl (R-AZ).
    The bishops are encouraged that the legislation that the Senate is 
considering contains a program that would permit many undocumented 
migrants currently in the United States to come out of the shadows, 
legalize their status, and earn permanent residency. The bishops also 
are encouraged by provisions that would devote visas to reducing the 
backlog in the availability of some of the family preference visas. 
However, we are deeply concerned with a number of the provisions in 
that legislation. We will be working to modify those provisions as the 
bill works its way through the Senate. And we strongly urge that you 
not replicate these problematic provisions in any legislation that the 
House takes up and passes.
    In a statement released on May 17, 2007, Bishop Gerald Barnes, 
chairman of the USCCB Committee on Migration, stated that the U.S. 
bishops outlined three specific problem areas, including the 
legalization program in Title VI, the new worker visa program in Title 
IV, and the changes to the family preference system in Title V. While 
these areas do not represent the totality of our concerns, for purposes 
of this testimony I would like to focus upon them for the subcommittee.
Title IV--Temporary Worker Program
    While we appreciate the inclusion in Title IV of AgJOBS 
legislation, we strongly oppose the Title's adoption of a temporary 
worker program that does not provide workers with the option of 
pursuing a path to permanent residency. This could create an underclass 
of workers in our society who are easily exploitable and without full 
rights and privileges in the society. We also have misgivings about 
workers having to return home after two years and remain outside of the 
country for a year. We fear this may result in some workers choosing to 
stay illegally.
    Other problems we have in Title IV include its unrealistic 
requirements for health insurance and minimum income levels, and the 
reliance on the unrealistic triggers found in Title I of the 
legislation before the temporary worker program can begin to operate.
Title V--Reconfiguration of the Legal Immigration System
    We have serious concerns about much of Title V of the bill that the 
Senate is currently considering. These include opposition to the 
elimination of the 1st, 2b, 3rd, and 4th family preference categories; 
elimination of parents of U.S. citizens from the immediate relative 
category; capping parents of U.S. citizens at 40,000 visas per year; 
elimination of more than 200,000 family-based visas each year; 
dismissal of the petitions of more than 800,000 petitioners who filed 
their family preference petitions after May of 2005 from the family 
preference system; imposition of an untried and untested ``merit-
based'' system that would give virtually no weight to family ties; a 
reduction by more than 50 percent in special immigrant visas, including 
a reduction by more than 50 percent in visas available to special 
immigrant religious workers; and elimination of the diversity visa 
program.
    We urge the subcommittee to protect family unity in our immigration 
system by replacing Title V of the Senate bill with Title V of the 
STRIVE Act. This would maintain the family preference system as 
currently administered and clear up interminable family backlogs. From 
the church perspective, a family member from Central America, Africa, 
Asia, the Caribbean, or elsewhere could well offer the country as much 
as a computer software engineer. We should not abandon family unity as 
the cornerstone of our immigration system.
Title VI--Legalization Program
    We have two major concerns with the legalization program contained 
in Title VI of the Senate legislation. First, we are troubled that 
legalizing aliens, known as Z visa holders, would be unable to petition 
for their immediate family members who live outside the United States 
until they obtain permanent residency. Under this legislation, this 
process would take a minimum of eight-to-thirteen years but could take 
much longer. We urge the subcommittee to amend this aspect of the 
program and permit immediate family members to permanently reunite with 
a Z visa holder in a timely manner.
    A second concern we have with Title VI is the requirement that Z 
visa holders return to their home country to apply for permanent 
residency. This requirement could place an undue burden on applicants 
who are either unable to afford a return home or unwilling to for fear 
of not being allowed to return. It could have an unintended 
``chilling'' effect on participation in the permanent residency 
program, an effect which could defeat the purpose of the program. We 
urge the subcommittee to examine this aspect of the program and 
eliminate it or, at a minimum, replace it with the ``touch back'' 
provision contained in the STRIVE Act.
    Other concerns we have with Title VI of the Senate bill includes 
what may well be excessive fees for persons attempting to legalize 
their status and inadequate funding for the infrastructure to shepherd 
the estimated 12 million migrants through the legalization process. We 
also are concerned that the unrealistic triggers found in Title I of 
the legislation could impede the ability of Z visa holders to adjust 
their status, thus relegating them to a permanent state of uncertainty.
    We hope to work closely with you and other members of the Committee 
in coming weeks on these and other concerns we have with the Senate 
bill.
The Position of the USCCB on Comprehensive Immigration Reform
    Madam Chairman, the U.S. Catholic bishops believe that any 
comprehensive immigration reform bill should include 1) an earned 
legalization program that gives migrant workers and their families the 
opportunity to obtain permanent residency; 2) a new worker visa program 
that protects the labor rights of both U.S. and foreign-born workers 
and gives participants the opportunity to earn permanent residency; 3) 
reform of the family-based preference system to ensure that families 
are reunited in a timely fashion; 4) restoration of due process 
protections for immigrants; and 5) policies that address the root 
causes of migration, such as the lack of sustainable development in 
sending countries. We also urge Congress to ensure that provisions are 
included to facilitate the implementation of any bill in an efficient 
and fair manner.
    Earned Legalization Program. A main feature of comprehensive 
immigration reform should be an earned legalization program which 
provides the more than 12 million undocumented persons in the nation 
legal status and an opportunity to earn the opportunity to apply for 
permanent residency. Such a program should be workable, achievable, and 
fair. For example, a program cannot be so complicated as to be 
ultimately unworkable, and it should not be so onerous as to discourage 
otherwise qualified applicants from ``coming out of the shadows.'' This 
program should include waivers so as to maximize those eligible for 
legalization. It should ensure confidentiality in the application and 
adjudication process and provide for meaningful judicial review for 
those who might be unfairly denied. The legalization program should 
allow immediate family members outside of the United States to join 
their loved one (spouse or parent) in the United States. Finally, it 
should not require eligible persons to travel back to their home 
country for processing.
    The Agricultural Job Opportunity, Benefits, and Security Act of 
2007 (S.340, H.R. 371) ``AgJobs'' represents a bipartisan initiative 
that would help protect both a vital industry and a labor force which 
is vulnerable to exploitation. Introduced in the House of 
Representatives by Representatives Howard Berman (D-CA) and Chris 
Cannon (R-UT), this measure represents a negotiated agreement between 
the agricultural employers and the United Farm Workers. In the terms of 
this agreement, the legislation would both stabilize the labor force in 
this important industry and ensure that employers have access to a 
work-authorized supply of labor, if necessary.
    The Development, Relief, and Education for Alien Minors Act (DREAM 
Act) represents another bipartisan initiative that would allow some 
undocumented students to be eligible for in-state tuition and legal 
status as permanent legal residents. Having entered the United States 
as very young children, often through no fault of their own, these 
students have contributed to their schools and communities. Many have 
lived in the United States for years.
    We urge Congress to enact both of these important pieces of 
legislation by including them in a comprehensive immigration reform 
measure.
    New Worker Visa Program. Perhaps the most problematic aspect of 
immigration policy reform is the creation of a new worker program that 
protects the basic rights of all workers, both foreign and domestic. 
The history of ``guest worker'' programs in the United States has not 
been a proud one. Indeed, the Bracero program, the largest U.S. 
experiment with temporary laborers from abroad, ended abruptly in 1964 
because of abuses in the program. The U.S. Catholic bishops have long 
been skeptical of large-scale ``guest worker'' programs. Nevertheless, 
the status quo, which features a large underclass of undocumented 
workers unprotected by the law, is unacceptable.
    In this regard, the U.S. and Mexican bishops have proposed the 
following elements for a ``new worker program.'' From both sides of the 
border, the Catholic Bishops have agreed that these elements, if 
properly implemented, would help protect the rights of foreign and U.S. 
workers and ensure that legal avenues are provided for future migrants 
to enter the country in a safe, legal, and humane manner.

        <bullet>  Wage and Benefit Levels. Any worker program must 
        feature wage levels and benefits given domestic workers in an 
        industry. Overtime pay should be available. Benefits such as 
        worker's compensation, social security, housing, and health-
        care should be made available.

        <bullet>  Worker Protections and Job Portability. Workers 
        should enjoy the same protections of U.S. labor law as U.S. 
        workers, regardless of industry, including a right to redress 
        grievances in federal court and a transparent arbitration 
        system; safe and sanitary working conditions; and expressed 
        terms of employment. Workers should be able to move to other 
        employment within an industry and not be tied to one employer. 
        Work accrued toward permanent residency should not be affected 
        by changing jobs or employers.

        <bullet>  Family Unity. Workers should be able to be joined by 
        spouse and children in the United States during the length of 
        the worker's visa. Either spouse should be eligible for work 
        authorization, regardless of whether he or she works in the 
        program. Spouses and children should be able to become eligible 
        for permanent residency at the same time as the worker in the 
        program.

        <bullet>  Labor-Market Test. A mechanism should be included to 
        ascertain whether U.S. workers within an area are adversely 
        impacted by the hiring of workers from abroad. Employers should 
        be required to advertise job openings in the United States to 
        the maximum extent practicable and make good-faith efforts to 
        recruit U.S. workers for a sufficient amount of time.

        <bullet>  Mobility. Workers and their families should be able 
        to travel throughout the United States, travel back and forth 
        from the United States to their country of origin, as well as 
        travel from work site to work site, regardless of location, for 
        the duration of their visa. Visas should be renewable as long 
        as workers meet the requirements of the program, and applicable 
        waivers to bars to admission should apply.

        <bullet>  Enforcement Mechanisms. Resources should be 
        appropriated to ensure proper enforcement of worker protections 
        in the program. Workers should be given the right to sue in 
        federal court for violation of rights.

        <bullet>  Path to Residency. Workers should have the option of 
        working to earn permanent residency over time, similar to an 
        earned legalization program, as outlined elsewhere in my 
        testimony.

    In our view, any new worker program must contain these elements in 
order to avoid the abuses of past such programs and to ensure that 
worker's rights are protected. In addition, the new worker program 
should be enacted in conjunction with a legalization program for the 
undocumented so that groups of workers are not pitted against each 
other. A just worker program also will mitigate the amount and effects 
of undocumented migration, which can lead to the abuse, exploitation, 
or even death of migrants.
    Family Reunification. Family reunification, upon which much of the 
U.S. immigration system has been based for the past 40 years, must 
remain the cornerstone of U.S. immigration policy. Immigrant families 
contribute to our nation and help form new generations of Americans. 
Even while many migrants come to the United States to find employment, 
many come as families.
    The U.S. family-based immigration system, which helps keep families 
together, is in urgent need of reform. The current visa quota system, 
last revised by Congress in 1990, established statutory ceilings for 
family immigration that are now inadequate to meet the needs of 
immigrant families wishing to reunite in a timely manner. The result 
has been waiting times of five years or more--and more than eight years 
for Mexican permanent residents--for spouses to reunite with each other 
and for parents to reunite with minor children. The waiting times for 
adult siblings to reunite can be twenty years or longer.\5\
---------------------------------------------------------------------------
    \5\ U.S. Citizenship and Immigration Service Fact Sheet, January, 
2004.
---------------------------------------------------------------------------
    The family preference system should be reformed in the following 
manner:

        <bullet>  Raising current world-wide numerical limitations. 
        Significantly raising the current world-wide numerical 
        limitations on immigrant visas, as well as raising the ceiling 
        on various family visa categories could dramatically reduce the 
        current family backlog. Currently, the Immigration and 
        Nationality Act (INA) sets an annual minimum family-sponsored 
        preference limit of 480,000. In addition, the per-country limit 
        for preference immigrants is set at seven percent of the total 
        annual family-sponsored and employment-based preference limits. 
        These limitations result in lengthy waits for family members 
        abroad awaiting visas to immigrate to the United States. 
        Raising these numbers significantly would reduce these waits.

        <bullet>  Changing the treatment of ``immediate relatives.'' 
        The immediate relative category, which currently includes only 
        the children, spouses, and parents of U.S. citizens is not 
        subject to the family preference numerical limitations. 
        However, the number of immediate relative visas granted is 
        subtracted from the overall family immigration cap. Reducing 
        the family backlog can be achieved by: 1) not counting 
        immediate relatives of U.S. citizens against the family 
        immigration cap and 2) placing the immediate relatives of 
        lawful permanent residents into the same category as immediate 
        relatives of U.S. citizens. This would help free up visas for 
        other categories.

    Enforcement Regime and Due Process. Madam Chairman, I would like to 
concentrate at this point in my testimony on how the enactment of 
comprehensive immigration reform would enhance, not undermine, our 
ability to protect our nation from terrorist threats. By enacting 
comprehensive immigration reform, the United States would better be 
able to identify who is already in the country and to identify and 
control who enters it. For example, a greater portion of the 11-12 
million undocumented persons in the nation likely would emerge ``from 
the shadows'' and identify themselves to the government in order to 
participate in the earned legalization program. The establishment of 
additional employment-based and family-based visas for low-skilled 
workers and their families would provide legal avenues for those 
seeking to enter the United States, helping to better ensure that the 
government knows who is entering the country and for what purpose.
    Madam Chairman, I am not alone in this assessment. Last year, nine 
former Homeland Security officials issued a statement which read, 
``enforcement alone will not do the job of securing our borders. 
Enforcement at the border will only be successful in the long-term if 
it is coupled with a more sensible approach to the 10-12 million 
illegal aliens in the country and the many more who will attempt to 
migrate to the United States for economic reasons.''
    At this point, Madam Chairman, I would like to offer several 
principles which we believe should govern your deliberations and 
decisions on any new enforcement measures adopted in a comprehensive 
immigration reform bill:
    Any new enforcement measures are best implemented within 
comprehensive immigration reform. We believe that any new enforcement 
measures are best applied within the context of comprehensive 
immigration reform. By creating legal avenues for immigration that meet 
our economic needs and help reunite families, and by legalizing the 
undocumented population who pass specific and rigorous security checks, 
enforcement personnel can more easily identify those who truly threaten 
our communities and nation: drug and human traffickers, human 
smugglers, and terrorists.
    Enforcement measures should not be overly punitive or undermine due 
process. Legislation adopted by the House of Representatives in 2005 
included provisions that criminalized undocumented persons and those 
providing them assistance. Other provisions removed due process 
protections for immigrants, including permanent residents and other 
legal immigrants. Such measures do not deter illegal immigration but 
instead undermine the fairness in our immigration laws.
    Enhanced protection should be respectful of human rights and human 
life. Federal border enforcement personnel play a crucial role in 
protecting our nation and deserve our respect and support for their 
commitment to our security. We are grateful for their ongoing efforts 
to identify and rescue migrants who are in distress. We support more 
resources for infrastructure and staffing at ports-of-entry, which 
would help relieve an overburdened system, promote our security, and 
allow for more expeditious and humane treatment of immigrants. However, 
we oppose enforcement strategies which may lead migrants into remote 
areas of the desert, and, thereby, lead to more deaths.
    Immigrants should not be treated as criminals. We do not believe 
that the large majority of undocumented immigrants are criminals and 
should not be treated as such. In cases where immigrants have engaged 
in criminal activity, they should be dealt with in our criminal justice 
system in a fair and balanced way. We are concerned with reports that 
these immigrants are being detained in substandard and crowded 
conditions, including in ``tent cities'' or local jails. Immigrants 
should not be detained on a mandatory or indefinite basis or without 
having their ``day in court.'' Enforcement measures should reflect 
these goals.
    Families and children deserve special care and attention. Efforts 
should be made to keep families together through release or 
alternatives to detention, wherever possible. If detention is 
necessary, a family should be held in a non-penal setting. Children 
should be protected from dangerous conditions and, if unaccompanied by 
a parent or guardian, have access to counsel and be placed in the least 
restrictive setting.
    Asylum-seekers and refugees should be afforded protection. Those 
who come to our shores in need of protection from persecution should be 
afforded an opportunity to assert their claim to a qualified 
adjudicator and should not be detained unnecessarily. The expansion of 
``expedited removal,'' a practice that puts bona fide refugees and 
other vulnerable migrants at risk of wrongful deportation, should be 
halted. At a minimum, strong safeguards, such as those suggested by the 
U.S. Commission on International Religious Freedom, should be 
instituted to prevent the return of the persecuted to their 
persecutors.
    Madam Chairman, the U.S. Catholic bishops reaffirm the right of our 
nation to secure our borders. The above principles will help guide this 
effort so that the basic human rights and dignity of persons are 
protected.
    Finally, we urge the committee to reexamine the changes made by the 
1996 Illegal Immigration Reform and Immigrant Responsibility Act 
(IIRIRA), which eviscerated due process protections for immigrants. We 
urge you to restore judicial discretion in removal proceedings so that 
families are not unnecessarily divided.
    Root Causes of Migration. In our pastoral letter, the U.S. and 
Mexican Catholic bishops write, ``the realities of migration between 
both nations require comprehensive policy responses implemented in 
unison by both countries. The current relationship is weakened by 
inconsistent and divergent policies that are not coordinated and, in 
many cases, address only the symptoms of migration and not its root 
causes.'' \6\
---------------------------------------------------------------------------
    \6\ Strangers No Longer, n. 56.
---------------------------------------------------------------------------
    It is critical that the Congress and the administration look at the 
immigration issue with Mexico and other governments as part and parcel 
of the entire bilateral relationship, including trade and economic 
considerations. Addressing the immigration systems of both nations, for 
example, will not control the forces that compel migrants to come to 
the United States.
    In an ideal world for which we must all strive, migrants should 
have the opportunity to remain in their homelands and support 
themselves and their families. In this regard, we renew our call to 
both the U.S. and Mexican governments to resume bilateral migration 
negotiations so that all issues that impact migration to the United 
States are addressed.
    Implementation Issues. It is important to understand that the 
manner in which comprehensive immigration reform is implemented is 
vital to its success. A public-private partnership is necessary so that 
immigrant communities are aware of the facts of the application process 
(thus eliminating the involvement of ``notarios'') and are able to 
receive assistance in accessing the program.
    It will be essential that Congress provide adequate resources for 
DHS to implement and execute any earned adjustment program. As passed 
by the Senate, the Comprehensive Immigration Reform Act (CIRA) of 2006 
anticipated this by establishing fees that would generate approximately 
66 billion dollars of revenue dedicated to processing applications for 
earned adjustment.
    The fee-generated funds will not be adequate to meet the financial 
needs of this implementation program; Congress will also need to 
directly appropriate funds to get the program started. Additionally, 
Congress must be diligent in its oversight and to ensure that fee-
generated funds are not diverted for other purposes, as has often been 
done in the past
    While some may quarrel with the use of appropriated funds for this 
purpose, I would suggest that the alternative would likely require the 
expenditure of far more funds and yield a less desirable result. The 
cost of properly implementing an earned adjustment program is tiny when 
compared to the cost of deporting 12 million, which has been estimated 
as $240 billion, or $25,000 per immigrant.
    Mr. Chairman, we believe that any comprehensive legislation can be 
implemented through a combination of reasonable fees imposed on 
applicants with some supplemental funding appropriated by Congress. 
Fees should not be imposed, however, which place the program out of the 
reach of qualified applicants.
    We recommend the inclusion of the following elements in any 
legislation to ensure that a program is implemented appropriately:

        <bullet>  Confidentiality. Applicants for both the legalization 
        and temporary worker program should be extended confidentiality 
        and not be subject to arrest and deportation if they fail to 
        qualify for the program. This would ensure maximum 
        participation in the program and would prevent those who do 
        qualify are not discouraged or intimidated from applying.

        <bullet>  Qualified Designated Entities Board of Immigration 
        Appeals (BIA)-accredited Qualified designated entities (QDEs) 
        should be created to assist in implementation of both programs.

        <bullet>  Reasonable Implementation Period. Sufficient time 
        should be given between enactment and implementation so that 
        regulations, procedures, and infrastructure are in place. 
        Deportations of prospective applicants should be suspended 
        between these two dates.

        <bullet>  Creation of a Separate Entity. A separate entity, 
        similar to the asylum corps, should be created within the U.S. 
        Bureau of Citizenship and Immigration Services (USCIS) to 
        implement the legislation. Such an entity should be adequately 
        funded through appropriations.

        <bullet>  Derivative Benefits. Immediate family members should 
        receive the same immigration benefits under legalization/
        temporary worker program as the worker.

        <bullet>  Generous Evidentiary Standards. For purposes of 
        verifying an alien's eligibility for legalization, evidentiary 
        standards should be based upon ``preponderance of the 
        evidence'' and should include a wide range of proof, including 
        attestation.

        <bullet>  One-Step Legalization. A one-step legalization 
        program would verify eligibility and security and background 
        checks in one process up front and not in a two-step process, 
        i.e. upon conditional status and then permanent status.

        <bullet>  Operational Terms should be defined. Operational 
        terms in the bill, such as ``continuous residence,'' ``brief, 
        casual, and innocent,'' and ``known to the government,'' should 
        be defined in the legislation to avoid later confusion.

        <bullet>  Broad humanitarian waiver. A broad waiver of bars to 
        admissibility for legalized aliens, such as unlawful presence, 
        fraud, or other minor offenses, should be included in the 
        legislation.

    The inclusion of these elements in any legislation would facilitate 
the implementation of any program.
    In addition, the Congress and the Administration should take steps 
to reduce the current immigration adjudication backlogs so that 
immigrants receive benefits in a timely way, and so that the U.S. 
Citizenship and Immigration Service (USCIS) can successfully work 
towards implementing new programs.
    Moreover, the government has just proposed an increase in fee 
applications by three times for green card applications, leaving these 
benefits financially out of reach of many applicants.\7\
---------------------------------------------------------------------------
    \7\ 69 Federal Register 5088 (February 2, 2007)
---------------------------------------------------------------------------
    Madam Chairman, reduction in the current backlogs in naturalization 
and adjustment of status applications as well as the maintenance of 
affordable fees should be part of our nation's efforts to reform our 
immigration system. We recommend that Congress evaluate the budget of 
the U.S. Citizenship and Immigration Service (USCIS) and provide more 
directly appropriated funding for infrastructure and backlog reduction. 
Without more efficiency in the system, a new comprehensive reform 
program of any type may be unworkable, absent the creation of a new 
entity to implement it.
     the position of the usccb on the security through regularized 
         immigration and a vibrant economy act of 2007 (strive)
    To date in the 110th Congress, H.R. 1645, the Security Through 
Regularized Immigration and a Vibrant Economy Act of 2007 (STRIVE), 
bipartisan legislation introduced by Representatives Luis Gutierrez (D-
IL) and Jeff Flake (R-AZ), best comports with the principles needed for 
a just and humane immigration reform bill. The legislation contains a 
viable program for legalizing the undocumented population and giving 
them an opportunity for permanent residency, a new worker program with 
appropriate worker protections and wages, and reductions in family 
immigration backlogs. We believe that the STRIVE Act should be the 
vehicle for comprehensive reform in the House of Representatives.
    We have some concerns, however, about several provisions in Title 
II of the legislation, which we hope will be addressed during the 
legislative process. For example, we believe that passport fraud 
provisions found in section 221 of the measure would place bona fide 
refugees at risk, many of whom must resort to the use of false travel 
documents obtained in their home country because they cannot obtain 
government documents from authorities that may be persecuting them. We 
also object to aspects of section 234c of the bill that seeks to deal 
with penalties for persons who harbor and smuggle aliens. Although the 
section would exempt religious organizations from some of its 
penalties, it would place other groups and individuals, including labor 
unions, at risk of prosecution for providing basic needs assistance to 
undocumented immigrants. We believe these and other provisions in Title 
II should be removed from the legislation or substantially modified.
    We also have some concerns with the ``triggers'' contained in the 
STRIVE Act--goals which must be achieved prior to the implementation of 
the legalization programs. The legislation requires the implementation 
of the first phase of an electronic employer verification system and 
the creation of the infrastructure necessary to improve immigration 
document security for a tamper-resistant identification card. We urge a 
provision which allows the legalization programs to go forward if these 
goals are not met within the deadlines outlined in the legislation.
    Despite these reservations, we believe the STRIVE Act contains the 
right structure and formula to effectively address our immigration 
crisis and should be the basis for any immigration reform legislation 
considered by the U.S. House of Representatives.
                               conclusion
    Madam Chairman, the U.S. House of Representatives, and specifically 
your subcommittee, will soon consider historic immigration reform 
legislation. We ask that you consider strongly our recommendations in 
this area and pass a fair, just, and workable bill.
    We urge you and the House leadership to permit amendments to 
improve the final product of any legislation.
    We are hopeful that, as the House of Representatives debates this 
issue, neither legal nor undocumented immigrants will be made 
scapegoats of the challenges we face as a nation. Rhetoric which 
attacks the human rights and dignity of the migrant does not serve a 
nation of immigrants; additionally, xenophobic and anti-immigrant 
attitudes will only serve to lessen us as a nation. The U.S. bishops 
are hopeful that this debate will consider not only the negative 
effects of illegal immigration but also the many benefits that 
immigrants bring to our communities and our nation.
    Madam Chairman, the U.S. bishops look forward to working with you 
in the months ahead to fashion an immigration system which upholds the 
valuable contributions of immigrants and honors the rule of law.
    Thank you for your consideration of our views.

    Ms. Lofgren. Thank you very much, Bishop. And we understand 
that you have to leave, but we do very much appreciate your 
patience and being here.
    We will now introduce the rest of our panel. The voices of 
the faithful are very important as the nation considers the 
issue of immigration.
    And I would like to turn to the Chairman of the full 
Committee to introduce Reverend Adams, because he has a close 
connection with Reverend Adams.
    Mr. Conyers. Thank you, Subcommittee Chairwoman Zoe 
Lofgren, and to my friends, Judge Gohmert and Luis Gutierrez 
and Congressman Ellison, our newest Member from Minnesota on 
the Judiciary Committee.
    This is a pleasure, because I have worked with Dr. Charles 
Adams of Hartford Memorial Church in Detroit for more years 
than we care to recount. He went to Harvard School of Divinity.
    And I just wanted you to know that the one thing on this 
long list of things that he accomplished is that he was one of 
the founders of the Progressive Baptist Convention, the 
Conference of Progressive Baptists in the United States, some 
20 years or so ago.
    He is still the senior pastor at Hartford Baptist Church in 
Detroit and currently teaches at the Ecumenical Theological 
Seminary in Detroit.
    I am proud of the activism that follows Dr. Martin Luther 
King, that he and I have talked about many times. And he has 
become the chair--he was the president of the Detroit branch of 
the NAACP, which was then, and is still, the largest branch of 
its kind in the nation. It holds a 10,000-person dinner every 
year at Cobo Hall.
    He speaks and lectures and preaches around the world, 
including before the United Nations on the South African 
apartheid. He has been with the World Council of Churches.
    He is a member of the general board of Christian Ethics 
Committee of the Baptist World Alliance, the World Council of 
Churches' board of directors, general board of the National 
Council of Churches, board of trustees of Morehouse College in 
Atlanta, Morris College of Sumter, South Carolina, and an 
activist in the true spirit of the reason that brings one, two, 
three, four, five, six, seven, eight people to a panel. This 
Subcommittee never has more than four members on its panels.
    But the question of what is the role of faith-based leaders 
in shaping a huge, comprehensive immigration policy is so 
important to us, that we have you all here.
    Thank you very much, and welcome.
    Ms. Lofgren. Thank you very much, Chairman Conyers.
    I would now like to introduce Mr. Gideon Aronoff, who is 
the president and CEO of the Hebrew Immigrant Aid Society. 
Prior to joining the Aid Society in 2000, he worked for nearly 
a dozen years in a number of leadership positions within 
Washington's and Boston's respective Jewish communities. He is 
a member of the board of directors of the National Immigration 
Forum and has worked tirelessly to build coalitions among 
community-oriented organizations. Mr. Aronoff earned his 
bachelor's degree from Brandeis and his law degree from 
Cornell.
    We are also pleased to have the Reverend Derrick Harkins 
with us today, pastor of the Nineteenth Street Baptist Church 
right here in Washington, D.C. Prior to his pastorate in 
Washington, Dr. Harkins was the Senior Minister of the New Hope 
Baptist Church of Dallas, Texas. During his tenure there, he 
served as President of the Greater Dallas Community of Churches 
and was a founding board member of the Dallas Leadership 
Foundation and the Morals and Values Project. He is a member of 
the General Council of the Baptist World Alliance, the 
Association for Clinical Pastoral Education, and serves as a 
member of the board of directors for World Relief, where he has 
been instrumental in directing a significant amount of 
resources to rebuilding the Gulf Coast. Dr. Harkins received 
his bachelor's degree from Boston University, his Master of 
Divinity from the Union Theological Seminary in New York City, 
and his Doctorate in Homiletics from the United Seminary in 
Dayton, Ohio.
    I would also like to welcome Dan Kosten, the director of 
World Relief Refugee and Immigration Programs at the National 
Association of Evangelicals. Having worked with World Relief 
for over 5 years, Mr. Kosten provides technical support for a 
network of over 20 offices that offer a number of programs 
involving refugees, trafficking victims, and immigrants. Born 
in Taipei, Taiwan, Mr. Kosten worked for nearly 10 years in 
Central Africa, beginning as a member of the Peace Corps. He 
received his bachelor's degree from Calvin College and his 
master's degree in Missions and Intercultural Studies from 
Wheaton College. He is a member and deacon at Chapelgate 
Presbyterian Church.
    Next, I am pleased to welcome the minority's two witnesses, 
the first of whom is Dr. Jim Edwards, an Adjunct Fellow at the 
Hudson Institute. Dr. Edwards co-authored the book, The 
Congressional Politics of Immigration Reform, which was 
nominated for the Hardeman Prize, and has contributed chapters 
to several published volumes, including Debating Immigration, 
edited by Carol M. Swain. Here on Capitol Hill, Dr. Edwards has 
served on the staffs of Congressman Ed Bryant, Congressman John 
Duncan, Jr., and Senator Strom Thurmond. He earned his 
bachelor's and master's degrees from the University of Georgia 
and his doctorate from the University of Tennessee.
    And finally, I am pleased to welcome the minority's second 
witness, Dr. Stephen Steinlight, a senior policy analyst at the 
Center for Immigration Studies. Dr. Steinlight earned his 
bachelor's degree with honors from Columbia University and 
studied at Princeton University as a Woodrow Wilson Fellow; at 
Clare College, Cambridge University as a Kellett Fellow; and at 
the University of Sussex as a Marshall Scholar, where he earned 
his doctorate.
    Again, thank you very much for your patience in waiting for 
us, but it was worth the wait for us to hear all of you. So, if 
we may begin.
    As mentioned earlier, all of your written statements will 
be made a part of the record. We do ask that you summarize your 
statements in about 5 minutes, so that we will have a chance to 
ask some questions.
    When this little machine has a yellow light, and when that 
yellow light goes on, it means that you have only got 1 minute 
left. And when the red light goes on, it means that the 5 
minutes are up, and we would ask you to try and wind up so that 
the next witness can be heard.
    So, we will begin with you, Reverend Adams. What an honor 
it is to have you here today.

TESTIMONY OF REVEREND CHARLES G. ADAMS, SENIOR PASTOR, HARTFORD 
                    MEMORIAL BAPTIST CHURCH

    Reverend Adams. My name is Charles G. Adams, pastor of 
Hartford Memorial Baptist Church in Detroit, Michigan. I am a 
constituent and an admirer of Chairman John Conyers, to whom I 
am grateful for this privilege.
    For the better part of my life, I have been a preacher and 
the pastor of Hartford Church, whose legendary leader was my 
predecessor, the late Reverend Dr. Charles A. Hill, Sr., who 
was active in the formation of organized labor in Detroit, the 
advancement of the civil rights movement and also the speaking 
of human rights for aliens and those who were not born in the 
United States, but found life in the United States.
    I speak in opposition to some aspects of the pending 
comprehensive reform legislation. While I applaud the existence 
of the proposed legislation as significantly progressive, I 
find many flaws that are both puzzling and troubling.
    My concerns are, one, if there is to be a border fence, it 
is ominously extended 370 miles, and 200 miles of vehicle 
barriers. And if such construction is to be a prerequisite to 
the immigration reform that is now before us, will such a 
prerequisite delay the needed immigration reforms indefinitely, 
since a long delay of barrier construction is to be expected?
    And will such a fence, that is described in some plans as 
triple-layered metal fencing, prove to be a hindrance to the 
existence of wildlife and become an impervious barrier to many 
wild animals in the area that are needed for the balance of 
nature?
    Many species of animals will not be able to fly over or to 
fight through the fence to get to the Rio Grande, their only 
available source of fresh water.
    The New York Times reports, moreover, that the border fence 
might also prevent other animals from swimming across the river 
to mate with loved partners on the other side. Such an outcome 
would be deleterious, if not destructive, of the $150 million a 
year tourist industry in that area.
    Secondly, the proposal before us seems unnecessarily to 
complicate and frustrate an effective, fair and reasonable way 
of legalizing immigrants. They are charged too much money, they 
have to wait too long, and they have too many hoops to jump 
through in order to qualify for documentation.
    In many respects, what is being proposed is inferior to the 
status quo.
    Thirdly, the proposal creates a permanent underclass of 
temporary immigrant workers, who are taken to be good enough to 
work here, but not good enough to live here and thrive here.
    The shift from family-based--and this is my fourth 
objection--the shift from family-based immigration to merit-
based immigration will destroy millions of families on both 
sides of the border, in defiance of the fact that we are all a 
family-based, world community of marvelously diverse people who 
need each other in order to survive and to thrive.
    It is a horror to imagine human civilization that is not 
family based. Without the family and the communities that are 
built by the family, life in America, according to 17th century 
philosopher Thomas Hobbes, would be ``poor, solitary, nasty, 
brutish and short.'' We must not allow this to happen. 
Motivated by faith, we know that we are better than that.
    Saint Anselm used to say, Fides quaerens intellectum--
``Faith seeks change and intelligence.'' It also seeks ethical 
responsibility, social equality and unfettered opportunity to 
rise higher. Faith perpetuates hope and generates love.
    It was Harvard philosophy professor Josiah Royce who coined 
the phrase ``beloved community'' and inspired the intellectual 
consciousness of Martin King, Jr., who found in Royce's writing 
a powerful social commentary, conceived from those Bible 
scriptures that articulate the demand of God for justice as a 
religious priority.
    The God of the Hebrew Bible and of the Greek New Testament 
made justice, not personal piety, the ultimate priority. That 
God is love does not denigrate justice, but necessitates 
justice.
    There is an old black spiritual that asks the question, 
``Is you got good religion?'' Not just is you got religion, but 
is it good religion? There is a whole lot of dangerous, bad, 
sick religion in the world. Bad religion can make you hard, 
cold, mean, and insensitive. Bad religion is worse than no 
religion.
    I heard Harvard New Testament scholar Krister Stendahl say, 
``There is not an evil cause in the world that has not been 
sponsored by somebody's sick, perverted, bad, hateful 
religion.''
    Bad religion spawned the medieval military crusades. Bad 
religion grabbed the enforcement of the State to destroy 
freedom of conscience. Bad religion set up the Inquisitions to 
enforce religious conformity. Bad religion murdered the 
Anabaptists, burned Joan of Arc at the stake, executed John 
Huss and Hans Denck, persecuted and banished Roger Williams.
    Bad religion killed William Tindale for translating the 
Bible into the vernacular of the people. Bad religion took 
apartheid to South Africa, brought slavery to America, fostered 
segregation, bigotry, exploitation, organized the Ku Klux Klan, 
generated the Nazi Party, created the immoral majority, 
produced division and hostility, hatred and dislocation.
    Bad religion assassinated Mahatma Gandhi, murdered Anwar 
Sadat, slew Indira Gandhi, cut up Lebanon, destroyed Iran, 
devastated Iraq, oppressed the poor, made September 11, 2001 a 
day of infamy, killed Martin Luther King, Jr., and devastated 
Yugoslavia.
    Bad religion takes life; good religion gives life. Bad 
religion castigates; good religion liberates. Bad religion 
talks about national defense; good religion talks about 
national purpose. Bad religion divides; good religion unites. 
Bad religion hates; good religion loves. Bad religion 
segregates; good religion integrates. Bad religion stays in 
church; good religion works in the world. Bad religion hangs 
around the alter; good religion takes the Jericho road.
    Bad religion builds fences; good religion builds bridges.
    Let us build bridges and not fences, and we will be a 
stronger, greater, freer America and world.
    Ms. Lofgren. Thank you very much, Reverend.
    Mr. Aronoff?
    And when the red light goes on, your time is up. There was 
no way I was interrupting Reverend Adams.
    Reverend Adams. I did not see the light. Where is the 
light?
    Ms. Lofgren. Oh, that is all right. [Laughter.]
    You had me. You had me. I was not going to interrupt.
    Mr. Gohmert. I thought you had seen the light; that is why 
you are here.
    Ms. Lofgren. Mr. Aronoff?

    TESTIMONY OF GIDEON ARONOFF, PRESIDENT AND CEO, HEBREW 
                  IMMIGRANT AID SOCIETY (HIAS)

    Mr. Aronoff. Thank you, Madam Chairwoman. Thank you for the 
opportunity to testify before the Subcommittee and to present 
the Jewish community's perspective on comprehensive immigration 
reform.
    My name is Gideon Aronoff, and I am the president and CEO 
of the Hebrew Immigrant Aid Society. HIAS is the international 
migration arm of the American Jewish community, which for 126 
years has assisted over 4.5 million refugees, vulnerable Jewish 
and non-Jewish migrants, to safety and security in the United 
States and elsewhere around the world.
    HIAS, along with our national and local Jewish community 
partners, has been actively engaged in advocacy to support 
comprehensive immigration reform, to address our broken 
immigration system in a way that is both workable and humane.
    On March 20, 2007, in a show of broad support, more than 30 
prominent leaders in the American Jewish community sent a 
letter to congressional leadership urging passage of fair and 
workable, comprehensive immigration reform. Leaders of the 
American Jewish Committee, the Anti-Defamation League, United 
Jewish Communities, Jewish Council for Public Affairs and many, 
many other national and local leaders endorse this effort.
    We believe that any immigration reform legislation to fix 
the current system must include the following: border 
protection and interior enforcement policies that are both 
effective and humane; an opportunity for hardworking immigrants 
who are already here to come out of the shadows, regularize 
their status, and after satisfaction of reasonable criteria, 
pursue a path to citizenship; reforms in our family-based 
immigration system that will significantly reduce waiting times 
for separated families; and finally, creation of legal channels 
for new immigrant workers with full worker protections.
    Today, both Congress and the Administration are working to 
see that comprehensive immigration reform is enacted this year. 
The House took the first step by introducing the bipartisan 
STRIVE Act, and I commend Congressman Gutierrez and Congressman 
Flake and all of the co-sponsors of this important bill for 
getting the ball rolling on this year's effort.
    Last week, the White House and Senate Democrats and 
Republicans appear to have reached a deal on immigration reform 
that will include a path to legalization for the estimated 12 
million undocumented immigrants living and working in this 
country, as well as creating a new worker visa program.
    Notwithstanding the imperative to proceed with the 
legislation, we are concerned about provisions of the new bill 
that appear to undercut family reunification, create a point 
system that undervalues the central role of family ties, and 
lacks a solid path to citizenship for temporary workers.
    For our community, we are inspired by the central Jewish 
teaching that emphasizes welcome, protection, and love for the 
stranger. This principle is referenced 36 times in the Torah, 
more than any other principle.
    And for us, this basic value frames our perspective on how 
we should analyze various policy proposals, and how they will 
influence our nation and our security and our communities' 
interests.
    First, I would like to briefly discuss the role that 
immigration plays in the top national priority: improving 
security.
    While there have been ugly and inaccurate attempts to 
create the false impression that our immigration problems and 
our terrorism problems are one and the same, there are 
legitimate concerns that a porous border and a shadow society 
of undocumented immigrants and false documents will provide 
access to the United States and places for terrorists and 
criminals to hide.
    This should be acknowledged, because comprehensive 
immigration reform can play a positive role in improving 
security on our borders and in the interior of our country.
    In this regard, efforts must be undertaken immediately to 
provide sufficient financial, human, and technological 
resources to help secure our borders and to create a workable 
employer verification system, so that unscrupulous employers 
who wish to circumvent the system cannot succeed in hiring 
unauthorized workers.
    These attempts to tighten enforcement, while at the same 
time providing opportunities for the current undocumented 
immigrant population, will allow the best targeting of 
enforcement resources on migrants who pose the greatest danger 
of terrorist or criminal connections, rather than maintaining 
the current situation, where immigration agents are forced to 
waste valuable resources chasing after busboys and nannies.
    Second, it is clearly in our interest that our immigration 
system continues to value family-based immigration and 
immigrants--a segment of our immigration system that honors 
both American interests and our country's multiple religious 
traditions.
    Employment-based immigration need not be increased at the 
expense of family-based immigration, because family immigrants 
also work. They fill jobs that would otherwise go unfulfilled, 
and they contribute to our economy.
    Proposals that restrict rather than enhance the ability of 
family members to reunite in fact will cause a great pressure 
to create new waves of illegal immigration. And that is the 
purpose of what we are trying to achieve through comprehensive 
immigration reform.
    Ms. Lofgren. Thank you----
    Mr. Aronoff. For the Jewish community--and I will 
complete--the issues around the current debate put forth a very 
clear alternative. We either can move forward this year to 
address the problems of undocumented migration, or we can 
accept the status quo, which means continued migrant deaths, 
sporadic raids that separate families, exploitation of 
immigrant workers through illegal immigration system, prolonged 
wait for family members, inconsistent policy at the local 
level, and a chaotic and wasteful border and interior 
enforcement scheme that places the United States' security in 
jeopardy.
    This alternative is unacceptable, and I look forward to 
working with the Committee to move this forward.
    [The prepared statement of Mr. Aronoff follows:]
                  Prepared Statement of Gideon Aronoff
    Thank you for this opportunity to testify before the Subcommittee 
on Immigration, Citizenship, Refugees, Border Security, and 
International Law to share the Jewish community perspective on 
comprehensive immigration reform. My name is Gideon Aronoff and I am 
the president and CEO of the Hebrew Immigrant Aid Society (HIAS).
    HIAS, the international migration arm of the American Jewish 
community for 126 years, has assisted over 4.5 million refugees and 
vulnerable Jewish and non-Jewish migrants around the world by providing 
overseas assistance, resettlement in communities across the United 
States, and citizenship and other services to immigrants and refugees.
    HIAS, along with our national and local Jewish community partners, 
has been actively engaged in advocacy in support of comprehensive 
immigration reform legislation to address our broken immigration system 
in a way that is both workable and humane. We believe that for any 
immigration reform legislation to fix the current system, it must 
include: border protection and interior enforcement policies that are 
effective and consistent with American humanitarian values; an 
opportunity for hard-working immigrants who are already here and 
contributing to this country to come out of the shadows, regularize 
their status upon satisfaction of reasonable criteria and, over time, 
pursue a path to citizenship; reforms in our family-based immigration 
system to significantly reduce waiting times for separated families who 
often have to wait as many as twenty years to be reunited; the creation 
of legal channels for workers and their families who wish to migrate to 
the U.S. to enter our country in an orderly manner and to work in a 
safe environment with their rights fully protected; and programs to 
enhance citizenship and encourage integration of newcomers into 
American society.
    Today, both Congress and the Administration are working to see that 
comprehensive immigration reform legislation is enacted this year. The 
House took the first step by introducing the STRIVE (Security Through 
Regularized Immigration and a Vibrant Economy) Act, H.R. 1645. 
Introduced by Representatives Luis Gutierrez (D-IL) and Jeff Flake (R-
AZ), the STRIVE Act is a bipartisan bill that seeks to address issues 
surrounding unauthorized migration to the United States in a 
comprehensive, not piecemeal, fashion by including tougher border 
security and enforcement measures, a new worker program, visa reforms, 
an earned legalization program for the undocumented with a path to 
citizenship; the DREAM Act which will make undocumented students 
eligible for citizenship and allow states to grant them in-state 
college tuition; AgJobs; and the Strengthening American Citizenship 
Act.
    We're especially pleased that the bill would hasten family 
reunification through the reduction of backlogs and includes 
protections for detained asylum seekers. The bill would enhance the 
family immigration system, and would implement many of the 
recommendations made two years ago by the United States Commission on 
International Religious Freedom (USCIRF) in its report on asylum 
seekers in expedited removal. For half a century, the principles of 
family unity and refugee protection have been the foundation of our 
immigration policy. This bill goes far in upholding these fundamental 
principles. HIAS commends Representatives Gutierrez and Flake, and all 
of the cosponsors, for proposing legislation that is both practical and 
humane.
    Last week, Senators on both sides of the aisle reached a deal on 
immigration reform that provides a path to legalization for the 
estimated 12 million undocumented immigrants living and working in this 
country, and 400,000 visas for new workers to enter the country and 
fill jobs that would otherwise go unfilled. We are encouraged that 
Senate Republicans and Democrats, along with the White House, have come 
together to deal with the issue of legalization and a path to earned 
citizenship for immigrants working and contributing to our society. It 
is essential that this debate move forward to address our country's 
pressing need for real comprehensive immigration reform.
    Notwithstanding the imperative to proceed with this legislation, we 
are extremely concerned about the provisions in the new bill that would 
undercut family reunification, create a point system that undervalues 
the central role of family ties, and lacks a solid path to citizenship 
for temporary workers which could lead to the creation of an underclass 
of exploited workers without basic rights. While this legislation is a 
positive step that moves the process forward, allowing the Senate to 
address current problems of undocumented migration, we want to be sure 
that in the end Congress enacts legislation that respects families, 
rewards work while protecting workers, restores the rule of law and 
strengthens our economy, borders, and our nation.
    For the Jewish community, the struggle to convert our current 
illegal immigration system into a legal immigration system that serves 
our country's and our community's social and economic interests and 
treats immigrants with dignity, humanity and care is an effort to 
fulfill the fundamental teachings of our tradition and the lessons of 
our history as a people of migration.
    Central Jewish teachings emphasize offering welcome, protection and 
love for the Ger (stranger). This is referenced in the Torah 36 times--
more than any other principle. The Jewish tradition also includes 
principles of Piddyon Shevuyim (redeeming the captive), Chesed 
(kindness), and Hachnasat Orchim (hospitality) that create a solid 
framework for a compassionate response to the needs of immigrants and 
refugees. The Jewish tradition however, has been understood to allow 
communities to exclude migrants from permanent settlement based on 
concern over adverse economic impact on the community and therefore 
cannot be seen as supporting an absolute right of settlement or 
complete open borders. Instead, the full scope of interests and 
community needs must be factored in to identify the ``most Jewish'' 
approach to any specific immigration question.
    Along these lines, evidence continues to mount in favor of the 
conclusion that immigration is in our economic and national interest. 
The fact is that American employers need workers and are not finding 
them in the U.S. Between 2002 and 2012, according to the Bureau of 
Labor Statistics, the U.S. economy is expected to create some 56 
million new jobs, half of which will require no more than a high school 
education. Yet at the same time, the American labor force is shrinking. 
More than 75 million baby boomers will retire during that same period. 
Also, declining native-born fertility rates will be approaching 
replacement level (stagnating), and native-born workers are becoming 
more educated with every decade.
    Additionally, an independent task force on immigration last 
concluded that immigration augments and complements the workforce 
exceptionally well, helps the U.S. maintain a competitive edge and 
adapt to global market conditions, and gives our economy a particular 
dynamism. However, they also concluded that despite the positive net 
benefits of immigration, illegal immigration can have a negative impact 
on wages at the bottom of the pay scale.\1\
---------------------------------------------------------------------------
    \1\ Convened by the Migration Policy Institute, the Independent 
Task Force on Immigration and America's Future was co-chaired by 
Spencer Abraham, a former Republican senator and President Bush's first 
energy secretary, and Lee Hamilton, president of the Woodrow Wilson 
International Center for Scholars and a former Democratic congressman 
from Indiana. The task force issue a report titled ``Immigration and 
America's Future: A New Chapter.''
---------------------------------------------------------------------------
    The best way to reduce the negative consequences of illegal 
immigration is to change the system into a legal system where low 
skilled workers can protect their rights. This change would both 
improve their standing and prevent their employment from undermining 
the standing of native born workers.
    Now I'd like to briefly discuss the role that immigration plays in 
the top national priority of improving security in post 9/11 America. 
While there have been very ugly and inaccurate attempts made to create 
a false impression that our immigration problems and our terrorism 
problems are one and the same, there are legitimate concerns that a 
border that is porous and a shadow society of undocumented immigrants 
and false documents can provide access to the United States and places 
to hide for terrorists and criminals.
    This should be acknowledged because smart immigration policy can 
play a positive role in improving security on the borders and in the 
interior of our country. Advocates of comprehensive immigration reform 
should not shy away from recognizing this as a significant benefit of 
reform. Efforts must be undertaken immediately to provide sufficient 
financial, human and technological resources to help secure our borders 
and to create a workable employer verification system so that 
unscrupulous employers who wish to circumvent a new legal immigration 
system are not able to hire unauthorized workers.
    These attempts to tighten enforcement while providing legal 
opportunities for the current undocumented immigrant population and 
future flows of immigrant workers will allow the best targeting of 
enforcement resources on those migrants who pose the greatest danger of 
terrorist or criminal connections rather than maintaining the current 
situation where immigration agents are forced to waste resources 
chasing busboys and nannies. This will also help the authorities to 
fight against the smugglers and document forgers who have been enriched 
and empowered by our current illegal immigration system.
    Finally, it is clearly in our interest that our immigration system 
continues to deeply value family-based immigrants--a segment of our 
immigration system that honors both American interests and our 
country's religious traditions. Employment-based immigration need not 
be increased at the expense of family-based immigration because family-
based immigrants also work, they fill jobs that would go otherwise 
unfilled, and they contribute to our economy. Proposals that restrict, 
rather than enhance, the ability of family members to reunite ignore 
the reality that family reunification is one of several root causes of 
undocumented migration and therefore fail to provide the long-term 
solution that is intended by comprehensive immigration reform and that 
our nation deserves.
    The emphasis we place in our immigration laws on the reunification 
of families also makes sense in terms of helping our newcomers adapt to 
their new home. Family members play a crucial role in one another's 
lives by providing an important safety net, and helping each other 
adjust to their new surroundings by pooling resources and sharing 
responsibilities, such as caring for children and elderly parents. They 
take care of one another in times of economic, physical, or emotional 
hardships, thereby decreasing reliance on government welfare or private 
charities. Furthermore, it is through these immigrant family networks 
that the spirit of entrepreneurship can thrive and that small family 
businesses are created.
    The proposals that seek to restrict family reunification are born 
from the notion of ``chain migration,'' just as restrictionists used 
the term ``amnesty'' last year to enfeeble an earned legalization 
program. Yet there is nothing inherently bad about chain migration. 
Much of today's American Jewish community would not be here today if it 
weren't for chain migration, and in fact, nearly all Americans owe 
their American ancestry to some sort of chain migration. For the Jewish 
community, which has been dispersed throughout the world, America's 
commitment to family reunification in its immigration policy has been a 
beacon of hope, allowing many Jewish families to be brought back 
together in a nation of opportunity and safety.
    Today's newcomers have the same hope. Conjuring fear of the other 
and sensationalizing an onslaught of immigration does not contribute to 
sound and humane policy making. Immigrant families are good for our 
economy, good for our communities, and contribute to the overall 
development of our nation. Any reform proposal that seeks to serve our 
nation's moral, economic, and security interests must preserve the 
opportunity for family reunification as the cornerstone of American 
immigration.
    America would not be the dynamic and prosperous nation that it is 
today were it not for the immigrants who came and continue to come to 
our shores seeking opportunity and freedom. Yet today we see an anti-
immigrant backlash in our communities, and sadly this is not a new 
phenomenon. American Jews are especially familiar with the undercurrent 
of fear and suspicion of newcomers that exists in our country today. 
The wave of Jewish immigrants to America in the early 1880's who were 
fleeing grinding poverty and murderous pogroms, anti-Jewish uprisings 
in Russia and elsewhere in Eastern Europe, was eventually met with an 
anti-immigrant backlash that resulted in the National Origins Quota of 
1924, which severely restricted immigration from Eastern Europe and 
Russia after that time.
    The twentieth century's wave of immigration, followed by the 
Holocaust that destroyed most of the European Jewish community, made 
the United States the home of the largest Jewish population in the 
world during the 20th century. Yet again, Jews that were fortunate 
enough to reach America's shores were greeted with suspicion. In 1939 a 
Roper poll found that only thirty-nine percent of Americans felt that 
Jews should be treated like other people. Fifty-three percent believed 
that ``Jews are different and should be restricted'' and ten percent 
believed that Jews should be deported. The United States' tight 
immigration policies were not lifted during the Holocaust, and it has 
been estimated that 190,000-200,000 Jews could have been saved during 
the Second World War had it not been for the deliberately created 
bureaucratic obstacles to immigration. Yet despite the suspicion with 
which our community has been greeted throughout our history, Jews 
continue to make major contributions to the cultural, scientific, 
political, and economic life of the United States.
    America is at a crossroads: as the new Congress tackles the 
pressing issues facing the country today, what happens regarding 
immigration policy will have effects lasting for generations to come. 
What is needed is a careful, considered, and compassionate approach to 
immigration policy that incorporates the pressing security concerns of 
all Americans, while maintaining America's historical essence as a 
welcoming haven.
    Unlike many circumstances where American communities face difficult 
choices between their deepest values and immediate interests, taking a 
comprehensive approach to immigration reform fulfills both our 
humanitarian and other interests simultaneously. The American Jewish 
community has joined with our other faith and immigrant advocate 
partners in calling on Congress to pass a humane and workable 
comprehensive immigration reform bill that this nation not only wants, 
but also deserves. The status quo of insecurity, exploitation, 
separation, and suffering is unacceptable, and we cannot let another 
year pass us by without having solved this crisis.
    I look forward to working with the Subcommittee as you move forward 
and would be happy to answer any questions.

    Ms. Lofgren. Mr. Aronoff, we appreciate this testimony.
    Reverend Harkins?

    TESTIMONY OF REVEREND DERRICK HARKINS, D.MIN., PASTOR, 
                NINETEENTH STREET BAPTIST CHURCH

    Reverend Harkins. Good afternoon, Chairperson Lofgren and 
Members of the Subcommittee. I am the Reverend Dr. Derrick 
Harkins, pastor of the Nineteenth Street Baptist Church, 
founded in 1839 and with roots extending to 1802.
    It was the first African-American Baptist congregation and 
is one of the most historic houses of worship here in the 
District of Columbia, with a stalwart history of enfranchising 
the disenfranchised in the embrace of the gospel.
    In my capacity as a pastor, as well as because of my 
participation with Christians for comprehensive immigration 
reform, I have been able to assess and contribute to the 
discussion of one of the most imperative issues of our time: 
the status of the immigration system within the United States 
of America.
    The immigration system in America is beyond being broken. 
It is in crisis.
    Because this crisis is not simply one limited to issues of 
documentation and border enforcement but because it is a crisis 
that is tearing at the very fabric of individuals, families and 
communities, it is one that the church is, in my opinion, 
compelled to address.
    The Hebrew prophet Micah declared that God's expectation of 
the faithful is to do justly, to love mercy, and to walk humbly 
with our God.
    We take in part from that mandate the understanding of 
bringing both justice and compassion to circumstances of human 
need. And also we understand the need to soberly, humbly and 
prayerfully consider the response from the church to this 
crisis, in order that far more light and heat is added to the 
present dialogue and subsequent solutions.
    I here must assert that it is fully appropriate for the 
church, the faith community, to take its place in the public 
square and, without regard for partisan politics, speak 
transformative, spiritual, and social change.
    Contrary to the opinions of any given television 
commentators, this does not represent the conflation of 
religion and politics for political adventurism. It is one of 
the very things we must do to lay claim to our Biblical mandate 
and to the realization that faith without works is dead.
    I commend Congress as you begin the heavy lifting of 
crafting legislation that is fair and comprehensive, that keeps 
our nation secure and that preserves family values, as well as 
strengthening the economic and social fabric of our society.
    But I also come to you today with a pastor's heart and with 
the deeply held concern that any laws enacted consider the very 
American tradition of compassion.
    The heart of what we teach, preach, and live is anchored in 
the good news of Christ's saving and liberating love, that has 
not built walls, but broken every barrier down.
    Family, in its strongest and most stable structure, is an 
essential pillar of our society. Within the church, the 
institution of family is supported, encouraged and applauded.
    In my own congregation, I see again and again, and am truly 
thankful for, the examples of family strength and values in the 
homes and lives of those who have immigrated to the United 
States.
    The limitation of family-based immigration by the reduction 
of family reunification visas would impair that family 
structure in significant measure. Siblings, adult children and 
parents--those directly affected by any potential reduction--
are, in many examples and cultural contexts, core and not 
merely extended family.
    It is also important to note here that the idea of chain 
immigration is without basis. The concept asserting that 
immigrants sponsor an uncontrollable number of family members--
the reality is that only immigrants who have already gained 
legal, permanent residency or U.S. citizenship are able to 
sponsor relatives. Within the present system, an average of 1.2 
family members are sponsored.
    It is within the structure of families that immigration 
reform can wield the most enduring benefits. Through a process 
of restitution, integration into the larger community and a 
pathway to earned citizenship, we will do away with what is now 
in great part a de facto amnesty, which has kept millions of 
hardworking individuals, who wish to become productive, law-
abiding members of our society, in the shadows and has 
prevented numerous families from being fully intact and stable 
to society's benefit.
    In addition, let me just say that many within the 
historically African-American church have made their voices 
heard in support of comprehensive immigration reform. Like the 
overwhelming majority of all Americans, African-American voters 
support immigration reform that includes enforcement and a path 
to citizenship.
    It is the legitimate, continuing legacy of the civil rights 
struggle and part of the very nature of the African-American 
church that one should speak for those who have no voice, 
advocate for those who have no power and stand for those who 
are not represented.
    But yet, with a fair and compassionate, earned pathway to 
citizenship, those who are now in the shadows will be able to 
speak, be empowered, stand for themselves.
    Let me end with words far more enduring than my own. Exodus 
23:9 says, ``Do not oppress an alien. You yourselves know how 
it feels to be aliens, because you were aliens in Egypt.''
    I thank you.
    [The prepared statement of Reverend Harkins follows:]
                 Prepared Statement of Derrick Harkins
    Chairperson Lofgren, Ranking Member King, and members of the 
Subcommittee: I am The Reverend Doctor Derrick Harkins, Pastor of the 
Nineteenth Street Baptist Church. Founded in 1839 and with roots 
extending to 1802, it was the first African-American Baptist 
congregation, and is one of the most historic houses of worship in the 
District of Columbia.
    In my capacity as a pastor, as well as because of my participation 
with Christians for Comprehensive Immigration Reform, I have been able 
to assess and contribute to the discussion of one of the most 
imperative issues of our time, the status of the immigration system 
within the United States of America.
    The immigration system in America is beyond being broken, it is in 
crisis. Because this crisis is not simply one limited to issues of 
documentation and border enforcement, but because it is a crisis that 
is tearing at the very fabric of individuals, families, and 
communities, it is one that the church is, in my opinion, compelled to 
address.
    The Hebrew Prophet Micah declared that the Divine expectation of 
the faithful is to ``do justly, to love mercy, and to walk humbly with 
our God.'' We take in part, from that mandate, the understanding of 
bringing both justice and compassion to circumstances of human need. 
And also we understand the need to soberly, humbly, and prayerfully 
consider the response from the church to this crisis in order that far 
more light than heat is added to the present dialogue and subsequent 
solutions.
    It is fully appropriate for the church, the faith community, to 
take its place in the public square, and without regard for partisan 
politics, seek transformative spiritual and social change. Contrary to 
the opinions of any given television commentators, this does not 
represent ``the conflation of religion and politics for political 
adventurism,'' it is one of the very things we must do to lay claim to 
our Biblical mandate.
    I commend the Congress as you begin the ``heavy lifting'' of 
crafting legislation that is fair and comprehensive, that keeps our 
Nation secure, and that preserves family values as well as 
strengthening the economic and social fabric of our society.
    But I also come to you today with a pastor's heart, and with the 
deeply held concern that any laws enacted consider the very American 
tradition of compassion.
    Family, in its strongest and most stable structure is an essential 
pillar of our society. Within the church the institution of family is 
supported, encouraged, and applauded. In my own congregation, I see 
again and again, and am truly thankful for the examples of family 
strength and values in the homes and lives of those who have immigrated 
to the United States.
    The growing vitality of the church is due in large measure to the 
presence of the immigrant community. According to Dr. Todd Johnson of 
Gordon-Conwell Theological Seminary. ``The immigrant Evangelical church 
is growing rapidly in the U.S. and around the world. Among Evangelicals 
in the United States, the fastest growing are found among the 
independent immigrant churches.''
    The limitation of family based immigration, by the reduction of 
family reunification visas would impair that family structure in 
significant measure. Siblings, adult children, and parents (those 
directly affected by any potential reduction) are in many examples, and 
cultural contexts, core and not merely ``extended'' family. It is also 
important to note here the idea of ``chain'' immigration is without 
basis. The concept asserting that immigrants sponsor an uncontrollable 
number of family members. In reality, only immigrants who have already 
gained legal permanent residency or U.S. citizenship are able to 
sponsor relatives. Within the present system an average of 1.2 family 
members are sponsored.
    It is within the structure of families that immigration reform can 
wield the most enduring benefits. Through a process of restitution, 
integration into the larger community, and a pathway to earned 
citizenship we will do away with what is now in great part, a de facto 
amnesty, which has kept millions of hard working individuals who wish 
to become productive law-abiding members of our society in the shadows, 
and has prevented numerous families from being fully intact and stable 
to society's benefit.
    In addition let me say that many within the historically African-
American church have made their voices heard in support of 
comprehensive immigration reform. Like the overwhelming majority of all 
Americans, African-American voters support immigration reform that 
includes enforcement and a path to citizenship. It is the legitimate 
continuing legacy of the Civil Rights struggle and part of the very 
nature of the African American church that one should speak for those 
who have no voice, advocate for those who have no power, and stand for 
those who are not represented. But yet with a fair and compassionate 
earned pathway to citizenship, those who are now in the shadows will be 
able to speak, be empowered, and stand for themselves.
    I thank you for the opportunity to speak before your Subcommittee 
today, and look forward to answering any questions you may have.
                               __________

                               ATTACHMENT

            Christians for Comprehensive Immigration Reform 
                     Joint Statement of Principles

    Christians for Comprehensive Immigration Reform represents a 
coalition of Christian organizations, churches, and leaders from across 
the theological and political spectrum united in support of 
comprehensive immigration reform. Despite our differences on other 
issues, we are working together to see comprehensive immigration reform 
enacted this year because we share a set of common moral and 
theological principles that compel us to love and care for the stranger 
among us, including the following:

        <bullet>  We believe that all people, regardless of national 
        origin, are made in the ``image of God'' and deserve to be 
        treated with dignity and respect (Genesis 1:26-27, 9:6).

        <bullet>  We believe there is an undeniable biblical 
        responsibility to love and show compassion for the stranger 
        among us (Deuteronomy 10:18-19, Leviticus 19:33-34, Matthew 
        25:31-46).

        <bullet>  We believe that immigrants are our neighbors, both 
        literally and figuratively, and we are to love our neighbors as 
        ourselves and show mercy to neighbors in need (Leviticus 19:18, 
        Mark 12:31, Luke 10:25-37).

        <bullet>  We believe in the rule of law, but we also believe 
        that we are to oppose unjust laws and systems that harm and 
        oppress people made in God's image, especially the vulnerable 
        (Isaiah 10:1-4, Jeremiah 7:1-7, Acts 5:29, Romans 13:1-7).

    The current U.S. immigration system is broken and now is the time 
for a fair and compassionate solution. We think it is entirely possible 
to protect our borders while establishing a viable, humane, and 
realistic immigration system, one that is consistent with our American 
values and increases national security while protecting the livelihood 
of Americans. The biblical principles above call us to support 
comprehensive immigration reform legislation that includes the 
following elements:

        <bullet>  Border enforcement and protection initiatives that 
        are consistent with humanitarian values while allowing the 
        authorities to enforce the law and implement American 
        immigration policy;

        <bullet>  Reforms in our family-based immigration system that 
        reduce the waiting time for separated families to be safely 
        reunited and maintain the constitutionally guaranteed rights of 
        birthright citizenship and the ability of immigrants to earn 
        naturalization;

        <bullet>  An opportunity for all immigrant workers and their 
        families already in the U.S. to come out of the shadows and 
        pursue the option of an earned path towards permanent legal 
        status and citizenship upon satisfaction of specific criteria;

        <bullet>  A viable guest worker program that creates legal 
        avenues for workers and their families to enter our country and 
        work in a safe, legal, and orderly manner with their rights and 
        due process fully protected and provides an option for workers 
        to maintain legal status independent of an employer sponsor; 
        and

        <bullet>  A framework to examine and ascertain solutions to the 
        root causes of migration, such as economic disparities between 
        sending and receiving nations.

    Immigration reform that incorporates these elements, rejects anti-
immigrant and nativist measures, and strengthens our American values 
will enrich the vitality of America and advance the common good. We 
stand together in calling upon President Bush and Congress to seek 
humane and holistic immigration reform within this legislative year.

    Ms. Lofgren. Thank you, Reverend.
    Mr. Kosten?

  TESTIMONY OF DAN KOSTEN, DIRECTOR, WORLD RELIEF REFUGEE AND 
   IMMIGRATION PROGRAMS, NATIONAL ASSOCIATION OF EVANGELICALS

    Mr. Kosten. Thank you very much.
    In the course of human events in this nation's history, 
there have been times when courageous men and women have 
stepped forward to define the true character and unique values 
of this nation. Their words I cannot match in eloquence or 
power, so I will quote them as a reminder of our national 
heritage.
    Their words are also reflective of many key Biblical 
principles--principles that apply to the immigration dialogue.
    In 1863, President Lincoln in his Gettysburg address said, 
``Four score and 7 years ago, our fathers brought forth on this 
continent a new nation, conceived in liberty and dedicated to 
the proposition that all men are created equal.''
    President Lincoln continued by saying, ``Now we are engaged 
in a great civil war, testing whether that nation, or any 
nation so conceived and so dedicated can long endure.''
    Our nation and our dedication and commitment to these 
principles have endured, only to be tested once again in this 
age by the war on terrorism. In the past, as in the present, 
the lives of many have been lost for such dedication.
    Are we prepared to honor that loss and reaffirm the 
equality of mankind? Or will we justify the disenfranchisement 
and exploitation of a portion of this nation's population by 
labeling them illegal?
    The issue for many undocumented immigrants is that there is 
no process for restitution to address the infraction of 
entering illegally or overstaying a visa. There are appropriate 
penalties for the crimes committed, and the penalty must match 
the offense.
    Many immigrants do not currently have a means by which to 
receive lawful status in the United States, and they go 
undetected by living in the shadows. If they could apply for 
lawful status, they would much more likely come forward and the 
government could better target the small number of potential 
criminals and terrorists.
    We often hear the concern that immigrants do not share our 
American values and are adding to the moral decay of our 
country. As an evangelical organization that has worked in 
serving the immigrant population over the past 25 years, I 
strongly object to this thinking, because the vast majority of 
immigrants are hardworking, family-loving, and willing to learn 
English and integrate into our communities.
    Rather than saying that immigrants do not share our 
American values, we must teach them our American values. And 
the church must play an integral role in this.
    Once again, and this time in 1963, 100 years later, we were 
reminded by Reverend Martin Luther King of the principles on 
which this nation was founded. He encouraged us that day to 
dream, to dream of a new day where we could--and what it could 
and should look like.
    He said, ``I have a dream that my four little children will 
one day live in a nation where they will not be judged by the 
color of their skin but the content of their character.''
    We can still dream today. I have a dream that one day we 
will extend the right hand of fellowship to human beings that 
currently live in the shadows, and provide them, along with 
their family, with a means of restitution, as well as the 
opportunity to experience the life, liberty, and pursuit of 
happiness which they entered this nation to secure.
    A cornerstone principle for evangelicals is the sanctity of 
life. The sanctity of life values the family. Families are the 
building block of an ordered and procreative society. By 
allowing immigrant families to be more quickly reunited, we 
allow for more stable and stronger communities.
    Immigration through the family has been the cornerstone of 
our immigration system, and it must remain so. The sanctity of 
life values the family, celebrates diversity and does not end 
at birth or at the border.
    Thank you, and may God lead you and this nation to respond 
to this critical need for comprehensive immigration reform.
    [The prepared statement of Mr. Kosten follows:]
                    Prepared Statement of Dan Kosten
    Thank you Chairman Lofgren, Ranking Member King, and the members of 
the House Subcommittee on Immigration, Citizenship, Refugees, Border 
Security, and International Law for providing me with the opportunity 
to testify before you on an Evangelical perspective on Comprehensive 
Immigration Reform. This is indeed a tough issue that requires good 
thought, frank discussion, and honest solutions, and I thank the 
Committee for tackling the issue of immigration reform from all angles, 
including the faith-based angle.
    As the Director of Refugee and Immigration Programs for World 
Relief, I am responsible for the technical support for a network of 24 
offices that have programs to serve refugees, trafficking victims, and 
immigrants. As the humanitarian arm of the National Association of 
Evangelicals (NAE), we have worked with Evangelical churches over the 
past 60 years to relieve human suffering, poverty and hunger worldwide 
in the name of Jesus Christ. The NAE is made up of 53 member 
denominations, representing 45,000 churches in the United States. World 
Relief's mission is to work with the poorest of the poor--and in the 
U.S. with foreign born populations including refugees and immigrants. 
World Relief has worked for over 60 years with local churches to create 
sustainable solutions that help the desperately poor in more than 30 
countries. We feel it is a part of our Biblical mandate to reach out to 
those in need, our neighbors, and our communities. World Relief's 
programs include disaster relief, refugee assistance, immigrant 
assistance, trafficking victim protection, AIDS ministries, child 
survival and development, agricultural development, and micro-
enterprise development.
    Through our work with immigrants, we have seen the consequences of 
a broken system that has separated families for many years. We are 
compelled to speak from our experience by engaging the Evangelical 
community on the issue of immigration reform. Through our work with 
churches, we have seen the immigrant church as the fastest growing 
church in the Evangelical community. The issues of immigration policy 
and immigrants in our communities will always be with us, and 
Evangelicals must think carefully about their response to the trends 
and changes brought about by immigration. In this debate on 
Comprehensive Immigration Reform, we have heard concerns from church 
leaders and members about the need to secure our borders and stop 
illegal immigration but also the call to show compassion to the 
stranger in our midst. We as Evangelicals must look to the Bible as a 
guide for examining this issue closely and how we as Evangelicals 
should respond, through the lens of Scripture, to immigrants and 
immigration policy.
         the biblical reality and god's love for the foreigner
    God loves the stranger and foreigner, and equates our relationship 
with Him as strangers and aliens apart from the work of Christ. The 
Bible commands us to welcome the stranger. Modern reality also requires 
us to embrace the immigrant population, many of whom are our brothers 
and sisters in Christ, and a growing force in the church. Through 
immigration, God is bringing citizens of many closed and un-reached 
countries into contact with American Christians. We as Evangelicals 
therefore welcome the opportunity to share our faith with people who 
might otherwise have no opportunity to hear the Good News. The 
immigrant Evangelical church is growing rapidly in the U.S. and around 
the world. Among Evangelicals in the United States, ``the fastest 
growing are found among the Independent immigrant churches. . . . In 20 
years, African, Asian, and Latin American Evangelicals . . . will 
likely be at the forefront of . . . global movements as well as their 
manifestations in the USA.'' \1\
---------------------------------------------------------------------------
    \1\ Dr. Todd M. Johnson, Center for the Study of Global 
Christianity at Gordon-Conwell Theological Seminary, ``USA 
Evangelicals/evangelicals in Global Context: Trends and Statistics.''
---------------------------------------------------------------------------
    In the Bible, God repeatedly calls us to show love and compassion 
to ``aliens,'' or immigrants. In Deuteronomy 10:18-19,\2\ we are told 
that ``[God] defends the cause of the fatherless and the widow, and 
loves the alien, giving him food and clothing. And you are to love 
those who are aliens, for you yourselves were aliens in Egypt.'' God 
also reminds us throughout the Old and New Testament that we ourselves, 
as Christians, are aliens on this Earth, not only physically in this 
world-which is not our home, but also spiritually estranged from God 
until Christ's sacrifice. Leviticus 19:33-34 teaches us that, ``[w]hen 
an alien lives with you in your land, do not mistreat him. The alien 
living with you must be treated as one of your native-born. Love him as 
yourself, for you were aliens in Egypt. I am the Lord your God.'' Thus, 
we as Christians are called to identify with the plight of the stranger 
amongst us for we ourselves were once aliens in Egypt.
---------------------------------------------------------------------------
    \2\ All Scripture references are taken from The Holy Bible, New 
International Version.
---------------------------------------------------------------------------
    Love also in the Christian tradition requires specific acts of care 
and respect. In the Gospel of Luke, Jesus answers the question of ``who 
is my neighbor?'' with the parable of the Good Samaritan. (Luke 10:29-
37) Part of what makes the Good Samaritan parable so compelling is that 
the Samaritan, who was a stranger or alien himself, was the one who 
stopped to help the Jewish man. This and other parables remind us that 
``we are all aliens sent out to help other aliens find a place of 
safety in this world.'' \3\ God does not distinguish among arbitrary 
divisions such as country of origin. Instead, God desires to include 
all people in His Kingdom, for ``There is neither Jew nor Greek, slave 
nor free, male nor female, for you are all one in Christ Jesus.'' 
(Galatians 3:28)
---------------------------------------------------------------------------
    \3\ Jonathan Robert Nelson, Remarks for The American Bar 
Association's, ``Fortress America: The State and Future of U.S. 
Immigration Law and Policy,'' held at the National Press Club, January 
26, 2006.
---------------------------------------------------------------------------
    The Bible shows us that God moves people for a reason and migration 
is often reflective of His overall purpose for mankind. Mark 17:26 
states that ``From one man he made every nation of men, that they 
should inhabit the whole earth; and he determined the times set for 
them and the exact places where they should live.'' For example, God 
called Abraham from Ur, called the Israelites out of Egypt and into the 
Promised Land, and even moved Jesus' family from Bethlehem, then to 
Egypt and Nazareth. We must couch our current discussion of immigration 
reform within the fuller understanding of God's purposes through the 
movement of people and the history of migration throughout the Bible 
and into current times.
              support for comprehensive immigration reform
    As Congress continues debate on immigration reform, there will be 
specific policy prescriptions offered in various legislative proposals 
that will make us continuously reflect on our Biblical principles. As 
an Evangelical organization committed to the rule of law but also to 
acting compassionately to those in our midst, we call for legislation 
to include the following specific principles:

        <bullet>  Reforms in our family-based immigration system to 
        significantly reduce waiting times for separated families who 
        currently wait many years to be reunited;

        <bullet>  The creation of more responsive legal avenues for 
        workers and their families who wish to migrate to the U.S. to 
        enter our country and work in a safe, legal, and orderly manner 
        that prevents their exploitation and assures them due process;

        <bullet>  The option for those individuals and families who are 
        already living in the U.S. and working hard, to apply for 
        permanent legal status and citizenship if they choose to do so, 
        by meeting specific restitution and application criteria; and

        <bullet>  Border protection policies that are consistent with 
        humanitarian values and with the need to treat all individuals 
        with respect, while allowing the authorities to carry out the 
        critical task of enforcing our laws.

    World Relief believes that a comprehensive approach to immigration 
reform is required--one that addresses the root causes of why 
immigrants come to the U.S. in the first place and addresses the 
complex and outmoded immigration system that currently exists. For 
example, current law has created numerous barriers for legitimate 
refugees abroad and seekers of asylum in the U.S. to receive the 
protection they deserve. Additionally, approximately eleven million 
``undocumented'' immigrants currently live in the United States,\4\ and 
more than three million U.S. citizen children live in families headed 
by an undocumented immigrant.\5\ An ``undocumented'' individual does 
not have permission to work or live in the U.S.
---------------------------------------------------------------------------
    \4\ http://pewhispanic.org/files/reports/44.pdf, stating that as of 
March 2005, there were nearly 11 million undocumented individuals in 
the U.S.
    \5\ http://pewhispanic.org/files/reports/46.pdf.
---------------------------------------------------------------------------
    Many undocumented children are raised here but are unable to attend 
college or work legally. Individuals are risking their lives and 
literally dying to come to the United States. Families face inhumane 
waits of up to twenty years to reunify with family members. There are 
an inadequate number of visas for employers to hire the foreign workers 
necessary for jobs that they cannot find native-born Americans to fill. 
We have a growing black market characterized by widespread use of false 
documents, increasingly violent smuggling cartels, and exploitation of 
undocumented workers.
       the issue of legality and the penalty for breaking the law
    Evangelicals recognize that, ``Everyone must submit himself to the 
governing authorities, for there is no authority except that which God 
has established.'' (Romans 13:1) Therefore we support the importance of 
following and enforcing laws, while simultaneously recognizing that 
laws were created for the well-being of human beings and society. 
Ultimately the laws must answer to God's higher law, which requires us 
to treat all human life with sanctity. All persons bear the image of 
Christ and thus should be treated with the dignity and respect that we 
would afford our Savior. Valuing persons includes doing what we can to 
preserve them, to care for them, and to create fair systems that lead 
to healthy societies.\6\ We must from time to time ask if our human-
made laws create a just and better existence for those who are created 
in God's image.
---------------------------------------------------------------------------
    \6\ Evangelical Project for Public Engagement. National Association 
of Evangelicals, For the Health of the Nation: An Evangelical Call to 
Civic Responsibility, 8, 10 (2004).
---------------------------------------------------------------------------
    We do not condone any violations of the law, such as living in the 
United States illegally, but we recognize that our complex and 
inadequate immigration system has made it nearly impossible for many of 
the hard-working people that our country needs, to enter or remain in 
the country legally and/or reunite with family members.
    Despite the difficult immigration system, adherence to the rule of 
law is a non-negotiable, and as we consider immigration reform, we can 
look to the Bible to help inform our decisions about justice, 
restitution, redemption, restoration and integration into our 
communities. Immigrants are often hard-working, God-fearing individuals 
and if provided the opportunity, would want to admit wrong-doing and 
come out of the shadows as law-abiding, contributing members of our 
society. They should be provided an opportunity to admit their wrong-
doing of maintaining undocumented presence in the U.S. but the 
punishment must be in line with the offense, and it must be recognized 
that not all offenses are one and the same. Our legal system has always 
recognized that the punitive and corrective measures must coincide with 
the crime committed. The Biblical concept of restoration into full 
fellowship is something we must consider in this debate as we seek to 
integrate those who are here as undocumented individuals into our 
communities. We feel they share our values of family and hard work and 
are willing to become productive, law-abiding members of our society if 
given the opportunity.
    The issue for many undocumented immigrants is that there is no 
restorative measure to address the infraction of entering illegally or 
overstaying a visa. Unfortunately the term illegal is often used to 
justify the marginalization of the immigrant population. Such practice 
only compounds the problem and does not resolve it. The two ways to 
resolve this issue are to deport everyone here illegally, or create an 
immigration system with restitution and a path to legal status or 
citizenship. World Relief supports an opportunity for those who are 
law-abiding, hard-working immigrants to come out of the shadows and 
admit they broke the law, and start on the process of restitution 
whereby they can become fully integrated members of our society.
    We must also address the issue of the word amnesty and its use in 
recent debate. Amnesty as defined in the dictionary is defined as ``the 
act of an authority (as a government) by which pardon is granted to a 
large group of individuals.'' \7\ The word amnesty is often used by 
those opposing Comprehensive Immigration Reform because they believe 
that providing a path to earned legalization would be giving a blanket 
pardon to those who broke immigration law to be here illegally. We must 
strongly reiterate that providing earned legalization is not a blanket 
pardon as immigrants would have to pay a penalty in addition to proving 
that they can be law-abiding and productive members of our society. The 
current debate surrounding immigration and the various legislative 
proposals being discussed do not in any way condone breaking of the law 
or provide a blanket pardon without some redress for the wrong that was 
committed by being here illegally. There are appropriate penalties for 
the crimes committed and the penalty must match the offense. Many 
immigrants do not currently have a means by which to receive lawful 
status in the United States, and they go undetected by living in the 
shadows. If they could apply for current lawful status, they would be 
much more likely to come forward, and the government could better 
target the small number of potential criminals and terrorists. World 
Relief has also encountered a catch-22 situation with individuals who 
entered the U.S. without inspection but who would now qualify for 
lawful permanent residence status. Under current law, they must return 
to their home country to be interviewed, but are often unwilling to do 
so because they face the 3 and 10 year bars to re-entry due to unlawful 
presence in the U.S. for more than 6 and 12 months respectively. Fixing 
some of these barriers would allow many individuals to move forward in 
the process of obtaining legal status.
---------------------------------------------------------------------------
    \7\ Definition from Merriam-Webster OnLine, http://www.m-w.com/.
---------------------------------------------------------------------------
                        caring for the stranger
    We often hear the concern that immigrants do not share American 
values and are adding to the ``moral decay'' of our country. As an 
organization that has worked in serving the immigrant population over 
the past 25 years, I strongly object to this thinking because the vast 
majority of immigrants are hard-working, family-loving and willing to 
learn English and integrate into our communities. Rather than saying 
that immigrants do not share our American values, we must then teach 
them our American values, and churches must play an integral role in 
this.
    The issue of immigration tends to play on our worst fears, because 
it confronts our sense of personal and national identity and because it 
alters our expectations concerning economic prosperity and security. We 
can choose to respond in fear, and let the instincts of ``fight or 
flight'' take over, or we can remind ourselves, as God's people, of our 
true identity in Him. We can see the case of Egypt in Genesis, when 
Joseph was welcomed by the Egyptian Pharaoh but later on in Exodus, the 
Egyptians felt threatened by their foreigners which resulted in the 
enslavement and eventual mass exodus of the Israelites out of Egypt. 
While we need to address the realities of the impact of immigration on 
our economy and communities, we must do so in a way that is not held 
captive to fear, because we are first and foremost citizens of God's 
kingdom. 1 John 4:18 states: ``There is no fear in love. But perfect 
loves drives out fear . . .'' To create a society of fear is to create 
an unstable and broken society. As Franklin D. Roosevelt famously said 
in his first inaugural address to the nation in the midst of the Great 
Depression, ``The only thing we have to fear is fear itself.''
    God offers abundant grace to everyone and demonstrates this mostly 
clearly on the Cross. As the Body of Christ, our purpose is to imitate 
Him, by showing compassion and justice to everyone regardless of their 
individual situation and by investing in and valuing their lives. Grace 
motivates God's people towards works of sacrificial compassion and 
justice. Just as God's work of grace requires Christ's sacrifice, so we 
are called to make sacrifices, both individually and corporately, in 
our lives for the sake of others. The power of God's grace blurs the 
human distinction between giver and recipient, between neighbor and 
stranger, which in turn creates opportunities for unexpected mutual 
blessing as we realize that our material possession do not really 
belong to us. We are moved to show compassion to all people, regardless 
of ethnic and cultural boundaries, as our identity is rooted in Christ.
    The pursuit of prosperity has been a powerful force in guiding 
migration throughout American history. In assessing public opinion 
towards immigrants, polls almost exclusively deal with immigration 
within an economic context: do immigrants help or hurt the economy, 
rather than seeking to uncover the cultural and personal contributions 
that immigrants make to our society? Do we only value immigrants who 
contribute to our nation's wealth? God does not measure our value based 
upon what we have to offer or contribute to an earthly economy. As 
God's people, we must resist the temptation to measure others' value to 
our society on the basis of their contribution to our affluence. In the 
Biblical example of Ruth and Boaz, we see that Boaz married Ruth 
despite what many thought would be a marriage that would be a burden 
and detriment to Boaz's personal wealth and affluence. However, because 
of Boaz's compassion on Ruth, we see he was able to play an 
instrumental role in the lives of those in the genealogical line of 
David and Jesus, and participated in God's plan for the world by not 
shunning immigrants as threats to his prosperity.
                         the issue of security
    In light of recent terrorist activities aimed at the U.S., it is 
imperative that our government try everything possible to secure the 
well being of its citizens. However, allowing 10-12 million immigrants 
to remain in the country without a system to identify them, does 
nothing to assure us of our security. In fact by not addressing the 
undocumented population, many would indeed call the current situation 
as ``de facto'' amnesty.
    In order to address the issue of immigration in a way that would 
add to our national security, our government must recognize two things 
about the current situation: First, we can assume that immigrants must 
not pose a significant security threat to the US or else we would be 
doing far more to address this current security dilemma than we are 
currently doing. Second, the legalization of this immigrant population 
would serve our security concerns because it would allow U.S. 
immigration enforcement officials to focus on those who may have 
intentions to harm our country.
    As a measure of security, the creation of walls should only be 
considered as a last resort. The impacts of walls are detrimental to 
those who are living on both sides of the wall and have been purported 
by many to actually increase the number of undocumented in our country 
by preventing people from returning to their country of origin if they 
so desire. The United States has been a historic champion of bringing 
down such walls, and to now be a proponent of walls sends the wrong 
message to the world and does more to divide neighbors rather than 
resolve our current immigration problem. Building walls without 
creating legal avenues to address the reasons why they cross the border 
in the first place would only perpetuate the illegal immigration 
problem.
                          the issue of family
    From Genesis onward, the Bible tells us that the family is central 
to God's vision for human society. God has revealed himself to us in 
the language of family, adopting us as His children (Rom. 8:23, Gal. 
4:5) and teaching us by the Holy Spirit to call him Abba Father (Rom. 
8:15, Gal. 4:6).\8\
---------------------------------------------------------------------------
    \8\ Evangelical Project for Public Engagement. National Association 
of Evangelicals, For the Health of the Nation: An Evangelical Call to 
Civic Responsibility, 14 (2004).
---------------------------------------------------------------------------
    Government does not have the primary responsibility for 
guaranteeing wholesome family life. That is the job of families 
themselves and of other institutions, especially churches. But 
governments should understand that people are more than autonomous 
individuals; they live in families and many are married. While 
providing individuals with ways to remedy or escape abusive 
relationships, governments should promote laws and policies that 
strengthen the well-being of families.\9\
---------------------------------------------------------------------------
    \9\ Evangelical Project for Public Engagement. National Association 
of Evangelicals, For the Health of the Nation: An Evangelical Call to 
Civic Responsibility, 14 (2004).
---------------------------------------------------------------------------
    Families are the building blocks of an ordered and procreative 
society through which people are able to grow and experience the love 
of God. That value has been reflected in our immigration system which 
allows U.S. citizens and legal permanent residents to apply for certain 
relatives to immigrate to the U.S. Indeed, our country has been built 
on the backs of immigrant families and our American history is the 
story of the importance of family to the immigrant experience. 
Immigrants often rely on their family members to help create family 
businesses and family members are able to care for one another when 
here together. They are often able to give back to the community more 
as a family unit than they would as individuals as they work and live 
together to care for sick relatives, watch children, and provide each 
other with moral support and encouragement. We must continue to place 
priority on reunifying families as quickly as possible through 
immigration reform. The current backlog in which family members are 
separated for long periods of time creates undue hardship for the 
immigrants who are trying to work hard and contribute to their 
communities. By allowing immigrant families to be more quickly 
reunited, we allow for more stable and stronger communities. 
Immigration through family has been the cornerstone of our immigration 
system through the decades and we must continue to value and strengthen 
that which has made our country so great.
    The issue of chain migration must also be addressed as we consider 
reforms in our family-immigration based system. Chain migration is a 
myth. This concept purports that immigrants sponsor an uncontrollable 
number of family members. In reality, only immigrants who have already 
gained legal permanent residency or U.S. citizenship can sponsor 
relatives for permanent residence. On average, they only sponsor an 
average of 1.2 family members.\10\ Since there are already highly 
restrictive caps on family reunification visas, and all admitted family 
members must qualify under one of the categories approved by Congress, 
there is no opportunity for ``chain migration'' to occur. Only 
children, spouses, parents, and siblings qualify for such sponsorship--
cousins, aunts, uncles, grandparents, and other extended family members 
cannot come to the United States through the family system.\11\ Also, 
to sponsor a family member, a U.S. citizen or LPR must prove they have 
a stable income and commit to financially support their family members, 
so they do not rely on public benefits.
---------------------------------------------------------------------------
    \10\ Lowell, Lindsay and Micah Bump. Projecting Immigrant Visas: 
Report on an Experts Meeting. 2006. <http://www12.georgetown.edu/sfs/
isim/Event%20Summaries&Speeches/Lowell,%20ProjectionsWorkshop.pdf>.
    \11\ Immigration through a Family Member. U.S. Citizenship and 
Immigration Services. 
http://www.uscis.gov/portal/site/uscis/
menuitem.5af9bb95919f35e66f614176543f6d1a/?vgnextoid 
=0775667706f7d010VgnVCM10000048f3d6a1RCRD&vgnextchannel= 
4f719c7755cb9010VgnVCM 10000045f3d6a1RCRD
---------------------------------------------------------------------------
                               conclusion
    In the recent debate in Congress, we appreciate that the recent 
legislative proposals have moved away from an enforcement-only approach 
and now seem to be comprehensive in nature. However, we have concerns 
with the following and hope that members of the Subcommittee will 
consider these important principles when formulating immigration reform 
legislation:

        <bullet>  Trigger provisions--Immigration reform legislation 
        must be enacted as quickly as possible so families will be 
        reunited, and the undocumented will come out of the shadows to 
        pursue legal status. We have concerns that the setting of 
        border enforcement triggers will result in comprehensive 
        immigration reform being further postponed while we wait for 
        certain ends that may never be achieved.

        <bullet>  Touch back provisions--Some legislative proposals 
        would require immigrants to touch back to their country of 
        origin before pursuing citizenship in the United States. This 
        provision if implemented could prolong the separation of 
        families for long periods of time, and could prevent a quick 
        and easy way for immigrants to continue to work and be able to 
        provide for their family members in the United States.

        <bullet>  Severe cut backs to family immigration--Family 
        immigration is the cornerstone of our immigration system and 
        has allowed immigrants in our communities to thrive in their 
        new environment. Immigration reform must not cut the ability of 
        immigrants to apply for their family members. The unity of 
        family as a basis for immigration should qualify on that merit 
        alone. Any means to undercut family reunification undermines 
        the value of family to our country. We must also be careful 
        that we do not eliminate certain family preference categories 
        for those who have already applied and have been waiting 
        patiently for their members to come to the U.S. This would 
        undermine the fairness of our immigration system and 
        disadvantage those who ``played by the rules.''

        <bullet>  Adequate worker visas--Worker visas based on current 
        and projected market demands must be included in immigration 
        reform legislation. The lack of an adequate number of such 
        visas is one of the reasons there is such a large undocumented 
        population in our country today. An immigration bill must be 
        reflective of our changing economic reality but also the rights 
        and dignity of those who come here to work.

        <bullet>  Border security--any border security measure that is 
        proposed must be carefully considered for their effectiveness 
        in increasing our national security and not be used to overly 
        penalize immigrants, or simply provide us with a false sense of 
        security.

    We believe that a comprehensive approach is required that goes 
beyond border protection alone and addresses the current problems of 
our immigration system, by looking at root causes of immigration, 
developing workable solutions, and providing dignified relief to the 
millions of immigrants who are contributing to our communities, despite 
their lack of legal status. We also advocate for reforms that better 
protect those seeking refugee and asylum status.
    The Lord calls the church to speak prophetically to society and 
work for the renewal and reform of its structures. The Lord also calls 
the church to practice the righteous deeds of the kingdom which 
requires us to demonstrate God's full love for all, by crossing racial, 
ethnic, economic, and national boundaries. The issue of immigration 
reform is a tough issue but also a moral one that our leaders in 
Congress and the Administration must take up with compassion, not fear, 
and rational thought, not irrational racism, as the basis for positive 
dialogue. We must not forget that there is a faith angle to the 
immigration debate because people are bearers of the image of God and 
that all Americans, except Native Americans, are immigrants or 
descendants of immigrants. As Christians, we believe it is our calling 
to help government live up to its divine mandate to render justice 
(Rom. 13:1-7; 1Pet. 2:13-17). In the power of the Holy Spirit, we are 
compelled outward in service to God and neighbor. Comprehensive 
Immigration Reform is needed so that we can restore the rule of law yet 
act compassionately to those in our midst.
    Our immigration system must reflect what has made America strong, 
namely its recognition that ``all men are created equal, that they are 
endowed by their Creator with certain unalienable rights.'' As 
evangelicals we would add to it that we follow Jesus' example by 
suffering and living sacrificially for others.
    I believe it is wholly possible to create a fair and just system 
for the immigrants in our country today, and for the future of those 
who will come; and that it is possible and imperative to do so in this 
session of the Congress.
    Thank you.

    Ms. Lofgren. Thank you very, very much, Mr. Kosten.
    Dr. Edwards?

           TESTIMONY OF JIM R. EDWARDS, JR., PH.D., 
                ADJUNCT FELLOW, HUDSON INSTITUTE

    Mr. Edwards. Madam Chairman, Congressman Conyers and 
Members of the Subcommittee, thank you very much for inviting 
me here today. I commend you for giving a serious consideration 
to the faith perspective.
    Now, I do not claim my conclusions are infallible, and I do 
not claim to be a theologian, but C.S. Lewis said you do not 
want theologians writing civil laws. That is not their calling.
    On many subjects, we see that Scripture is clear, like 
proscribing murder. But on things like immigration, Scripture 
leaves to prudential judgment. So, Christians may come to 
different conclusions, as you have seen today.
    I will touch on nine Biblical principles that I believe are 
most apt, and then briefly assess a couple of key immigration 
proposals.
    First, the two cornerstone commandments: Love the Lord, 
your God, with all your heart, soul and mind, and love your 
neighbor as yourself.
    Second, God has given both temporal and eternal 
obligations. ``Give to Caesar what is Caesar's, and to God what 
is God's.'' Some commands apply to individuals, others to civil 
government.
    Third, God's principles of justice and mercy are 
complementary. We must be acute in sorting out passages about 
favoritism, mercy, equality and whether they apply to the 
state. For instance, the state cannot turn the other cheek, 
while people can.
    Fourth, God ordains earthly authorities as his agents to 
restrain evil, protect the innocent and punish the wrongdoer. 
We have been blessed with the rule of law and should safeguard 
it.
    Fifth, God in his providence established particular 
governments for particular peoples in particular places at 
particular times, such as Daniel 2:21 tells us, ``He changes 
times and seasons; he sets up kings and deposes them.''
    Sixth, Scripture passages often referenced in immigration 
discussions address immigrant policy more than they do 
immigration policy. They do not really speak to how immigrants 
are admitted.
    Seventh, Old Testament laws reflect an assimilationist 
ethic. Resident aliens were to adopt Israel's customs and 
observe its laws.
    Eighth, making immigration policy is a legitimate role of 
civil governments. Civil authorities are God's agents, and they 
may determine how many immigrants and the process for 
regulating immigration. Government's duty primarily is to 
protect its own citizens.
    Finally, law has moral dimensions. Civil laws develop, 
regulating certain conduct for the public good, like whether we 
drive on the left or right side of the road. Regulating 
immigration and borders acquires moral dimensions. To 
rationalize or excuse the breaking or lax enforcement of them 
harms the larger principles of peace, the rule of law and 
justice.
    Now, applying these principles to a couple of immigration 
proposals.
    First, what about legalization? Well, there are other 
policy options besides the extremes of mass deportation or mass 
legalization. Legalization may end up abrogating love your 
neighbor and Biblical standards of justice. It may put the 
poorest Americans, law-abiding employers, citizens and lawful 
immigrants below those who broke our laws, including 
illegitimate employers.
    We can all empathize with someone who aspires for a better 
life. But there are lawful ways to obtain it.
    ``What does it profit a man to gain the whole world and 
lose his soul?'' Mass legalization would subject all our laws 
and the rule of law to contempt. That is a pretty high price.
    Second, a guest worker program. The increase of foreign 
laborers by 400,000 to 600,000 a year could devastate the 
livelihoods of American workers. It shows favoritism to the 
rich, who will be able to use guest workers to depress wages 
and benefits.
    The wealthy will pocket more money on the backs of the 
poor. James, chapter two, springs to mind.
    American wages will fall, because the world is full of 
willing workers who would marginally improve their own earnings 
here. The average Mexican earns one-twelfth the average 
American's wages. Some 4.6 billion people earn less than the 
average Mexican.
    So, guest worker will do the most harm to the most 
vulnerable Americans, including minorities, the disabled and 
recent lawful immigrants.
    Thank you.
    [The prepared statement of Mr. Edwards follows:]
              Prepared Statement of James R. Edwards, Jr.
    Madam Chairman, Ranking Member King, members of the subcommittee, 
thank you for inviting me to present a faith perspective on the 
immigration issue. I commend you for giving serious consideration to 
this important aspect. My remarks represent the earnest, considered 
views of a lay Christian who has sought to honor the Lord God (as 
Colossians 3:23 instructs, to work heartily for the Lord's pleasure) as 
I have engaged in my calling to the public policy sphere.
    I certainly don't claim that my conclusions are infallible because, 
like every other human being who has ever lived (except Jesus), I am 
imperfect. As Francis Schaeffer said, ``Having been made in the image 
of God, man is magnificent even in ruin. God made man to be responsible 
for his thoughts and actions. . . .'' That wonderful description 
instills both humility and love.
    I don't claim to be a theologian. But as C.S. Lewis said, you don't 
want theologians writing civil laws; that's outside their calling. 
Rather, you want faithful believers whom God has called into the public 
policy field and equipped for that work.
    On many subjects, Judeo-Christian Scripture is clear. It contains 
proscriptions on murder, theft, and perjury, for instance. But on 
immigration, as with other areas of public policy, Scripture isn't 
definitive. That would leave the specifics of immigration policy in the 
realm of prudential judgment.
    In other words, one would need guidance from applicable biblical 
principles, to apply those principles according to the specific facts 
known from general revelation and particular circumstances, and to 
exercise sound judgment. This process would necessarily involve a fair 
reading of the Bible, taking passages in context, weighing various 
texts, and giving prayerful consideration to how those texts should be 
regarded here, now. It would require reason, logic, and dispassionate 
weighing of these factors. And, of course, a biblical approach would 
require removing, as much as humanly possible, ulterior motives.
    Thus, while different Christians may arrive at different 
conclusions as to policy specifics on subjects like immigration where 
Scripture is silent or unclear, that fact would represent the freedom 
they have in the Lord as His creatures and His followers--not that the 
Lord is Himself of a divided mind. With many policy matters, more than 
one course of action that would pass muster with the Lord God exists, 
or fulfill His will. I believe this is the case with immigration.
                        nine biblical principles
    How might those seeking to exercise prudence approach the 
immigration issue? From what biblical guidance can we derive sound 
immigration policy? I submit that we might begin with five general 
principles from Scripture.
    First, the two cornerstone commandments: Love the Lord with all 
your heart, soul, and mind; and love your neighbor as yourself. Jesus 
said these summarize God's moral law, the Ten Commandments (Matt. 
22:37-40). They are timeless. They oblige each person, and that 
standard, exercised by individuals, would thereby be reflected in civil 
society.
    Second, God has given both temporal and eternal obligations. In 
Matthew 22:21, Jesus says, ``Give to Caesar what is Caesar's, and to 
God what is God's.'' This principle implies that some binding moral 
commands may apply differently to individuals and to civil government.
    Third, God doesn't contradict Himself, and God's principles don't 
contradict one another. Thus, His principles of justice, fairness, and 
equality don't contradict, but are complementary to His principles of 
mercy. Also, both justice and mercy principles obligate us more to some 
people over others.
    Elements of both sets of principles apply to us individually and as 
a body politic, but not always equally. For example, Exodus 23:2 warns 
us ``not [to] show favoritism to a poor man in his lawsuit.'' But James 
2:1 says ``don't show favoritism [to the rich].'' James 2:9 calls 
showing favoritism ``sin.''
    In the context of the Golden Rule, the obligation to show mercy is 
greater for individuals than could rightly be expected of civil 
government. Luke 6:30-31 says, ``Give to everyone who asks you, and if 
anyone takes what belongs to you, do not demand it back. Do to others 
as you would have them do to you.'' Obviously, that would be unjust for 
civil government to attempt, and such an attempt at mercy would result 
in injustice (as well as be unwise and profligate with public 
resources). The state can't turn the other cheek (Luke 6:29-30). The 
state can't give its tunic. The state can't turn a blind eye toward 
someone who has stolen. The state can't forgive someone 70 times seven 
times (Matthew 18:21-22).
    Scripture indicates certain priorities in our personal and 
corporate obligations. I Timothy 5:8 says, ``If anyone does not provide 
for his relatives, and especially for his immediate family, he has 
denied the faith and is worse than an unbeliever.'' Clearly, God 
organizes society around groups of people: families, communities, 
tribes, nations. Such verses imply priorities of duty and allegiance, 
for individuals and for the state.
    Fourth, God ordains civil government. Earthly authorities are 
established as His agents to restrain evil, protect the innocent, and 
punish the wrongdoer. Notably, Romans 13:1-7 reads in part, ``The 
authorities that exist have been established by God. Consequently, he 
who rebels against the authority is rebelling against what God has 
instituted. . . .'' Civil governments are part of God's common grace to 
protect people in a world in which evil exists. Thus, people 
appropriately owe allegiance and duty to temporal governing 
authorities.
    In the West (formerly known as Christendom), legislatures 
deliberate in a democratic process and enact civil laws. Courts of law 
assess punishment for lawbreaking, according to the rules established 
in those duly enacted laws, rather than turning to mob rule or a 
tyrant's whim. This characteristic, the rule of law, has come to us 
under God's common grace. Or, as Democratic Senator Sam Ervin was fond 
of saying, ours is ``a government of laws and not of men.'' The rule of 
law is our nation's greatest characteristic, and it should be 
safeguarded.
    Fifth, God in His providence establishes particular governments for 
particular groups of people in particular places at particular times. 
That includes specific forms of government and specific rulers and 
officials. Daniel 2:21 says, ``He changes times and seasons; he sets up 
kings and deposes them.'' Acts 17:26 says, ``He determined the times 
set for them ['every nation of men'] and the exact places where they 
should live.'' Deuteronomy 32:8 confirms the same principle, making 
special reference to the Hebrews: ``When the Most High gave the nations 
their inheritance, when he divided all mankind, he set up boundaries 
for the peoples according to the number of the sons of Israel.''
    These first five, general biblical principles provide right motive 
and attitude, balance and appropriate sophistication, understanding of 
civil government's role, and grounds for basing prudent judgments. 
Immigration policy can now be considered in light of four, more 
specific biblical principles.
    First, a careful reading of the Scripture passages often referenced 
in connection with immigration shows that they really address immigrant 
policy rather than immigration policy. These passages address treatment 
of aliens once they are in a country. They say nothing about the 
criteria or the process by which aliens originally were admitted to the 
nation. We hear passages like Leviticus 19:33-34: ``When an alien lives 
with you in your land, do not mistreat him. The alien living with you 
must be treated as one of your native-born. Love him as yourself, for 
you were aliens in Egypt. I am the Lord your God.'' Exodus 22:21 reads, 
``Do not mistreat an alien or oppress him, for you were aliens in 
Egypt.'' Such verses speak to fairness toward foreigners, just as 
related verses say to treat widows and orphans. It would be a flying 
leap in illogic to argue that the Bible says not to mistreat resident 
aliens; therefore, a nation must admit every foreigner who wishes to 
enter that country, on his own terms or otherwise.
    Second, Old Testament laws reflect an assimilationist ethic. These 
laws required resident aliens to assimilate to Israel. The aliens were 
to adopt Israel's customs and observe its laws. For instance, 
Deuteronomy 16:9-15 requires all residents, including aliens, to 
observe the Feast of Weeks and the Feast of Booths. Those were 
significant, public events in that society.
    Other laws accorded only Hebrews certain privileges. For instance, 
Deuteronomy 15:3 allows the exacting of credit loaned to a foreigner in 
the seventh year, when Hebrew debt was forgiven. In this, the Lord 
didn't contradict Himself, nor was He being unfair towards aliens. So, 
while God calls for fairness in general, He lets society make 
distinctions between citizens and noncitizens.
    Third, making immigration policy is a legitimate role of civil 
government. Civil authorities, acting as God's agent, have the 
responsibility for determining how many people, on what basis, by what 
priorities, the process to regulate the visitation, permanent 
residence, and acquisition of citizenship of foreigners, etc. Those 
laws may differ from nation to nation, from period to period. 
Regulating immigration is the government's exercise of prudential 
judgment. It must assess the best, most valid, and reliable data to 
make its decisions. A government's primary duty is to protect its own 
citizens, as made clear by the above principle of why God invests 
authority to the state.
    Fourth, a reasonable (or just) law, if not inherently moral (such 
as outlawing murder), possesses moral dimensions. This reflects the 
Judeo-Christian concept of the rule of law. Though some conduct is not 
inherently evil, laws develop regulating certain conduct for the public 
good. Scholar Paul Marshall has illustrated this principle regarding 
driving on the left or right side of the road. He says, ``Only after 
the law is passed do these actions take on a whole new context and 
become matters of morality.'' Similarly, whether a hike across the 
plains has moral implications depends on whether that hike involves 
crossing onto private property and thus trespassing or crossing a 
national border.
    Regarding immigration, Marshall notes that most illegal immigrants 
``simply desire a better life, and are willing to risk their lives in 
striving for it. . . . If there were no border then who could object to 
what they do? It is the fact of a border, a political invention, that 
makes their action wrong.'' Notably, even desperate circumstances don't 
justify a lawless act. Proverbs 6:30-31 says, ``Men do not despise a 
thief if he steals to satisfy hunger when he is starving. Yet if he is 
caught, he must pay sevenfold, though it costs him all the wealth of 
his house.'' Despite quite understandable reasons behind an act of 
lawbreaking, the greater principles of preserving the peace, and law 
and order in society at large are at stake. In this example, the 
prosecutor has a duty to press charges and hold the person accountable 
for his actions, while the person from whom food was stolen may choose 
not to bring a civil lawsuit.
    These four principles indicate that a lot of factors are at play 
and many elements must be carefully weighed, along with the five 
general principles. What do they mean for individuals versus the state? 
What do they mean for both the receiving society and the immigrant? Is 
it consistent with the role of civil government and the rule of law to 
change the law to accommodate wholesale breaking of the law in 
question? Is amnesty an appropriate measure? By what standard is a law 
regarded as just or unjust? Is it possible to solve the complex 
problems intertwined in our immigration situation all at once, in one 
bill, without running an undue risk of unintended consequences that 
will only make matters worse? These are the questions and immense 
challenges facing Congress.
            considering ``comprehensive immigration reform''
    With respect to the approaches taken in H.R. 1645, the STRIVE Act, 
and the Senate immigration legislation that as been negotiated ex 
parte, allow me to speak generally and in light of the biblical 
principles I have laid out.
    Concerning the legalization provisions, it has been suggested that 
all of the illegal aliens (12 to 20 million) cannot be deported, and so 
they all must be legalized. This approach sets up a false choice. Other 
policy options exist: continuing with the status quo; incentivizing 
attrition through steadily stepped-up enforcement; incentivizing 
aliens' voluntary exit through innovative financial programs; adopting 
qui tam rewards for citizens who report immigration benefits fraud, 
alien smuggling, employment of unlawful foreign workers, ID fraud; 
adding ``constructive knowledge'' to employer sanctions laws, 
withholding visas to source countries until they stop their people from 
unlawfully emigrating to the U.S.
    The United States has tried the legalization route before; it has 
not only failed, but actually exacerbated the situation. Immigration 
amnesties have sparked more illegal immigration, for the simple reason 
that people conclude that the United States will not enforce its 
immigration laws very vigorously and, if they come on in, eventually 
they will be legalized.
    The people hurt most by legalizations have been similarly situated 
native-born Americans and recent immigrants. These tend to be lower 
income and lower skilled people. The people who gain the most from such 
legalizations are the well-off: Employers who are let off the hook for 
having employed an illegal workforce and gaining an unfair competitive 
advantage over law-abiding employers, powerful business interests, and 
special interests that now in new ways can exploit those who are 
legalized. This sounds more like showing favoritism to the rich and to 
the alien, and failure by civil authorities to protect the innocent 
among the citizenry. It seems like injustice by grasping for ``mercy.''
    Legalization would appear to risk abrogating ``love your neighbor'' 
and biblical standards of justice. It puts the poorest Americans, law-
abiding employers, citizens crying out for their government to 
faithfully enforce the laws, and lawful immigrants beneath those who 
broke our laws to get here, owe our nation no allegiance, and have been 
(and will continue to be) grossly subsidized by middle-class taxpayers. 
We all can empathize with someone who aspires for a better life. We 
wish the same for ourselves and our children. But there are lawful ways 
and there are unlawful ways to achieve an improved life. The end 
doesn't justify the means; what does it profit a man to gain the whole 
world and yet lose his soul? (Mark 8:36)
    Particularly in light of the utter failure of previous amnesties, 
the legalization route at this juncture would seem to constitute the 
government's failure to wield the sword for justice. The laws that have 
been broken are just, duly enacted laws that deserve to be enforced. To 
lead with mass legalization subjects all our laws, and the rule of law, 
to contempt. That course is a very high price to pay, sacrificing a 
treasure as precious as the rule of law. Though ``mercy'' may be the 
motive, injustice it would bring. Amnesty will most certainly leave us 
with illegal immigration three or four times greater in another decade 
or so than we have today.
    With respect to a guestworker program, the increase of laborers by 
some 400,000 to 600,000 foreign workers each year--on top of the more 
than one million legal immigrants we already have annually, the 
escalated processing of 7 million chain migrants, and the 12-20 million 
legalization recipients--could devastate the livelihoods of American 
workers who will face head-to-head job competition. That kind of volume 
of imported labor would seem to show favoritism to the rich, who will 
be able to use the guestworker route to drive down wages, degrade 
working conditions, and drop fringe benefits they presently provide to 
attract and retain workers. In other words, the wealthy will pocket 
more money on the backs of the poor. The verses from James spring to 
mind.
    It's easy to envision what will come about. The labor supply will 
be flooded. With more workers vying for jobs, they can command less 
generous wages and benefits. The requirements for first advertising for 
an American worker can be expected to be pretty lame. That was the case 
with last year's Senate bill, various ``guestworker'' measures such as 
for H2Bs, and will undoubtedly be the case here. Remember that the 
official unemployment statistics don't reflect the millions who've 
dropped out of the workforce.
    When American middle-class wages not only continue to stagnate but 
fall, it will be attributable to increasing the labor supply via 
foreign guestworkers. A lot of ``willing workers'' would marginally 
improve their own earnings here relative to what they earn in their 
home countries. But what about the well-being of Americans who could 
and otherwise would do those jobs, for decent pay? Aren't they the 
government's first responsibility? The average Mexican worker earns 1/
12th the average American's wages. Some 4.6 billion people in the rest 
of the world earn less than the average Mexican. The massive increase 
of foreign ``willing workers'' as is being proposed will most harm the 
most vulnerable Americans, including minorities, the disabled, and 
recent lawful immigrants.
    So the balancing of justice and mercy, protecting the innocent 
citizen, and differentiating between what one should do as an 
individual versus what society through its government should do take on 
very weighty dimensions--moral concerns, in fact. I trust these moral 
principles will inform your decisions.
    Thank you, and I look forward to your questions.

    Ms. Lofgren. Dr. Steinlight, you are next. And all of those 
buzzings and lights mean that they are calling us for still 
more votes, so we will listen to you, Dr. Steinlight, and then 
perhaps we can just limit ourselves to 2 minutes of questions 
each and we will run off and vote and come back for the second 
panel.
    Dr. Steinlight?

     TESTIMONY OF STEPHEN STEINLIGHT, D.PHIL., CENTER FOR 
 IMMIGRATION STUDIES, FORMER NATIONAL AFFAIRS DIRECTOR AT THE 
                AMERICAN JEWISH COMMITTEE (AJC)

    Mr. Steinlight. Good afternoon. I appreciate the 
opportunity to appear before this panel. It is a privilege for 
a first-generation American, the son of a refugee.
    I am Stephen Steinlight, senior policy analyst at the 
Center for Immigration Studies. I am here in a different 
capacity, however, to share my understanding of my faith's 
teachings regarding the current immigration debate.
    I am a proud American and a faithful Jew. My religious 
values are rooted in Judaism prophetic tradition that teaches 
redemption is achieved through pursuing justice.
    As I understand it, justice is defined in part as the 
absolute preemptory connection between actions and 
consequences. Without individual accountability, justice means 
nothing.
    The holiday of Shavuot, Pentecost, begins at sundown 
tonight. It commemorates God's giving of the law, the Torah, to 
the Israelites, and through them to all humanity.
    Rabbinical commentators traditionally linked Pentecost to 
Passover, the exodus from Egyptian bondage, reflecting rabbinic 
understanding of freedom's dangers. Unrestrained liberty leads 
to anarchy.
    At Mount Sinai, God bestowed the gift of law to educate, 
limit and ennoble freedom.
    Katharine Bates echoed this union of principles in 
``America the Beautiful:'' ``Confirm thy soul in self-control, 
by liberty in law.''
    The millions that have entered America unlawfully and 
broken countless laws to remain produce these principles. So 
does substitute Senate 1348, by offering instant parole and the 
profligate Z visa to those that exhibit contempt for the rule 
of law.
    We ignore history and justice at our peril. The 1986 
amnesty multiplied illegal immigration five-fold.
    Since anyone can quote scripture, it is not surprising how 
frequently faith representatives supporting the Bush-Senate 
immigration bill employ it--or rather, abuse it--obsessing on 
passages from the Hebrew Bible, especially Leviticus 19. This 
includes the Jewish establishment, which survey research shows 
does not reflect the opinions of most Jews.
    Ordinary Jews, like most Americans, are not xenophobes, but 
draw a bright line between legal and illegal immigration. They 
oppose exponentially increased immigration, guest worker 
programs and amnestying illegal aliens.
    Like most Americans, given, the option, they choose 
attrition of the illegal population through vigorous law 
enforcement. Supporters of the Senate-Bush bill fixate on 
Leviticus 19. We have heard it quoted many times: ``When 
strangers sojourn with you in your land, you shall do them no 
harm. You shall love them as yourselves, for you were strangers 
in the land of Egypt.''
    This is the routine rhetorical climax. It is presumably 
unassailable. Leviticus 19, they declare, supports Senate bill 
2611, substitute 1348, end of story. Or is it?
    It does not require much hermeneutical acumen to see the 
meaning of a key term, ``sojourn,'' has been misconstrued for 
political purposes.
    The word in the Hebrew Bible for stranger is ``ger 
v'toshav.'' The precise English word is sojourner.
    It first appears in Genesis 4:23, describing Abraham when 
he dwells briefly with the Hittites. It appears in Chronicles 
29:15, when King David employs it metaphysically to contrast 
the transitory nature of human experience with the eternality 
of God, steward and creator of the universe, of the earth on 
which we dwell briefly as wanderers.
    Richard Elliott Friedman, leading authority on Biblical 
Hebrew, translates it as ``alien'' and ``visitor.'' Every 
English dictionary defines sojourn as ``temporary stay.''
    Thus, this passage offers no scriptural sanction to argue 
12 million illegal aliens should be permitted to remain 
permanently in the United States.
    Terms for immigrant and immigration are absent in the 
Bible. Narratives of inclusion are rare. We know the rule by 
the exception--the Book of Ruth.
    The Bible also addresses the inclusion of strangers in 
civil and legal terms. In Exodus 12:49, Leviticus 24:22 and in 
Numbers, it proclaims there shall be one law for citizens and 
strangers alike. This is anachronistically misread as a bill of 
rights for sojourners. The contrary is true.
    Strangers are meant to conform to Israelite law. Strangers 
did have rights, but they earned them by an ancient form of 
naturalization: circumcision and abandonment of idolatry. 
Strangers were required to obey all Israelite laws strictly and 
not undermine the legal fabric of Israelite society.
    Leviticus 19 commands us to love the stranger. Substitute 
bill 1348 is about greed, not love. And Leviticus 19 surely 
does not command us to exploit strangers as cheap labor or for 
partisan advantage.
    The bill's reactionary, inhumane provision of 400,000 to 
600,000 guest workers violates the Holiness Code of Leviticus 
that demands dignity for laborers, including the most humble. 
We are told to be holy, because ``I, the Lord thy God, am 
holy.'' And our holiness is tested by our treatment of 
laborers.
    Cherry-picking the Bible to exploit poor immigrants at the 
expense of working class and impoverished Americans, African-
Americans most especially, to enrich wealthy employers is 
nothing less than sacrilege.
    [The prepared statement of Mr. Steinlight follows:]
                Prepared Statement of Stephen Steinlight
    Good afternoon. I appreciate the opportunity to appear before this 
panel. It's a privilege for a first-generation American, the son of a 
refugee.
    I'm Stephen Steinlight, Senior Policy Analyst at the Center for 
Immigration Studies. I'm here in a different capacity, however: to 
share my understanding of my faith's teachings regarding the current 
immigration debate. I'm a proud American and a faithful Jew.
    My religious values are rooted in Judaism's prophetic tradition 
that teaches redemption is achieved through pursuing justice. As I 
understand it, justice is defined--in part--as the absolute, peremptory 
connection between actions and consequences. Without individual 
accountability, justice means nothing.
    The holiday of Shavuot--Pentecost--begins at sundown today. It 
commemorates God's giving of the law, the Torah, to the Israelites and, 
through them, to humanity. Rabbinical commentators traditionally linked 
Pentecost to Passover, the Exodus from Egyptian bondage--reflecting 
rabbinic understanding of freedom's dangers. Unrestrained liberty leads 
to anarchy. At Mount Sinai, God bestowed the gift of law to educate, 
limit and ennoble freedom. Kathleen Bates echoed this union of 
principles in ``America the Beautiful:'' ``Confirm thy soul in self 
control by liberty in law.''
    The millions that have entered America unlawfully and broken 
countless laws to remain traduce these principles. So does S.1348 by 
offering the profligate Z-Visa to those that exhibit contempt for the 
rule of law. We ignore history and justice at our peril. The 1986 
amnesty multiplied illegal immigration five-fold.
    Since anyone can quote Scripture, it's not surprising how 
frequently faith representatives supporting the Bush-Senate immigration 
bills employ it--or, rather--abuse it--obsessing on passages from the 
Hebrew Bible, especially Leviticus 19. This includes the Jewish 
Establishment, which surveys show does not speak for America's Jews. 
Ordinary Jews, like most Americans, are not xenophobes, but draw a 
bright line between legal and illegal immigration. They oppose 
exponentially increased immigration, guest worker programs, and 
amnestying illegal aliens. Like most Americans--given the option--they 
choose attrition of the illegal population vigorous law enforcement.
    Supporters of the Senate-Bush bills fixate on Leviticus 19: ``When 
strangers sojourn with you in your land, you shall do them no wrong. 
The strangers who sojourn with you shall be as the natives among you, 
and you shall love them as yourself; for you were strangers in the land 
of Egypt.''
    This is their routine rhetorical climax. It's presumably 
unassailable. Leviticus 19, they declare, supports S.2611 cum S.1348. 
End of story.
    Or is it?
    It doesn't require much hermeneutical acumen to see the meaning of 
a key term--sojourn--has been misconstrued for political purposes.
    The word in the Hebrew Bible for stranger is ``Ger v'toshav.'' The 
precise English equivalent is sojourner. It first appears in Genesis 
4:23 describing Abraham when he dwells briefly with the Hittites in 
what is now Hebron. It last appears in Chronicles 29:15 where King 
David employs it to contrast the transitory nature of human existence 
with the eternality of God, creator and steward of the earth on which 
we briefly dwell as wanderers.
    Richard Elliot Friedman, a leading authority on biblical Hebrew, 
translates it as ``alien'' and ``visitor.'' Every English dictionary 
defines sojourn as a temporary stay. Thus, this passage offers no 
scriptural sanction to argue some 12 million illegal aliens should be 
permitted to remain permanently in the United States.
    Terms for immigrant or immigration are absent in the Bible. 
Narratives of inclusion are rare. We know the rule by the exception--he 
Book of Ruth.
    The Bible also addresses the inclusion of strangers in civil and 
legal terms. In Exodus 12:49, Leviticus 24:22 and in Numbers 15:14, it 
proclaims there shall be one law for citizens and strangers alike. This 
is often cynically misread as a bill of rights for sojourners. The 
contrary is true. Strangers must conform to Israelite law.
    Strangers did have rights, but they earned them by an ancient form 
of naturalization: circumcision and abandoning idolatry. Strangers were 
required to obey all Israelite laws strictly and not undermine the 
legal fabric of Israelite society.
    Leviticus 19 commands us to love the stranger. S.1348 is about 
greed, not love, and Leviticus 19 surely does not command us to exploit 
strangers as cheap labor or for partisan advantage. S.1348's 
reactionary, inhumane provision for 400,000-600,000 ``Guest workers'' 
violates the Holiness Code of Leviticus that demands dignity for 
laborers, including the most humble. We are told to be ``holy because I 
the Lord am holy.'' Our holiness is tested by how justly we treat 
laborers.
    Cherry-picking the Bible to exploit poor immigrants at the expense 
of working-class and impoverished Americans--African Americans 
especially--to enrich wealthy employers is nothing less than sacrilege.
    Thank you.

    Ms. Lofgren. Thank you, Dr. Steinlight. We have about 8 
minutes before we have to be on the floor. Usually it is--
because they carry on the first.
    So we are, by unanimous consent, are going to limit 
ourselves to about a minute-and-a-half of questions apiece, so 
that we can at least each ask you one question before we rush 
to the floor.
    The bad news is, we have got to go vote. The good news is, 
it is the last today, so the second panel will not be 
interrupted.
    I am going to turn first to Chairman Conyers.
    Mr. Conyers. Thank you.
    Of all the times that we need more time, we get less time, 
because this, to me, is the most important and interesting 
hearing we have had on immigration.
    Dr. Adams, in my brief time, please discuss what you have 
heard from our good friends Dr. Edwards and Dr. Steinlight, in 
terms of where faith comes into this. Should you even be here 
to begin with? I mean, are we to exclude faith-based opinion?
    Reverend Adams. I believe that the separation between 
church and state in the United States is not meant to suppress 
either side of our reality as human beings, of both civil law 
and eschatological compulsion.
    I think eschatological compulsion, or faith, belief in the 
ultimate, and a belief in the temporal and the temporary, not 
the final, not the perfect, but we just do the best we can as 
human beings, realizing that, as citizens we exercise our right 
to vote, to make laws, to change laws, to correct laws.
    And as believers in God, or in some ultimate being, we 
recognize our freedom to participate out of that motivation. 
But that does not give us domination over people who have a 
different definition of the ultimate.
    So, I would think that we have a right to speak, but we do 
not have a right to dictate or to dominate. And what I hear is 
free speech on the part of people who come out of a religious 
motivation, who are participating in the public square as equal 
partners.
    Ms. Lofgren. Thank you, Reverend Adams.
    Mr. Gohmert?
    Mr. Gohmert. Thank you.
    And, Reverend Adams, I really appreciate your comments and 
I appreciate your faith. Obviously, you are a man who lives 
what he preaches, a heart as big as all outdoors.
    I do agree--you know, I have concerns about merit-based 
versus family-based. One of the great hopes that I have with 
the immigrants that I see coming in from other countries, be it 
from Mexico, Latin America, Asia, even Irish, different groups, 
they have such strong families. And we have lost that in 
America. And I am hopeful that that is something immigration 
will revive in America. So, that is a concern of mine.
    But, sir, when you talked about bad religion, talks about 
national defense--I believe Jesus is the way, the truth and the 
life. I do. But I also believe, if people like me did not 
commit time like I did to serve for the national defense, there 
would be no one allowed in this country to talk about national 
purpose.
    I also believe that when you get to Romans 13, you know, 
God allows governments to exist. And there are supposed to be 
laws. And some of us have committed our lives, either as 
prosecutors, as my 4 years in the Army--many different ways, as 
a judge. And so many times I have to come down on laws I did 
not like, I did not agree with.
    But the rule of law seems to be the one thing that 
separates us from countries who have been impoverishing their 
people, like Mexico.
    We ought to be demanding a better nation to take care of 
people, so they would not have to break up families and come 
here. We ought to be demanding better neighbors.
    And so, that is something I think the thrust ought to be, 
not that we are evil because we want to provide for the common 
defense, as the Constitution says, that we took an oath to 
uphold, but that we need to be vigilant and protecting people, 
like all of you here who care so deeply for humanity.
    And I do appreciate your time.
    Ms. Lofgren. Thank you.
    Mr. Gutierrez for a minute?
    Mr. Gutierrez. Thank you.
    Number one, I want to thank all of you for coming here this 
afternoon. I know that we are all very inspired by your words 
and by your testimony here.
    I think that church-based organizations have played a 
critical role in the development of this nation, from the first 
Pilgrims getting off the boat to today.
    I know that I want to particularly thank my friends in the 
Jewish community for all of the hard work that they have done 
to advocate for comprehensive immigration reform.
    I want to thank the black ministers that are here for 
bringing the historical context of the church in your own 
struggle for civil and human rights here, and for standing up 
for immigrants today.
    We have heard here--if there was anybody that should be 
able to be assimilated, it should be African-Americans, mostly 
Protestant and English speaking. And yet we know about the 
prejudice and the segregation that you have confronted and 
continue to confront, but that together we will tear those 
barriers down.
    And I just want to say, lastly, that I guess it all depends 
on the eyes that you see a community. Some people see someone 
from Ireland that does not have documents and sees someone that 
has overstayed their visa illegally. I see somebody who wants 
to go back home and see their parents.
    I see somebody from Haiti, and they see a black man. I see 
somebody, if he were only one country over in the Antilles, 
would have permanent residency and citizenship here, if he were 
from Cuba.
    So, I only make those comments to say that our laws are 
both fair and unfair, are wise and unwise, and are laws that 
are good and bad laws. And I think that you have spoken to that 
issue here today. And sometimes laws are bad and men have to 
correct them.
    Thank you so much.
    Ms. Lofgren. Thank you.
    Mr. Ellison?
    Mr. Ellison. Let me join my colleagues in thanking all of 
you for sharing your views.
    I do believe that, while the sacred needs to inform the 
secular government, that it should not dominate it, as the 
reverend said. But for me, it is very important to hear the 
voices from the faith community as we go through this debate.
    I believe that our laws should be just and should be good. 
And I think it was Saint Augustine who said that an unjust law 
is not really law at all.
    Is that right, Reverend? Yes? I got that one right. 
[Laughter.]
    So, the thing is, is that I want to thank you all for 
talking about what is justice, what is charity, what is 
generosity. I think America should be a nation that stands for 
open doors and generosity. At the same time, I do not think 
that negates the rule of law.
    And so, I really just want to demonstrate and express my 
appreciation, and I wish we had time for more questions. 
Unfortunately, we really do not.
    But if we have more time later, I would like to do this. If 
we could open up the record to include information on Muslim 
American communities----
    Ms. Lofgren. Can we do all the insertions when we come 
back?
    Mr. Ellison. Okay.
    Ms. Lofgren. And that will be without objection. But I want 
to----
    Mr. Ellison. Yes.
    Ms. Lofgren. And we will certainly do that when we come 
back.
    Mr. Ellison. And if I did have time to ask a question, I 
would ask if you all think that it would be important to 
include Muslim voices in this debate.
    Ms. Lofgren. Luckily, we----
    Mr. Ellison. It looks like we are saying yes.
    Ms. Lofgren. Luckily, we will have some of those voices in 
our next panel.
    And I have not used my 2 minutes of time, because we have 
to rush to the floor.
    I would just like to say that, like Reverend Adams has 
said, no religious voice in our community can dominate what the 
civil legislature does. But I also feel that the voices of the 
faithful will inform our decision, or should inform our 
decision.
    And so, I appreciate your willingness to be here, to give 
us your comments and to open your hearts to us.
    And with that, we will recess this hearing.
    And the second panel, we will be back in about half an hour 
without further interruptions.
    So this hearing is recessed till after the last vote.
    [Recess.]
    Ms. Lofgren. The Immigration Subcommittee will resume.
    And the good news is that the votes are over for the day. 
And the second piece of information is to once again apologize. 
We have no control over when votes are called on the floor, and 
we do apologize for disrupting this hearing so severely.
    I would like to introduce the second panel who is with us 
today. And I understand Ms. Murguia has to leave at 5:30. I 
think we will have time for her testimony, but Cecilia Munoz 
will sit in for her, without objection, if there are questions.
    I would like to introduce Marleine Bastien, the founder, 
former president, and current executive director of Fanm 
Ayisyen Nan Miyami, Haitian Women of Miami, founded in 1991. 
Ms. Bastien and her organization have created a host of vital 
service programs for women in southern Florida. She is 
additionally one of the founders of the Haitian-American 
Grassroots Coalition and the Justice Coalition for the Haitian 
Children of Guantanamo. She has received Amnesty 
International's Human Rights Award, a Ms. Woman of the Year 
Award, and a Leadership for a Changing World Award from the 
Ford Foundation.
    We are also pleased to have Deepa Iyer with us, the 
Executive Director of South Asian American Leaders of Tomorrow 
(SAALT). Ms. Iyer began her public interest career at the Asian 
Pacific American Justice Consortium and later served as a trial 
attorney with the Civil Rights Division of the United States 
Department of Justice. Ms. Iyer most recently served as the 
Legal Director of the Asian-Pacific American Legal Resource 
Center. Born in India, Ms. Iyer came to the United States at 
the age of 12. She has taught courses on legal issues facing 
Asian-Americans at Columbia University and Hunter College in 
New York. She earned her bachelor's degree with honors from 
Vanderbilt University and her law degree from the University of 
Notre Dame Law School.
    I am next honored to welcome Janet Murguia, the president 
and CEO of the National Council La Raza, or NCLR, the nation's 
largest national Hispanic civil rights and advocacy 
organization. She began her career in Washington as the 
legislative counsel to former Kansas Congressman Jim Slattery 
and later worked from 1994 to 2000 at the White House. She 
became former President Clinton's deputy of legislative 
affairs. She returned home to her home-State of Kansas to serve 
as the Executive Vice Chancellor for University Relations at 
the University of Kansas before returning to the nation's 
capital. Ms. Murguia currently sits on the board of the 
Independent Sector and the board of the Hispanic Association on 
Corporate Responsibility, the National Hispanic Leadership 
Agenda, and the Merrill Lynch Diversity and Inclusion Council. 
A member of the executive committee on the Leadership Council 
on Civil Rights, Ms. Murguia received three degrees from Kansas 
University: two bachelor's degrees and a law degree.
    I am next pleased to introduce Karen Narasaki, president 
and executive director of the Asian American Justice Center, or 
AAJC. Ms. Narasaki serves as the Vice Chair of the Leadership 
Conference on Civil Rights and Vice President of the Coalition 
for Comprehensive Immigration Reform. She additionally chairs 
the Rights Working Group and the Asian Pacific American Media 
Coalition. And she serves on the boards of the Lawyers 
Committee for Civil Rights Under Law and the National 
Commission on Adult Literacy. Among her numerous awards, Ms. 
Narasaki was named one of the 100 Most Powerful Women in 
Washington by Washingtonian Magazine in 2001 and 2006, and the 
Congressional Black Caucus Chair's Award in 2003. She graduated 
with honors from Yale University and the Order of the Coif from 
the University of California School of Law at UCLA.
    Next I am pleased to introduce Niall O'Dowd, chairman of 
the Irish Lobby of Immigration Reform. Mr. O'Dowd is the 
founder of Irish America magazine and the Irish Voice newspaper 
in New York. In addition to his distinguished career as an 
immigrant advocate, Mr. O'Dowd initiated the Irish American 
Peace Delegation in 1992 that played a key role in bringing 
about the Irish Republican Army ceasefire and the Irish peace 
process. His recent book, Fire in the Morning, accounting the 
September 11 terrorist attacks, has become a bestseller in 
Ireland.
    We are also pleased--oh, I am going to allow Mr. Conyers to 
introduce Mr. Saleh.
    Is Ms. Pulido--will be here later.
    Ms. Pulido is one of the minority witnesses, Illinois 
spokeswoman for You Don't Speak For Me. Born and raised in 
Chicago, she worked for 3 years as a police dispatcher, 
completed two tours of duty with the Minuteman Project as an 
original minuteman in April 2005 and 2006, and she manages her 
own errand and escort service for senior citizens, and created 
and produced a talk show for seniors called ``Caregivers 
Radio.''
    The minority's second witness is Jan Ting, a Professor of 
law at Temple University. A Temple professor, Ting served as 
director of the Graduate Tax Program from 1994 to 2001 and 
specialized in tax law as an attorney at the Philadelphia law 
firm of Pepper Hamilton and Scheetz. He was appointed Assistant 
Commissioner of the Immigration and Naturalization Service in 
1990, and served with the Justice Department through 1993. The 
National Asian Pacific American Law Students Association named 
him 2003 Asian American Law Professor of the Year, and he has 
served as a Senior Fellow at the Foreign Policy Research 
Institute, among many other honors. His B.A. is from Oberlin, 
his master's from the University of Hawaii, and law degree from 
Harvard University.
    And now I will ask the Chairman of the Committee to 
introduce Noel Saleh, a member of the panel from his State and 
someone well-known to him.
    Mr. Conyers. Thank you, Chairwoman Lofgren, and my 
colleague, Luis Gutierrez.
    My old friend, attorney Noel Saleh is here, and I just 
wanted for the record to have the pleasure of introducing him.
    He is the President of the board of directors of an 
organization called ACCESS, Arab Community Center for Economic 
and Social Service. It is one of the nationally premier Arab-
American organizations that does social services for the 
community.
    And they distinguish themselves by working in the community 
for everybody. You do not have to be Arab-American to go to the 
Arab-American Center for help. And they have been honored in 
many ways, and we are delighted to have him here.
    He has 25 years or more of immigration litigation 
experience. And until 3 years ago, he was also a Staff Director 
for the American Civil Liberties Union of Michigan.
    He sits on the board of National Immigration Forum, the 
Rights Working Group, and the executive board of the Fair 
Housing Center of Metropolitan Detroit. He is also on the 
Michigan Advisory Committee to the United States Civil Rights 
Commission.
    And we welcome you, Noel.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And thanks to all of the witnesses.
    We will make your written statements part of the record. We 
ask that each of you summarize in about 5 minutes. And these 
little machines are--hopefully you can see them--they turn 
yellow when you have 1 minute left. And I will do a little 
tapping noise so you know.
    And I hope that you will summarize so that we will have a 
chance, even at this late hour, to ask you questions.
    As you know, this hearing is on comprehensive immigration 
reform. And you, as leaders in the communities of the United 
States are important voices for us to hear, especially in light 
of the Senate's action and hopefully actions here in the House 
that will follow.
    So let me turn first to you, Ms. Bastien.

    TESTIMONY OF MARLEINE BASTIEN, EXECUTIVE DIRECTOR, FANM 
        ASYISYEN NAN MIYAMI, INC, HAITIAN WOMEN OF MIAMI

    Ms. Bastien. Thank you, Madam Chair, for the opportunity to 
speak to you today.
    I was here 3 weeks ago with a delegation from Miami-Dade 
County. Little did I know that I would be back this afternoon, 
testifying in front of you in favor of comprehensive 
immigration reform. And I repeat: comprehensive immigration 
reform.
    Madam Chair, as you know, Haitians have suffered 
discrimination in this country for years. Even under the worst 
dictatorships of the Duvaliers in the early 1980's, Haitians 
have been forcibly repatriated, in complete denial of their 
rights of due process.
    You may know that for years now, we have been fighting for 
TPS, temporary protective status, for Haitians. Recently, 3 
weeks ago, as you know, Hondurans, Salvadorans, Nicaraguans 
were awarded TPS once more, and Haitians have been denied TPS 
over and over again.
    So, we know the meaning of discrimination. We know the 
meaning of suffering.
    So, as many immigrants in this country, working hard, 
sometimes two and three jobs, contributing to the social, 
political and economic fabric of this nation, we were waiting 
with open hearts for this new comprehensive immigration reform.
    And I must say that what we have in front of us has us 
greatly concerned. And you have heard the consensus among all 
the people who testified today about some of the problems that 
we have with the proposal.
    It seems to me that there was good intention in crafting 
this proposal. However, what I see missing is a lack of 
empathy. If it were not for a lack of empathy, how could it 
deny so gravely the importance of family values?
    We need a fair legislation that understands and respects 
family values, that keeps families together. Families are the 
core of our society. Strong families make strong communities, 
make better for communities. And this proposal ignores that 
fact, and it aims at dividing families once more.
    Many of the provisions in this proposal are expensive, 
unreasonable, unnecessary, and unworkable.
    These include the ``touch back'' requirements, which, in 
itself, is really, really, really, really, really, really 
neglectful of families' unity.
    How can we be serious about comprehensive immigration 
reform, if we are asking the head of families to go back to 
their home countries, which oftentimes is so unsafe, like in 
the case of Haiti, where there is now an advisory preventing 
Americans and others from visiting, because of the turmoil and 
kidnappers that occur there on a daily basis? And this is true 
for other lands around the world.
    How else could it be to deny workers the path to 
citizenship? We value their work. We value their labor. And 
yet, we want them to come here, work, and then when we are 
tired of them, we want to ask them to go back to their nation, 
without giving them a chance to become U.S. citizens.
    Legalization must include persons with final orders of 
removal. Haitians, as you may know, fall a lot in this 
category, because for over the years, Haitians have been denied 
their rights of due process.
    Haitian political asylum claims have been denied, despite 
proof of repression and instability in Haiti.
    If there is no criminal record, persons with final orders 
of disputation should not have to seek waivers to be able to 
stay. And they should be included in any--I mean in any--
comprehensive immigration reform.
    My colleagues who came previously spoke overwhelmingly 
about some of these concerns. But I would be remiss if I were 
not to talk to you about a specific position, which it is not 
included, will really create more concerns for us in the 
immigrant community, especially the Haitian immigrant 
community.
    If the omission of Haitian improvement act, it was included 
in the Senate proposal last year, but for one reason or the 
other, it was excluded in this proposal this year.
    What is HRIFA? Haitian Immigration Fairness Act of 1998 was 
signed into law by President Clinton in 1998, to address 
refugees and immigrants who have been living here since before 
1995.
    Because of a technicality in this law, many Haitians were 
unable to address their status, and they are all facing 
deportations right now. We are talking about 5,000 or more 
people, including 3,000 U.S.-born citizens.
    In order for us to really show our strong support behind 
comprehensive reform, Haitian improvement act must be included 
in this proposal.
    Immigrants are a huge asset to our State, and we need to do 
more to remove the barriers of their integration. Economic 
common sense and basic human decency dictate the shift in the 
way that immigrants are treated in our country.
    Comprehensive immigration reform on a Federal level is a 
first step toward recognizing that immigrants are not a threat, 
but an asset. We need to be humane and fair about this.
    Thank you.
    [The prepared statement of Ms. Bastien follows:]
                 Prepared Statement of Marleine Bastien
    Madame Chairwoman, members of the subcommittee, thank you for 
inviting me to testify before you. Haitian communities are comprised of 
decent, hard-working, tax-paying refugees and immigrants, seeking the 
American dream, whose U.S.-born children are our future, and whose 
remittances sustain their relatives in Haiti. Haitians have suffered 
from discriminatory U.S. immigration policies for decades. Despite 
fleeing harsh dictatorships, they have been interdicted at sea and 
summarily repatriated without asylum screenings, indefinitely detained 
often for years, and repeatedly denied fair asylum proceedings and 
determinations.\1\ Three weeks ago, Temporary Protected Status was 
again properly renewed for 18 months for affected Honduran, Nicaraguan, 
and Salvadoran nationals, extending a halt of their deportations, due 
to still-incomplete recovery from Hurricane Mitch in 1998 and 
earthquakes in 2001. But Haitians, despite broad recognition that they 
fully qualify, have never been granted such protection.\2\
---------------------------------------------------------------------------
    \1\ See ``Successes and Challenges for U.S. Policy to Haiti,'' 
Hearing Before the Committee on Foreign Relations, United States 
Senate, 108th Congress First Session, July 15, 2003, Testimony of 
Steven David Forester, Esq., Senior Policy Advocate, Haitian Women of 
Miami, which I incorporate herein by reference. That testimony 
describes this history of discrimination in detail, citing statistics, 
federal court cases, and facts, and thoroughly outlines the pressing 
need for legislation to correct or ``fix'' flaws in the Haitian Refugee 
Immigration Fairness Act of 1998 (HRIFA). As discussed infra, such 
HRIFA Improvement legislation has been introduced thrice in the House 
of Representatives since 2003 and currently comprises Section 519 of 
the STRIVE Act. Although it was included in S. 2611, the comprehensive 
immigration reform bill which passed the Senate last May, one glaring 
defect of the current Senate proposal is that it does not currently 
contain such HRIFA Improvement legislation, a defect which should be 
remedied.
    \2\ See ``If only they had a golden arm,'' Carl Hiaasen, Miami 
Herald, April 8, 2007; editorial, ``Haitians in America Meet 
Requirements for TPS,'' South Florida Sun-Sentinel, August 25, 2006; 
editorial, ``Straight to the Point: TPS for Haitians,'' Miami Herald, 
January 25, 2006; ``Haitians deserve protected status,'' Steven David 
Forester, South Florida Sun-Sentinel, September 25, 2006; ``Policy is 
`white foot, black foot','' Carl Hiaasen, Miami Herald, February 5, 
2006; ``Thousands march for Haitian rights,'' Miami Herald, April 23, 
2006; Haitian Protection Act of 2007, H.R. 522; press release and 
letter to President Bush of Rep. Alcee L. Hastings, May 3, 2007, ``The 
continuation of unfair and discriminatory immigration policies toward 
Haitians has not allowed Haiti to obtain the sense of normalcy that its 
Central American counterparts are being given the opportunity to 
achieve.''
---------------------------------------------------------------------------
    The failure to grant Haitians TPS, continuing to deport good people 
who have been here for years, endangers U.S. borders. Haitians in the 
United States remit $1.17 billion annually which supports nearly a 
million adults in Haiti.\3\ When long-resident hard-working people are 
deported to this hemisphere's poorest country, it not only rips them 
away from their U.S.-born children, forcing those children to make the 
wrenching choice between the only parents they have ever known and the 
only country they have evern known--the United States--it also 
instantly cuts off the flow of money which sustains their relatives in 
Haiti, thereby causing the very desperation which a sound Haiti policy 
should seek to prevent and leading many Haitians, all of whom love 
their country, to attempt dangerous, often deadly 700 mile sea voyages 
which so unnecessarily tax U.S. Coast Guard, Border Patrol, detention, 
and judicial resources. To protect our children and our borders, we 
should keep these parents with their children and their remittances 
flowing to their relatives.\4\
---------------------------------------------------------------------------
    \3\ See ``Remittances to Haiti topped $1.65 billion in 2006, says 
IDB fund,'' press release, Inter-American Development Bank, March 5, 
2007. ``About 1.1 million adults in Haiti receive remittances, 
typically 10 times a year, at an average of $150 at a time. About half 
the families that receive money from abroad have incomes of less than 
$500 a year. . . . Most Haitians who receive remittances use the money 
to cover basic expenses. However, many families manage to save a 
portion of their money or invest it in small businesses, home 
improvements or the education of their children.'' Id.
    \4\ See ``Sweat, generosity of emigrants Haiti's lifeline,'' op-ed 
by Ana Menendez, Miami Herald, April 8, 2007. See also the IDB report 
cited in footnote 3 and many of the items cited in footnote 2.
---------------------------------------------------------------------------
    This year the deportations of good people with no criminal record 
have accelerated: Joseme Charles, here since 2000, leaving two 
asthmatic U.S.-born children behind; Alexandre Nicolas, here since 
1994, despite an approved I-130, U.S.-citizen wife, and U.S.-born 
daughter; Marie Thelusma, here since 2000, deported despite U.S.-
citizen husband and son and a scheduled adjustment interview to 
actually become a legal permanent resident.\5\ This isn't right or 
sensible. And it's the tip of the iceberg; most cases we don't even 
hear about. ICE took these parents away from their spouses and children 
in about five minutes during unannounced pre-dawn raids on their 
apartments, leaving no time even for goodbyes.
---------------------------------------------------------------------------
    \5\ See ``She's the face of immigration policy,'' by Ana Menendez, 
Miami Herald (front page), April 11, 2007; ``Immigration chaos tears a 
family apart,'' by Ana Menendez, Miami Herald, March 7, 2007; ``Split 
decision: Deportation redefines families, As more longtime residents 
are deported, many are forced to choose whether to leave their U.S.-
born children behind,'' by Ruth Morris, South Florida Sun-Sentinel, 
February 25, 2007; ``U.S. adding fugitive squads that target immigrants 
who ignore expulsion orders,'' by Ruth Morris, South Florida Sun-
Sentinel, February 26, 2007; ``Increased deportations targeting all 
illegal immigrants,'' by Victor Ramos, Orlando Sentinel, May 14, 2007 
(focusing on Alexandre Nicolas); ``Family apart as immigration debate 
goes on,'' by Ana Menendez, Miami Herald, December 14, 2005; ``A father 
is gone, guilty of being Haitian,'' by Ana Menendez, Miami Herald, 
September 10, 2005.
---------------------------------------------------------------------------
    We need a fair and workable path to legalization but have serious 
misgivings about the Senate proposal, which is many ways is much worse 
than what the Senate passed last year. The historic principle of family 
reunification must remain a core value of our immigration laws. The 
proposal's elimination of four of five family-based categories, and its 
arbitrary slashing of the number of visas available for parents of U.S. 
citizens, is radically inconsistent with American history and 
traditions and undermines the hopes of millions. Whatever happened to 
family values? Skilled or unskilled, all human beings are of equal 
worth and dignity in the sight of God. Have we forgotten what it means 
to be an American? Haitians, like all immigrants, work very hard, two 
and even three jobs, and the child of today's waitress or taxi driver 
may be tomorrow's brain surgeon or president of a major corporation. 
Have we forgotten ``rags to riches'', ``only in America'', and where 
Abe Lincoln came from?
    Many provisions are onerous, unreasonable, unnecessary, or 
unworkable. These include the touch-back requirement; the prohibitively 
high fees and penalties which discriminate against the poor and may bar 
millions for lack of funds from even attempting to legalize, defeating 
the plan's purpose and keeping families living in fear and hiding; and 
the 8 to 15 year wait to become a legal permanent resident. The 
touchback provision serves no purpose except to penalize and endanger 
people, who shouldn't have to pay the added cost nor be forced to go 
back to unsafe conditions. The State Department, for example, has 
issued an advisory warning Americans that it is unsafe to travel to 
Haiti, given the kidnappings and other turmoil. This is true of other 
lands from which refugees have fled.
    The temporary worker program's restrictions against regularing 
one's status devalues the worker and will result in a new undocumented 
population.
    Legalization must include persons with final orders of removal. 
Haitians disproportionately fall into this category, as they usually 
were paroled into the country or came forward soon after arrival in 
compliance with the law. Especially given a well-documented history of 
discrimination in denying Haitian asylum claims, it would be unfair to 
exclude persons with final orders, and devastating to long-established, 
hard-working families with U.S.-born children. If there is no criminal 
record, persons with final orders should not have to seek waivers of 
any kind which, unless a pure formality--in which case they are 
unnecessary--may bar deserving applicants.
    My colleagues will expand on these and other fundamentally flawed 
provisions in the Senate proposal. Permit me to focus on an omission 
which must be remedied if Haitian-American needs are even minimally to 
be met. This is the Senate proposal's omission of a HRIFA Improvement 
provision to fix unintended flaws in the Haitian Refugee Immigration 
Fairness Act of 1998, referred to by its acronym, HRIFA.
    In contrast to the Senate proposal, HRIFA Improvement is included 
in the STRIVE Act as Section 519; was part of S. 2611, the immigration 
bill which passed the Senate last year; and was previously introduced 
in the Senate in 2004 and thrice in the House since 2003 by 
Representative Kendrick Meek.
    The need for this specific corrective legislation to protect 
unquestionably deserving families and children has received extensive 
national media coverage and editorial support from 1999 to the present. 
This includes a top-of-the-front-page New York Times expose; a Ted 
Koppel Nightline half-hour; ABC and NBC national news segments; 
repeated editorial and op-ed support, etc.\6\
---------------------------------------------------------------------------
    \6\ See e.g., three CBS local South Florida reports by Jennifer 
Santiago, 2005-2006; editorial, ``Immigration Issue: A loophole leaves 
Haitians eligible for safe harbor facing deportation,'' South Florida 
Sun-Sentinel, October 16, 2005; editorial, ``Haitian immigrants merit 
fair relief Our opinion: Congress should approve law to end 
mistreatment,'' Miami Herald, October 10, 2005; ``Unintended 
Consequences: After thirteen years in Miami, Omila Foufoune Cesaire 
faces deportation to the Haiti she fled in fear,'' by Tristram Korten, 
Miami New Times, September 15, 2005; ``Dividing Families: Approximately 
3,000 Haitians who have been living, working, and raising families in 
the United States for more than 10 years face deportation because of a 
legislative oversight,'' by Paige Stein, Boca Raton News, July 19, 
2004; editorial, ``A remedy for Haitians Our opinion: Press for 
approval of Rep. Meek's bill,'' Miami Herald, January 13, 2004; ``Flaw 
in immigration law threatens deportation for some Haitian refugees,'' 
by Ken Thomas, Associated Press, San Francisco Chronicle, December 29, 
2003, Naples Daily News, December 30, 2003, and many other papers; 
``Haitian Immigrants in U. S. Face a Wrenching Choice,'' New York Times 
(top of front page), March 29, 2000; lead editorial, ``No room for 
5,000 Elians,'' San Francisco Chronicle, April 3, 2000; NBC Nightly 
News with Tom Brokaw segment, April 6, 2000; ABC Evening News segment, 
July 4, 2000; ABC's Nightline with Ted Koppel (program, ``Equal 
Justice?''), May 25, 2000; ABC's Nightline with Ted Koppel (segment of 
Miami townhall meeting), April 7, 2000; editorial, ``A cruel choice for 
Haitian parents,'' Tampa Tribune, April 10, 2000; op-ed, ``Elian's Case 
Should Shed New Light on Haitians' Plight,'' by Mike Harden, Columbus 
Dispatch, April 12, 2000; ``Haitian parents facing deportation fearful 
for U.S.-born children,'' by Jody Benjamin, South Florida Sun-Sentinel 
(front page, local), April 16, 2000; The Tavis Smiley Show, Black 
Entertainment Television (hour program), April 24, 2000; lead 
editorial, ``Haitian Parents of U.S. Kids Deserve to Remain Here 
Together,'' Miami Herald, May 4, 2000; op-ed, ``Protect 5,000 American 
Children, Don't Deport Parents'', by Steven Forester, Miami Herald, May 
5, 2000; editorial, ``The harassment of Haitian refugees,'' Tampa 
Tribune, August 16, 1999; and see previous footnotes.
---------------------------------------------------------------------------
    HRIFA's sponsor, former Senator Bob Graham, praising one of the 
Miami Herald's many editorials urging such relief, wrote in a letter to 
the paper's editor on May 13, 2000, ``We shouldn't punish Haitians who 
fled tyranny and came here seeking refuge, freedom, and justice. To 
ensure that they have the opportunity to embrace these protections, 
Congress passed HRIFA in 1998. . . . We should do everything possible 
to fulfill our commitment and keep families from being torn apart.'' 
\7\ Senator Graham introduced a HRIFA Improvement bill in 2004.
---------------------------------------------------------------------------
    \7\ HRIFA's intent and purpose was to end ``two decades of 
discrimination against the Haitians,'' 144 Cong. Rec. S 13003 (Nov. 12, 
1998), and to provide a semblance of equal treatment for Haitians 
following the previous year's enactment of the Nicaraguan Adjustment 
and Central American Relief Act (``NACARA'').
---------------------------------------------------------------------------
    Miami-Dade County's mayor and commissioners have urged enactment of 
HRIFA Improvement legislation in repeated delegations to Washington 
since 2003, most recently just three weeks ago.
    Despite the equities and support, those the Senate meant to protect 
by including and passing such a provision in last year's bill are still 
being deported. These include children placed in removal proceedings 
after having aged out of derivative eligibility due to unconscionable, 
years-long government delays in processing their parents' eventually-
successful HRIFA applications, and otherwise-HRIFA-eligible ``airplane 
refugees'' who escaped murderous repression \8\ during the 1991-1994 
coup years in Haiti but who were excluded from HRIFA coverage by a 
technical flaw in the original legislation.\9\ All were paroled into 
the United States by INS in 1995 or earlier and have always been law-
abiding citizens.
---------------------------------------------------------------------------
    \8\ In 1994 President Clinton accurately said, ``They're chopping 
people's faces off, killing and mutilating innocent civilians, people 
not even directly involved in politics.'' He referred to them in his 
September 1994 television address justifying U.S. intervention. 
Secretary of State Christopher on July 10, 1994 said Haiti's military 
was raping the wives of Aristide supporters, and respected human rights 
groups documented the regime's use of rape as an instrument of 
political terror. Assistant Secretary of State John Shattuck wrote:

      Beginning last summer, politically motivated killings in 
---------------------------------------------------------------------------
      Port-au-Prince rose sharply, . . .

      Human rights abuses have qualitatively and quantitatively 
      worsened in recent months. Soldiers and armed thugs stage 
      almost nightly raids on neighborhoods where many Aristide 
      supporters, live, raping the wives and children of 
      political activists and critics of the regime, abducting 
      young people, and disfiguring victims' faces.

      Raids have been conducted on clergy, fires set in private 
      homes, and the bodies of men shot with their hands tied 
      behind their backs are appearing on the streets of Port-au-
      Prince, part of a new practice designed to terrorize the 
      people.

      A delegation from the IACHR [Inter-American Commission on 
      Human Rights] has identified 133 cases of extrajudicial 
      killings between February and May alone, and attributed 
      full responsibility for those and other atrocities to the 
      de facto authorities, i.e. the military and their 
      supporters. The US government fully shares this conclusion.

      Haiti today presents a picture of brutality and 
      lawlessness--in the unaccountability of the regime and its 
      wide scale violations of human rights. . . .

``Human rights abuses in Haiti worsen,'' op-ed, Miami Herald, July 14, 
1994. See also contemporary human rights and media reports, e.g. ``How 
U.S. error sent Haitian to his death,'' by Susan Benesch, Miami Herald, 
April 18, 1994.
---------------------------------------------------------------------------
    \9\ See footnote 6 and former Senator Bob Graham's letter above.
---------------------------------------------------------------------------
    The merits of the case were thoroughly reviewed in the July 15, 
2003 Senate Foreign Relations Committee testimony of Steven David 
Forester, my organization's Senior Policy Director, and I respectfully 
ask permission for his testimony to be included in the record at this 
time.
    These deportations of long-resident deserving refugees devastate 
their lives and those of their spouses and U.S.-born children, and 
endanger our borders by drying up the remittances which sustain their 
relatives in Haiti.
    As a community spokesperson who is privileged to serve not only as 
Executive Director of Haitian Women of Miami but as President of the 
Florida Immigrant Coalition and Vice-Chair of the Haitian-American 
Grassroots Coalition, we cannot support legislation which does not 
contain a HRIFA Improvement provision.
    Separately, there are also a small number, at most a few hundred, 
HIV-positive Haitians who were paroled into the United States from 
Guantanamo Bay, Cuba before 1996 who also need protection. So many of 
them now lead healthy and productive lives through life-giving 
treatment available in the United Status, but not in Haiti. Unless they 
are covered, their deportation will amount to a death sentence.
    In sum, permit me to express my thanks for the honor of addressing 
this august subcommittee. We share the prayer that Congress shall enact 
comprehensive immigration reform legislation which will provide a fair 
and workable path to legalization for all immigrants, without the 
Senate proposal's unwise jettisoning of family reunification values in 
favor of an untested and discriminatory theory and its prohibitively 
and unnecessarily costly, delayed, and onerous legalization provisions. 
Those aspects of the Senate proposal would embody a radical departure 
from humane American principles and may hurt or exclude millions of 
immigrants and their families, many of whom live in the Haitian-
American community I represent here today.
    Thank you very much.

    Ms. Lofgren. Thank you very much.
    I am going to leap to Ms. Murguia, because she does have to 
leave. And then Cecilia Munoz will fill in for the questions.
    Ms. Murguia?

TESTIMONY OF JANET MURGUIA, PRESIDENT AND CEO, NATIONAL COUNCIL 
                           OF LA RAZA

    Ms. Murguia. Thank you, Madam Chairwoman, and thanks to all 
of you.
    I commend you, the Chair, the full Committee on the 
Judiciary in here, John Conyers, and, of course, Congressman 
Luis Gutierrez. You have all demonstrated incredible leadership 
and commitment and dedication.
    I do appreciate the opportunity to be here today, and note 
that any of our sister organizations in the Latino community 
could have been here speaking for all of us. We work very 
closely together, and are very much in agreement on our views 
about the need for a debate on comprehensive immigration 
reform, to result in the best possible legislation for our 
community and the country.
    I have some brief points to emphasize, but request that my 
full statement be included in the record.
    I would like to begin by making it as clear as possible 
that for Hispanic Americans it is critically important that 
this debate produce a result that will serve our nation's best 
interests and our community's concerns.
    Latinos have a lot of urgency around this debate, as you 
saw during last year's marches, as well as during the 
elections. All over the country, as tension builds around this 
issue, local governments are passing ordinances and laws aimed 
at dealing with immigration.
    These laws have two things in common. They do absolutely 
nothing to control immigration and they harm many people, 
including those of us who are not immigrants at all.
    In Georgia, local police have set up road blocks for the 
purpose of singling out anyone who looks like an immigrant. In 
dozens of communities across the country, landlords are being 
asked to do the same.
    Madam Chair, I am guessing that you do not carry documents 
in your wallet that would satisfy the Georgia police that you 
belong here. As a native-born American, neither do I. But one 
of us is more likely than the other to be challenged to prove 
that we belong in our own country.
    This is the result of the heated debate on this issue, and 
explains why, for us, immigration policy is a civil rights 
issue.
    You will find in my testimony a full explanation of the 
policy proposals that NCLR believes would be best to bring 
order and fairness to our system.
    I will highlight a few and raise a few concerns about the 
way the debate is moving forward in the Senate.
    First, it is essential that immigration reform provide a 
path to citizenship for 12 million undocumented immigrants 
living and working in the U.S. While there are a number of very 
loud voices raising concerns and mischaracterizing this 
proposal by calling it amnesty, it is by now well established 
that the majority of the public does support a path to 
citizenship that immigrants have to earn through working hard, 
paying taxes, learning English, and playing by the rules.
    NCLR's particular concern is that such a program be 
workable. If we implement a legalization program whose 
requirements are so burdensome that immigrants cannot or will 
not apply, the immigration reform effort will have failed.
    We believe that the Senate is poised to make a good start, 
though we have a significant concern about some of the details, 
which may undercut the workability of the program.
    Our second major concern has to do with the temporary 
worker program, which is being proposed in the Senate.
    The White House has framed the debate by insisting that 
temporary must mean temporary.
    The program they propose does not provide a meaningful path 
to citizenship for temporary workers. This will result in the 
creation of a permanent second class work force.
    This is an enormous departure from who we are as a nation 
of immigrants. Historically, what America does well is invite 
newcomers to put down roots and become Americans. By saying 
that this group of workers, and saying to them, we want your 
labor, but we do not want you to stay, we will be creating a 
program which is doomed to fail, because many of these 
immigrants will stay.
    We should not pass a policy that we know will result in the 
next undocumented population. If we do this, the U.S. will have 
abandoned the successful American model of assimilation with 
the failed model that has created so much unrest in Europe.
    This would be a profound mistake, and I urge you to do it 
differently when the House takes up this issue.
    Finally, we are deeply concerned that the Senate bill 
dismantles the family-and employment-based preference system in 
favor of a radical change, an untested point system which would 
open our legal immigration system up to anyone in the world who 
might desire to come here, regardless of their connection to 
the United States.
    We are particularly offended by the argument that the 
family categories being eliminated are for extended families. I 
do not believe that most Americans believe that their children 
become extended family when they turn 21, nor do they see their 
parents or their siblings as extended family.
    These categories are being eliminated in the name of our 
nation's purported economic need. And in spite of the evidence, 
most immigrants who are performing successfully in our economy 
came through the family preference system. So, we must preserve 
family as a core principle.
    In conclusion, Madam Chairwoman, we are working diligently 
to move the Senate debate in a more positive direction. We hope 
that this Subcommittee will have a transparent and thoughtful 
process.
    We do believe that the STRIVE Act proposed by Congressman 
Gutierrez and Representative Flake is a right starting point in 
this debate, and we urge you to move it forward expeditiously.
    We understand the Senate compromise is a political one, and 
we recognize the urgency of moving this process forward. The 
current system is broken and must be fixed. But political 
compromises often produce mistakes that we all pay for. We urge 
you to take a different road and produce the best possible 
legislation to serve our country's needs.
    Thank you.
    [The prepared statement of Ms. Murguia follows:]
                  Prepared Statement of Janet Murguia

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Lofgren. Thank you very much, and we will see Ms. Munoz 
pinch hit for you.
    And we will go back to Ms. Iyer. Thank you.

         TESTIMONY OF DEEPA IYER, EXECUTIVE DIRECTOR, 
            SOUTH ASIAN AMERICAN LEADERS OF TOMORROW

    Ms. Iyer. Madam Chairwoman and Members of the Subcommittee, 
I appreciate the opportunity to present to you information and 
views of the impact of immigration reform on the lives of 
current and future South Asian immigrants in the United States.
    And I commend you and your extremely helpful staff for 
conducting these hearings with stakeholders.
    As an immigrant myself, who moved from India to the state 
of Kentucky at the age of 12 with my family, I am a direct 
beneficiary of the family-based and employment-based system in 
its good and bad aspects.
    I am here representing SAALT, which is a national non-
profit organization in the D.C. metropolitan area. Our national 
advocacy work is informed by over 20 South Asian community-
based organizations, whom I am honored to represent here.
    First, a little bit about the South Asian community. Over 
2.5 million strong, our community is extremely diverse along 
the lines of national origin, religion, immigration, and 
economic status.
    South Asians trace our ancestries to the regions in the 
Asian subcontinent, which includes Bangladesh, India, Pakistan, 
Sri Lanka, and Nepal. Between 1990 and 2000, South Asians were 
the fastest-growing segment within the entire Asian American 
community.
    While the common perception is that all South Asians are 
well off, this is obviously not the case. Linguistic barriers 
and increasing rates of poverty are on the rise, and nearly 75 
percent of the South Asian population is foreign born.
    Historically, South Asians have faced obstacles to 
migration and naturalization due to national origin quotas. 
Immigration laws after 1965 relaxed these restrictions and gave 
rise to greater opportunities for family-based and employment-
based immigration.
    After 1990, even more diverse populations arrived, 
including specialty occupation workers, working class families, 
and asylum seekers.
    More recently, South Asians have been impacted by policies 
that criminalize immigrants, especially those that conflate 
national security with immigration in the wake of September 
11th.
    Policies such as arbitrary detention, special registration 
and others, target individuals based on national origin and 
religious affiliation, and have especially South Asians of the 
Muslim faith.
    As a community, we have been and continue to be both 
positively and negatively impacted by immigration laws. I would 
like to provide some examples, but refer you to my fuller 
written testimony.
    First, the backlog. The family-based system is the 
cornerstone of South Asian immigration into the U.S. In 2005, 
over 30,000 South Asians were sponsored and admitted as 
immediate relatives. Yet South Asians wait extraordinarily long 
periods of time due to the backlog, in order to be reunited 
with family members--11 years for siblings of U.S. citizens, 
nearly 5 for children of green card holders in the U.S.
    This is the case for Sumathi, a young software engineer in 
Boston, who moved to the U.S. in 1999 and became a legal 
permanent resident. She married her physician husband in India 
in 2002, and applied to bring him over. But it is unlikely that 
his application will be processed for at least 5 years.
    Cases like Sumathi's are just one of many, which is why we 
have grave concerns with provisions in the Senate bill that 
would eliminate family preference categories and set arbitrary 
cutoff dates for clearing the backlog that currently exists.
    Turning from family-based to employment-based immigration, 
in this context, both low-skilled and skilled workers of South 
Asian descent face challenges. In fact, many unskilled South 
Asian workers--janitors, cab drivers and domestic workers, who 
are part of America's immigrant backbone--struggle with worker 
exploitation and have little chance for employment-based 
sponsorship opportunities.
    An example of such a predicament is one that we are 
monitoring in the Gulf Coast, where a company brought 300 South 
Asian nationals on temporary H-2B work visas to work as 
welders.
    After paying as much as $20,000 to receive their visas, the 
workers were promised refunds and paths to permanent residency 
status. However, once they arrived, all of these options 
disappeared.
    Without a temporary worker program that includes worker 
protections and paths to citizenship, safeguards that are 
missing for the most part in the Senate proposal, workers such 
as the ones in the Gulf Coast will continue to have few 
choices.
    In addition, skilled workers, especially those who are here 
on temporary H-1B visas, face unique sets of challenges, as 
well. In 2005, over 100,000 individuals from South Asia entered 
America on H-1B visas.
    H-1B workers have concerns with the caps that are placed on 
these visas. In 2007, the cap was reached in just 1 day, and 
for long delays with green cards. In fact, one in five South 
Asians on employment-based visas is waiting to obtain a green 
card.
    While these concerns must be considered, we send a note of 
caution about proposals that would favor employment-based 
criteria, such as jobs and education, to the detriment of poor, 
working class people or those with family ties.
    And third, legalization of undocumented immigrants is also 
of concern to our community. Indians constituted the fourth-
largest and fastest-growing undocumented population in America 
in 2005, jumping from 120,000 to 280,000, an increase of 133 
percent in the 5 years prior.
    The quest for legal immigration status in the U.S. becomes 
all the more urgent for undocumented students, as well as for 
South Asian survivors of domestic violence who are undocumented 
or on dependent visas.
    Finally, I would like to mention that many South Asians are 
also experiencing unexplained security-related delays with 
background checks in their green card and naturalization 
applications. And again, we are seeing this trend especially 
affect individuals who are Muslim.
    It is clear, then, that South Asians have a stake in 
immigration reform. As you continue to discuss the House's 
version of an immigration reform bill, we hope that you will 
keep many of these concerns we have raised, especially with the 
Senate bill, in mind as we work toward fair and humane reform.
    Thank you.
    [The prepared statement of Ms. Iyer follows:]

                    Prepared Statement of Deepa Iyer

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Lofgren. Thank you.
    Ms. Narasaki?

    TESTIMONY OF KAREN K. NARASAKI, PRESIDENT AND EXECUTIVE 
         DIRECTOR, ASIAN AMERICAN JUSTICE CENTER (AAJC)

    Ms. Narasaki. Thank you, Chairwoman. We appreciate the 
opportunity to testify on behalf of the Asian American Justice 
Center. We work to advance the human and civil rights of Asian 
Americans.
    May, as you know, is Asian American and Pacific Islanders 
Heritage Month. And this year is the 125th anniversary of the 
Chinese Exclusion Act, which prohibited the immigration of 
Chinese laborers to the United States and led to a long string 
of legislation discriminating against immigrants from Asia 
until the passage of the 1965 Immigration Act, along with other 
civil rights acts.
    We hope that this year will be the year that America enacts 
comprehensive immigration reform that is workable, effective, 
fair, and humane.
    According to the Census Bureau, there are almost 14 million 
Asian Americans living in the United States. Over 60 percent 
are immigrants, half who have already becomes citizens. Some 
have come as refugees or asylum seekers, others through the H-
1B and other employment programs. Some are undocumented, but a 
majority have come through the family visa system.
    Immigrants coming to join Asian American families face some 
of the worst immigration backlogs, as you heard.
    A U.S. citizen petitioning for an unmarried adult son or 
daughter from China must wait approximately 6 years. A U.S. 
citizen petitioning for a brother or sister from the 
Philippines, the wait is 22 years.
    In the employment-based system, highly educated and skilled 
immigrants from China, India and the Philippines wait 4 to 6 
years before they can become legal permanent residents.
    The backlog of the family visas and the insufficient number 
of employment-based visas, both for high-and low-skilled 
workers, are two of the major reasons for undocumented 
immigration. The Department of Homeland Security estimates that 
1 in 10 Asian Americans have no access to legal immigration 
status.
    For these reasons, we have long been an advocate for 
comprehensive reform. We believe the system should include 
tough but fair enforcement measures, a workable system of 
earned legalization and a realistic number and system of 
permanent visas that reflect reality in terms of the needs of 
our economy and of our families.
    We are looking for sufficient visas to facilitate timely 
and full reunification of families, particularly parents, adult 
children and siblings. And we believe that spouses and minor 
children of legal permanent residents should be moved up into 
the immediate preference category, to deal with the long 
separations that they currently face.
    We believe that you need to expedite the entire family 
immigration backlog before undocumented immigrants begin 
receiving their legal permanent residency status. It is only 
fair that they get in the back of the line of people who have 
decided to play by the rules.
    We believe that there needs to be a legal status and a path 
to permanent residence for undocumented immigrants and their 
families. And we are looking to create legal ways for people 
who want to contribute to our economy and come to work in the 
U.S. fully protected by our laws with a path to citizenship.
    Finally, we are seeking to restore due process to the 
immigration system that allows for meaningful judicial review 
of individual cases, as well as challenges to immigration 
policies.
    The White House has argued that family categories should be 
cut in favor of a point system that gives very little weight to 
the value and reality of family ties.
    Mr. Ting, I know, will speak in favor of this, but we 
believe you can meet both the economic needs in having a point 
system without destroying families. You can keep the family 
system while still creating something that works to help foster 
more employment-based visas.
    We think that, if you ignore the reality of strong family 
ties, it will mean a failure to address one of the big reasons 
for illegal immigration, and that is the enormous pull of 
family.
    There is a false choice based on the belief that we need to 
severely restrict immigration levels. It ignores the fact that 
the retiring baby boomer generation and the expanding economy 
means that we can increase immigration, not cut it.
    Indeed, some argue that family-based immigration system 
causes chain migration. It sounds ominous, but the reality is 
to the contrary.
    The requirement of affidavits of support already works to 
limit broad sponsorship. This requirement also results in a 
powerful incentive for sponsors to help ensure that the family 
members they bring in will contribute to the family's overall 
economic wellbeing.
    Moreover, as you know, siblings, as well as parents and 
their adult children, provide an important safety net for each 
other.
    Finally, we believe that separation of families impedes the 
actual process of integration, which is so important to our 
national interest. It forces many immigrant workers to send 
money overseas rather than being able to invest it all in the 
local communities to buy homes and build businesses, and it 
means that they have to delay fully putting down roots into 
their new communities.
    We strongly believe that Congress can find workable, fair 
and humane solutions. We believe that the STRIVE Act is a good 
framework for comprehensive reform, and we look forward to 
working with you in the days ahead.
    [The prepared statement of Ms. Narasaki follows:]
                Prepared Statement of Karen K. Narasaki
Madame Chairwoman and Members of the Subcommittee:
    Thank you for the opportunity to submit the following testimony on 
behalf of the Asian American Justice Center (formerly the National 
Asian Pacific American Legal Consortium). The Asian American Justice 
Center (AAJC) works to advance the human and civil rights of Asian 
Americans through advocacy, public policy, public education, and 
litigation. AAJC is one of the nation's leading experts on issues of 
importance to the Asian American community including: affirmative 
action, anti-Asian violence prevention/race relations, census, 
immigrant rights, immigration, language access, and voting rights. AAJC 
is affiliated with the Asian American Institute of Chicago, Asian 
Pacific American Legal Center of Southern California in Los Angeles and 
the Asian Law Caucus in San Francisco.
    Because over 60 percent of the Asian American community is foreign 
born, immigration and immigrant rights are a priority for AAJC. The 
goal of AAJC's immigration and immigrant rights program is to pursue 
fair, humane and nondiscriminatory immigration policies. We educate the 
general public and the Asian American community through use of ethnic 
and mainstream media, conferences and briefings; inform policy makers 
as to the impact of various restrictive and discriminatory proposals; 
provide the community with information on a wide range of immigration 
issues; monitor implementation of immigration laws by the Department of 
Homeland Security and other agencies; advocate for tough enforcement of 
anti-discrimination laws; and develop and disseminate education 
materials about various aspects of immigration laws of most relevance 
to the Asian American community. Furthermore, AAJC seeks to ensure 
Asian American communities have a strong voice in the national debate 
over how to reform our broken immigration system.
                              introduction
    Family reunification is a fundamental cornerstone of our nation's 
legal immigration system. The current push to pass a comprehensive 
immigration reform bill must not abandon this foundation, but rather 
improve the ability of American families to contribute to our American 
economy. The ability to reunite with family members is important to 
attracting and retaining the most talented and hardest working 
immigrants the world has to offer.
    According to the 2005 American Community Survey by the U.S. Census 
Bureau, 61 percent (over 8.5 million) of all Asians living in the U.S. 
are immigrants.\1\ Of the foreign-born Asian Americans, about 53 
percent (over 4.5 million) immigrated to the U.S. within the last 15 
years. The break-down of native-born and foreign-born U.S. citizens and 
non-citizens in the Asian American community are as follows:
---------------------------------------------------------------------------
    \1\ http://factfinder.census.gov/home/saff/main.html?_lang=en

---------------------------------------------------------------------------
        <bullet>  38.5 percent are native-born U.S. citizens.

        <bullet>  34.2 percent are foreign-born but naturalized U.S. 
        citizens.

        <bullet>  27.3 percent are foreign-born and not U.S. citizens.

    Although many foreign-born Asian Americans arrive in the United 
States through the employment-based immigration system or as refugees 
and asylees, the majority of Asians immigrating to the U.S. do so 
through the family-based immigration system. In 2005, 56 percent of 
immigrants from Asia came to the U.S. through family immigration. 
However, Asian countries suffer from some of the worst immigration 
backlogs in the world.\2\ In the family immigration system, a U.S. 
citizen parent petitioning for an unmarried adult son or daughter from 
China must wait approximately 6 years before s/he can immigrate to the 
U.S. A U.S. citizen petitioning for a brother or sister from India must 
wait approximately 11 years before s/he can immigrate to the U.S. If 
the brother or sister is from the Philippines, the wait is 
approximately 23 years.
---------------------------------------------------------------------------
    \2\ http://travel.state.gov/visa/frvi/bulletin/bulletin_1360.html
---------------------------------------------------------------------------
    In the employment-based immigration system, highly educated and 
skilled immigrants from China, India, and the Philippines currently 
face possible waits of 4 to 6 years before they can become lawful 
permanent residents. Finally, unless you have a qualifying U.S. citizen 
or permanent resident family member who can petition for you, or have 
highly specialized skills and/or post-secondary education, it is 
virtually impossible to legally immigrate to the U.S. As a result, the 
population of undocumented immigrants from Asia continues to rise.
    The Department of Homeland Security's Office of Immigration 
Statistics estimates 1.3 million of the 10.5 million total undocumented 
immigrants in the United States in 2005 originated from Asia.\3\ To put 
this number in context, there were 13.9 million Asian Americans living 
in the U.S. in 2005. This would mean that approximately 1 in 10 Asian 
Americans do not have access to legal immigration status.
---------------------------------------------------------------------------
    \3\ http://www.dhs.gov/xlibrary/assets/statistics/publications/
ILL_PE_2005.pdf
---------------------------------------------------------------------------
    In order to solve these problems, Asian Americans need 
comprehensive immigration reform that will:

        <bullet>  Allow the entire family immigration backlog to come 
        through before undocumented immigrants gain legal status;

        <bullet>  Facilitate timely and full reunification of families, 
        including parents, adult children and siblings;

        <bullet>  Provide legal status and a path to permanent 
        residence for undocumented immigrants who work hard, pay taxes, 
        undergo criminal and national security checks, and learn 
        English and civics;

        <bullet>  Create legal ways for people who want to contribute 
        to our economy to come work in the U.S.; and

        <bullet>  Assist more immigrants to learn English and prepare 
        for citizenship.

         the history of asian immigration in the united states
Historical Exclusion
    Exactly 125 years after the United States separated countless 
families and halted innumerable dreams with racially biased immigration 
policy, law makers are again considering anti-family measures as the 
means to reform a broken immigration system. The Chinese Exclusion Act 
of 1882, which prohibited the immigration of Chinese laborers, 
epitomizes the early record on immigration from Asia. In 1907, anti-
Asian sentiment culminated in the Gentleman's Agreement limiting 
Japanese immigration. Asian immigration was further restricted by the 
Immigration Act of 1917 which banned immigration from almost all 
countries in the Asia-pacific region; the Quota Law of 1921 which 
limited the annual immigration of a given nationality to three percent 
of the number of such persons residing in the United States as of 1910; 
and the National Origins Act of 1924, which banned immigration of 
persons who were ineligible for citizenship. A decade later, the 
Tydings-McDuffie Act of 1934 placed a quota of 50 Filipino immigrants 
per year.
    It has been a generation since the Chinese Exclusion Act and its 
progeny were repealed in 1943. Yet after the repeal, discriminatory 
quotas were nevertheless set using formulas giving special preference 
to immigration from Europe. Until 1965, for example, the German annual 
quota was almost 26,000 and the Irish almost 18,000 while the annual 
quota from China was 105, for Japan was 185, the Philippines was 100 
and the Pacific Islands was 100.
    The intensity of the discrimination against immigrants from Asia is 
reflected in the fact that they were ineligible to become naturalized 
citizens for over 160 years. A 1790 law allowed only ``free white 
persons'' to become citizens. Even after the law was changed to include 
African Americans, similar legislation to include Asian Americans was 
rejected. The Supreme Court upheld the laws making Asian immigrants 
ineligible for citizenship. The last of these laws were not repealed 
until 1952.
Previous Reforms
    Congress sought to eliminate most of the racial barriers imbedded 
in the immigration system with the passage of the Immigration and 
Naturalization Act of 1965. Unfortunately the Act did not address the 
effect of earlier biases. In fact, the 20,000 per country limit, 
imposed without any connection to size of originating country or 
demand, resulted in extremely long waiting lists for Asian immigrants.
    The Immigration Act of 1990 also failed to address the tremendous 
backlogs that already existed for countries like Mexico, India, the 
Philippines, South Korea, and China. Instead, the problem was 
exacerbated with the reduction in number of visas available for adult 
sons and daughters of United States citizens. At the time the backlog 
consisted primarily of children of Filipino veterans who were allowed 
to naturalize under the Act because of their service to this country in 
fighting as a part of the United States Armed Forces in World War II. 
Despite this fact, the quota was cut in half and other family 
categories were reduced, causing the backlog to increase by close to 70 
percent.
    As a result, although Asians have constituted over 30 percent of 
the country's immigration for the past two decades, the community still 
makes up only about 4 percent of the United States population. Most 
recent numbers indicate that well over 1.5 million Asian immigrants are 
still waiting in backlogs for entry visas to reunite with their 
families. Almost half of immigrants waiting to join their loved ones in 
the United States are from Asian countries. Thus any additional 
restrictions or reduction in the overall numbers, particularly in the 
family preference categories, will have an inordinate impact on Asian 
American families.
    family reunification as the foundation of our immigration system
    In keeping with American notions of the importance of the family, 
immigration through a family member who is a US citizen or permanent 
resident is the most common way of gaining US residency. Qualifying 
relationships are grouped into two main categories--immediate relatives 
and other close family members. Currently, spouses, unmarried minor 
children, and parents are considered immediate relatives. Other close 
family members of citizens and permanent residents are also allowed to 
immigrate. These include unmarried adult children of citizens, spouses 
and unmarried children of permanent residents, married adult children 
of citizens, and siblings of citizens. Currently, the annual ceiling 
for family-based immigration is 480,000 individuals per year. This 
number is divided into immediate relatives of U.S. citizens as well as 
the four different family preferences listed above. There is also a cap 
on how many people are allowed into the United States from any one 
country. A combination of these visa ceilings as well as the per-
country cap often contributes to long waits for the average immigrant 
family.
Benefits of Family-Based Immigration
    Family reunification has rightly been the cornerstone of United 
States immigration policy. Families are the backbone of our country and 
their unity promotes the stability, health, and productivity of family 
members contributing to the economic and social welfare of the United 
States.
    Employment-based immigrants are not the only ones who are vital to 
the economy. Family-based immigrants tend to come in the prime of their 
working lives. In addition, families pool their resources to start and 
run businesses, purchase homes and send children to college. Many 
immigrant businesses are indeed run by families.
    Family members help to take care of young children so that other 
family members can work. Brothers and sisters support each other's 
dreams, help each other find jobs and provide support and care for each 
other's families. We cannot attract and retain the best and the 
brightest if those coming to share their hard work and talents face 
long term or permanent separation from close family members. Long term 
separation of families generates stress and is distracting to those in 
our work force. It forces many immigrant workers who are separated from 
their families to send money overseas rather than being able to invest 
all of it in their local communities.
    America has always recognized that family members play an important 
role in helping immigrants build communities. Siblings as well as 
parents and their adult children often share the same home in immigrant 
families. Even when they don't, they help teach the newcomers what they 
need to understand about American values and about the job market. They 
provide an important safety net, not just for the immigrants but also 
for the U.S. citizen relatives. They take care of one another in times 
of economic, physical or emotional hardships, thus lessening the need 
for reliance on government services or private charities. In addition, 
having loved ones together in the U.S. increases the ability of 
immigrants to focus on putting down permanent roots in their new 
country.
    Family immigration reflects the strong family values that are at 
the foundation of our nation while also contributing to America's 
social and economic well being. Any proposal that would eliminate 
family categories, prohibit immigrants legalizing their status from 
reuniting with their families, or force immigrant workers to maintain 
lengthy separations from their family violates those values. In 
addition, the entire backlog of immigrants, who have waited in line for 
as many as 22 years to join their families, must get their visas before 
immigrants seeking to gain legal status.
Proposed Reforms
    Although the House of Representatives passed the anti-immigrant 
H.R. 4437 in 2005 and the Senate passed a more comprehensive but deeply 
flawed S. 2611 the following year, neither bill became law. On March 
22, 2007, Congressmen Luis Gutierrez (D-IL) and Jeff Flake (R-AZ) 
introduced the STRIVE (Security Through Regularized Immigration and a 
Vibrant Economy) Act. This comprehensive immigration reform bill 
contains workable solutions in provisions that would eliminate the 
backlog for family-based immigrants in approximately six years.
    Unlike the STRIVE Act, a proposal created by Senator Jon Kyl (R-AZ) 
and supported by the Bush Administration includes plans that would 
severely impair the ability of U.S. citizens to bring their parents 
with an arbitrary and unrealistic cap on the number of available visas. 
The proposal would also eliminate all visas for siblings and adult 
children of U.S. citizens. In addition, this proposal arbitrarily cuts 
off the ability of immigrants already waiting in line.
    The details of this plan continue to change, but they carry on a 
long tradition of attacks on family-based immigration that began soon 
after Asian and Latino immigrants became the major users of the kinship 
system in the 1980s.
    The concept of a so-called ``merit-based'' point system for 
permanent residency has also emerged. Proponents of the proposal look 
to Canada's point system and argue that a similar model will serve 
America's economy more effectively than the existing family-based 
immigration system. The experience in Canada has shown that a point 
system results in a mismatch of skills to fit the needs of the economy.
    In fact, Canadian businesses struggle with their point system, 
because they cannot keep jobs unfilled while visas are being processed. 
The system works best for individuals who are already working legally 
in Canada on a temporary visa. High-skilled immigrants who are admitted 
because of their education and work experience have no guarantee of 
finding a high-skilled job in their field. Low skilled workers do not 
qualify for visas under the system and foreign credentials are often 
not accepted. This forces many high-skilled and experienced immigrants 
to take low-skilled jobs in entirely new fields.
    For some Asian immigrants, especially family members of H1-B visa-
holders, the point system may be beneficial. However, those generally 
left out of the system will include those with poor language skills, 
those without high school diplomas, older persons, those with no work 
experience in high-skilled jobs, and those with work experience in low-
skilled or semi-skilled industries. U.S. citizens with family members 
in countries that do not have strong educational systems, traditions of 
English-language education, and recognized certification systems will 
be unable to reunite their entire families.
False Arguments and False Choices
    Many arguments have been made for changing the current family-based 
immigration system. Some argue that the waiting periods for visas are 
too long and encourage undocumented immigration. While the backlogs are 
truly a problem, the real solution is to raise the number of available 
visas to meet the demand of law-abiding immigrants and their families 
waiting in the United States. Eliminating the family immigration 
categories will only create greater strain on families and leave people 
with no legal means to come to this country.
    Others argue that the family-based immigration system causes 
``chain-migration.'' Some anti-immigrant groups even claim that one 
single immigrant will ultimately bring 373 additional immigrants.\4\ 
That study was replete with faulty assumptions and questionable math. 
The reality is to the contrary. Researchers have found that, on 
average, an immigrant will bring in 1.2 additional immigrants.\5\
---------------------------------------------------------------------------
    \4\ http://numbersusa.com/PDFs/ChainMigrationchart.pdf
    \5\ http://www12.georgetown.edu/sfs/isim/
Event%20Summaries&Speeches/Lowell,%20ProjectionsWorkshop.pdf
---------------------------------------------------------------------------
    One of the limitations on the ability of immigrants to bring in 
family, in addition to the strict quota assigned each category, is that 
our laws require the sponsor of a family member to sign an affidavit of 
support to guarantee they will take care of the family member being 
brought in. Sponsors must also prove they have enough income to cover 
that pledge. This provides a limit on sponsorship and a strong 
incentive for the sponsors to help ensure the family member they are 
bring in will integrate and be self sufficient.
    Opponents of immigration often claim, mistakenly, that each 
immigrant can bring in extended family members, such as cousin, uncles, 
and aunts. Under our immigration system today, visas in very controlled 
numbers are available only for a spouse, minor children, parents, adult 
children, and brothers and sisters. There are no visas for aunts, 
uncles, and cousins.
    Some argue that the family immigration system does not benefit the 
economy, thus should be changed. Proposals which dismantle the family 
immigration system in the name of the U.S. economy do not address the 
actual needs of American businesses. Americans and foreign workers are 
demanding more high-skilled and low-skilled visas, but some policy 
makers choose to distort the issue and offer a point system that will 
leave high-skilled immigrants without jobs in the United States and 
low-skilled workers without opportunities to contribute to our economy.
    Not only are family-based immigrants helpful to the economy, there 
is no need to cut family immigration in order to expand employment 
immigration. In the late 1990s, there was very high immigration to the 
U.S., including more than two million family-based immigrants. The 
economy easily absorbed all of the employment--and family-based 
immigrants--and a record number of undocumented immigrants. During the 
same period, unemployment in the U.S. was at a near-record low.
    The U.S. economy will increasingly need new workers to maintain and 
grow our economy as the baby boomers begin to retire. Immigration--both 
family--and employment-based--will help to provide much needed labor. 
While we do need to reform the employment-based immigration system to 
better fill the needs of our changing demographics and economy, such 
reform need not and should not come at the expense of family 
immigration. Indeed, employment-based and family-based immigration are 
intertwined. Family-based immigration helps to support and supplement 
employment-based immigration.
    One additional false argument being used against the current 
family-based immigration system is that the legalization of 10 to 15 
million undocumented immigrants demands countermeasures to stave off a 
massive flood of relatives entering the United States. As discussed 
above, the current family-based immigration system already has 
effective safeguards against such mass migration. In addition, it is in 
America's interest to make sure that all new legal immigrants have the 
familial support necessary to assimilate into this nation.
    Studies have shown that the long backlogs in the family-based 
immigration system contribute to the rise in undocumented 
immigration.\6\ Allowing the entire backlog to come through in a timely 
fashion would help solve this situation. Not addressing the backlogs or 
arbitrarily invalidating the applications of those who have played by 
the rules and waited in line would only exasperate the situation. In 
addition, eliminating family preference categories or reducing the 
numbers of available visas will force many immigrants to choose between 
family unity and following the law.
---------------------------------------------------------------------------
    \6\ Placing Immigrants at Risk: The Impact of Our Laws and Policies 
on American Families, Catholic Legal Immigration Network, 2000.
---------------------------------------------------------------------------
    Finally, the days of America as the only land of opportunity are 
long gone. Immigrants have many choices when it comes to setting down 
roots and contributing to a new nation. Family values do not stop at 
the Rio Grande, as President George Bush repeatedly states, and they 
help guide individuals around the world in their decisions to immigrate 
to another country.\7\ America has no other choice, but to keep family 
reunification the cornerstone of its immigration policies.
---------------------------------------------------------------------------
    \7\ http://www.whitehouse.gov/news/releases/2007/03/20070313-9.html
---------------------------------------------------------------------------
                               conclusion
    Family-based immigration benefits the U.S. economy, U.S. citizens, 
and U.S. communities. We need to make the family immigration system 
even better to continue the American tradition of allowing family 
reunification to foster the entrepreneurial spirit, build stronger 
communities, and attract the best and brightest the world has to offer.
    AAJC cannot support any policy that does not address the entire 
family immigration backlog in a fair and workable manner or any law 
that significantly cuts the current family immigration categories and 
family-based visa allocations. Furthermore, legislation that prohibits 
immigrants legalizing their status from reuniting with their families 
or force immigrant workers to maintain lengthy separations from their 
family is unacceptable. The family members who are waiting in line now 
and those who will want to be reunited with family in the United States 
in the future must not be placed on the negotiating table.

    Ms. Lofgren. Thank you so much, Ms. Narasaki.
    Mr. O'Dowd?

             TESTIMONY OF NIALL O'DOWD, CHAIRMAN, 
               IRISH LOBBY FOR IMMIGRATION REFORM

    Mr. O'Dowd. Thank you very much.
    Good afternoon, Madam Chairman. My name is Niall O'Dowd. I 
am the founder of the Irish Lobby for Immigration Reform. I am 
founder of Irish America magazine and the Irish Voice 
newspaper, the two largest Irish-American publications.
    On a personal note, I came here from Ireland to San 
Francisco in 1979. I was undocumented for several years before 
becoming legal. Since then, I have built a small business of 21 
employees and live my version of the American Dream. I will 
always be grateful to this country for that.
    The Irish Lobby for Immigration Reform has over 35,000 
members nationwide. It is now the largest Irish group in 
America. It was founded in December of 2005 to address the 
issues of 50,000 Irish undocumented in the United States and 
the future of access of Irish citizens to America.
    Since the 1965 immigration act, Ireland, in common with 
many other old seed countries, has essentially been frozen out 
of immigration to the United States. In 2005, for instance, 
only 2,000 out of 1.1 million green cards went to Irish 
applicants.
    As we have pointed out on the current legislation, the 
forebears of President Ronald Reagan or John F. Kennedy could 
not come to America legally from Ireland now.
    The impact since 1965 has been that many Irish came to the 
United States as tourists and have stayed on, becoming 
undocumented.
    The lack of access to America now threatens the very 
existence of the Irish-born community in the United States. As 
both the Los Angeles Times and New York Times have reported in 
the past year, our neighborhoods are crumbling, our community 
organizations are aging and losing members and our sporting 
organizations are in dire trouble because of lack of members.
    Without legalizing the Irish here and allowing a future 
flow of Irish immigration to America, I believe we are seeing 
the inevitable passing of one of the great emigrant streams in 
American history.
    There will always be Irish who want to immigrate legally to 
America, to build on the extraordinary connections of blood, 
community and family that have been part and parcel of 
America's past, present and, we hope, future.
    As President Bush has stated, ``Throughout our history, 
America has been greatly blessed by the innumerable 
contributions of the Irish.'' Unfortunately, the contribution 
of the Irish-born may be about to end.
    The Irish Lobby for Immigration Reform has the support of 
every major Irish organization in the United States and, we 
believe, a large percentage of the 40 million Americans of 
Irish descent. Our national rally days in Washington have 
attracted over 5,000 supporters from all over the U.S., and 
this issue has the highest priority in our community.
    We are working closely with other immigrant rights groups 
on this issue through our membership in CIRNOW and other 
groups, who are seeking to influence public policy on this 
issue.
    We are very grateful to the legislators of both parties in 
both the House and Senate who have taken on very courageously 
this issue of immigration reform. We understand the complexity 
and the emotional atmosphere of the issue, and we have been 
deeply encouraged by the willingness of so many legislators to 
make a determined effort to resolve it.
    With regards to current legislation before the House and 
Senate, we have some specific statements to make.
    We strongly approve of the provisions that legalize the 
undocumented in the Senate bill, which we believe is a reasoned 
and humane approach bringing these people into the American 
mainstream.
    We particularly note the eligibility cut-off date of 
January of this year and the path to a green card and 
citizenship, which the bill allows. We believe the House bill 
should reflect these provisions.
    We also approve of the merit system for future flows of 
immigrants, which we believe would be advantageous to us and 
would go some way to address the inequities that intending 
Irish immigrants currently face.
    We would like to see a merit system introduced as soon as 
possible, side by side with the family preference system, to 
give our community reasonable access to new immigrants. We hope 
that the House bill will also include this provision.
    As regards the family preferences, we believe the current, 
present system is largely unworkable, because of the lengthy 
processing times, i.e., 14 years for siblings of U.S. citizens.
    On temporary workers, we believe that the notion they 
should return home for a year between 2-year working 
assignations is completely unworkable and will create a new 
class of undocumented residents of the U.S., which is exactly 
the problem the House and Senate are trying to fix. We hope the 
House legislation will deal with this issue in a more humane 
manner.
    Overall, we believe there are very many positive aspects of 
both STRIVE and the Senate bill. As a community, we approve of 
the legalization steps and the merit visa system, but we 
believe much work needs to be done on other outstanding issues.
    Thank you.
    [The prepared statement of Mr. O'Dowd follows:]
                   Prepared Statement of Niall O'Dowd
    Good afternoon. My name is Niall O'Dowd. I am founder of the Irish 
Lobby for Immigration Reform and founder of Irish America Magazine and 
Irish Voice Newspaper the two largest Irish American publications.
    The Irish Lobby for Immigration Reform has over 35,000 members 
nationwide. It is now the largest Irish grouping in America.
    It was founded in December 2005 to address the issues of 50,000 
Irish undocumented in the United States and the future access of Irish 
citizens to America.
    Since the 1965 immigration act, Ireland in common with many other 
old seed countries has essentially been frozen out of immigration to 
the United States. In 2005, for instance, only 2,000 out of 1.1 million 
green cards went to Irish applicants.
    As we have pointed out under current legislation, the forbears of 
President Ronald Reagan or John F. Kennedy could not come to America 
legally.
    The impact since 1965 has been that many Irish come to the United 
States as tourists and stay on, becoming undocumented.
    The lack of access to America now threatens the very existence of 
the Irish-born communities in the United States. As both the Los 
Angeles Times and New York Times has reported in the past year, our 
neighborhoods are crumbling, our community organizations are aging and 
losing members, and our sporting organizations are in dire trouble 
because of lack of members.
    Without legalizing the Irish here and allowing a future flow of 
Irish emigration to America I believe we are seeing the inevitable 
passing of one of the great emigrant streams in American history.
    There will always be Irish who want to emigrate legally to America, 
to build on the extraordinary connections of blood, community and 
family that have been part and parcel of America's past, present and we 
hope future.
    As President Bush has stated ``Throughout our history America has 
been greatly blessed by the innumerable contributions of the Irish.''
    Unfortunately the contribution of Irish-born may be about to end.
    The Irish Lobby for Immigration Reform has the support of every 
major Irish organization in the United States and we believe a large 
percentage of the 40 million Americans of Irish descent. Our national 
rally days in Washington D.C have always attracted over 5,000 
supporters from all over the U.S. This issue has the highest priority 
in our community.
    We are working closely with other immigrant rights groups on this 
issue through our membership of CIRNOW and other groups, which are 
seeking to influence public policy on this issue We are very grateful 
to the legislators of both parties in both the House and Senate who 
have taken on this issue of immigration reform. We understand the 
complexity and the emotional atmosphere of the issue and we have been 
deeply encouraged by the willingness of so many legislators to make a 
determined effort to resolve it.
    With regards to the current legislation before the House and Senate 
we have very specific statements to make.
    We strongly approve of the provisions that legalize the 
undocumented in the Senate bill which we believe is a reasoned and 
humane approach to bringing these people into the American mainstream.
    We particularly note the eligibility cut off date of January of 
this year and the path to a green card and citizenship, which the bill 
allows. We believe the House bill should reflect these provisions We 
also approve of the merit system for future flows of emigrants which we 
believe would be advantageous to us and would go some way to address 
the inequity that intending Irish emigrants currently face. We would 
like to see a merit visa system introduced as soon as possible to give 
our community reasonable access to new immigrants. We hope that the 
House bill would also include this provision As regards the family 
preferences we believe the present system is largely unworkable because 
of the lengthy processing times--i.e., 14 years for siblings of US 
citizens.
    On temporary workers we believe that the notion that they should 
return home for a year between two year working assignations is 
completely unworkable and would create a new class of undocumented 
residents of the US, which is exactly the problem the House, and Senate 
are trying to fix. We hope the House legislation will deal with this 
issue in a more humane manner Overall we believe there are many very 
positive aspects of both Strive and the Senate bill. As a community we 
approve of the legalization steps and the merit visa system. We believe 
much work needs to be done on the other outstanding issues.

    Ms. Lofgren. Thank you, Mr. O'Dowd.
    Now, Mr. Saleh?

 TESTIMONY OF NOEL J. SALEH, PRESIDENT, ARAB COMMUNITY CENTER 
  FOR ECONOMIC AND SOCIAL SERVICES (ACCESS) BOARD OF DIRECTORS

    Mr. Saleh. Madam Chair and Members of the Subcommittee, I 
want to thank you for the opportunity to be present here and 
actually for convening this hearing, because there cannot be 
any issue that is more significant or important right now on 
the American scene than the issue of comprehensive immigration 
reform.
    As a personal aside, I want to thank Chairman Conyers for 
exercising his privilege of introducing me. It was an honor to 
have you introduce me, and I thank you for that.
    But I am here as the President of ACCESS, the Arab 
Community Center for Economic and Social Services. I am not 
here as Noel Saleh. ACCESS is a 37-year-old human and social 
service agency located in the Congressman's district in 
Detroit, in Dearborn, Michigan.
    And we have been around for--we are the largest and the 
longest-standing Arab-American human and social service 
organization nationwide.
    With that standing comes a duty, and that is something that 
we soon recognized, or recently recognized. And that means that 
we have to become much more proactive and involved in 
strengthening our community, the Arab-American community, and 
making certain that that community is integrated in the 
American process.
    One of the items that is very important to us is the issue 
of advocacy, and the core issue that we are advocating on is 
comprehensive immigration reform.
    Now, we have heard substantial testimony about the need for 
comprehensive immigration reform and that the core issue being 
the 12 million undocumented individuals present in the United 
States. That is truly a human crisis that needs to be 
addressed, but it is the manifestation of how broken our 
immigration system is.
    It is not the breaking of the system; it is the 
manifestation of how broken the system is.
    It is a system that fails to reflect the needs of the 
economic society that we are now living in, the change to this 
new economic world order, implementation of treaties such as 
NAFTA, which have devastated the economies in many of our NAFTA 
trading countries in Central and South America, and left these 
persons in need of jobs and left American workers, or American 
employers, asking them to come up.
    And these 10 million to 12 million who came up to take 
advantage of that did that with a wink and a nod of our system. 
They have earned a path to legalization. This is not a gift. 
This is a right. They have contributed substantially to our 
economy and to our society. And for that reason, this is a core 
issue that must be addressed.
    It also reflects the failure of the current family-based 
immigration system. The family-based immigration system is the 
core of our American immigration identity.
    But the system we have now does not address the realistic 
needs of visa availability for family members in order to 
arrive and meaningfully reunite with their families in the 
United States.
    Immigrants are what have made this country what it is. 
Immigrants defined who we are as a nation, and we have been a 
beacon throughout the world, because of how we have fairly 
treated our immigrant population. And to change that now is a 
dangerous, very dangerous trend.
    The immigrant population, documented and legal, are 
continuing to make, as they always have, substantial 
contributions to our society. And as Congressman Conyers knows, 
in his district in southwest Detroit, there is a vibrant 
Mexican-American, Hispanic American community that is growing 
and developing. It is the sole increased population in the city 
of Detroit. And the economic growth that is taking place in 
that community is being done without the benefit of government 
programs and intervention.
    We have had a similar experience in the east side of 
Dearborn, where the Arab-American community took a rundown 
strip and has made it economically viable.
    So that this is the contributions that immigrants are 
making to America, and they must continue to need this. And 
that is why families are a critical portion.
    There is one thing--and I want to say it in 15 seconds 
instead of 10--and that is, comprehensive immigration reform 
must pay attention to our core constitutional values, and that 
includes due process for immigrants here in the United States 
and a meaningful opportunity for those persons who will be 
applying for a path to legalization to be eligible for it.
    Technical violations of malicious programs such as NSEERS, 
the National Security Entry and Exit Registration System--right 
now, there is no waiver for a technical violation. So, if you 
failed to do your NSEERS registration, you would not be 
eligible for legalization.
    Comprehensive immigration reform must include the thousands 
of individuals who are here in deportation/removal proceedings, 
because it would be not meaningful if they were not included. 
And that should also include persons who are here under final 
orders of deportation, but who have no substantial criminal 
background.
    Waivers must be available. We must open up our immigration 
service and laws back to the humane principles that made them 
great in the past.
    Thank you.
    [The prepared statement of Mr. Saleh follows:]
                  Prepared Statement of Noel J. Saleh
    Madam Chair, Members of the Sub-Committee, thank you for convening 
this important hearing and for inviting me to be with you today.
    As a nation born of immigrants, no topic is more important for your 
consideration.
    Comprehensive immigration reform is vital for this nation. An 
effectively reformed immigration system will serve national interests 
by supporting economic growth, social mobility, strong families, labor 
rights, civil rights, political rights, and law and order.
    Clearly, the issue of up to 12 million undocumented persons present 
in the United States has been the focus of much public debate and 
attention. Equally clear is the need to address this issue. In human 
terms this population is the clearest manifestation of a broken system. 
It is reflective of the systems failure to respond to the labor and 
economic demands of our nation. Similarly, it manifests the weakness of 
the current system of backlogs in family-based immigration. Any 
comprehensive immigration package which fails to address this issue in 
a fair and equitable manner; which must include a path to legalization, 
would be a failure.
    I am confident that other agencies and organizations presenting 
before this Committee will address this issue in greater depth and 
detail. I merely want to affirm our belief that this issue must be a 
core component in any legislation. The issue of comprehensive 
immigration reform, however, does not end with a ``path to 
legalization'' combined with enhanced border security and employer 
sanctions. There remains other issues that must be included if we are 
to truly ``fix'' a broken system.
    Immigration reform is particularly crucial to the Arab-American 
community for a multitude of reasons. Above all, our community is 
depending on immigration reform to respect family unification and 
restore due process rights to our immigration system.
    As Americans, we pride ourselves on family values. Our immigration 
system is no different. The United States has a long and rich history 
of putting families first in our immigration system. A comprehensive 
solution to our broken immigration system must maintain this 
longstanding tradition by continuing to place families first and keep 
families together.
    Arab Americans, like all other Americans, have strong family ties 
and values. Our community, like many others, depends on the strength 
and unification of the family. For over 100 years, our families have 
been coming to the United States, integrating into our new society and 
with other immigrant populations serving as the building blocks for 
vibrant and stable communities. This pattern continues with our most 
recent immigrant population.
    Families have also been the backbone and core social unit of our 
Arab-American society. Immigrant families help each other learn 
English, purchase homes, pursue job opportunities, start their own 
businesses, and contribute to their communities.
    Currently, more than one million minor children and spouses of 
Legal Permanent Residents are currently awaiting reunions with their 
parent or spouse. The U.S. prides itself on welcoming newcomers and 
protecting families, but immigration policies are keeping these 
families apart. We must fix our immigration system, by providing 
families an easier path to unification, rather than ripping families 
apart.
    Comprehensive immigration reform also means protecting immigrants' 
due process rights. This includes restoring judicial review and 
discretion, upholding the Supreme Court ruling against the indefinite 
detention of immigrants, and ending unfair, extreme punishments for 
minor offenses.
    Increasingly strict laws enacted since 1996 are tying the hands of 
immigration judges. Today, if an immigrant faces deportation, a judge 
has little or no authority to review the case himself and decide if 
deportation is truly warranted. Judges are powerless. As a result, many 
individuals with highly compelling situations, such as lawful permanent 
residents, and individuals who have U.S. citizens as family members; 
are denied the opportunity to remain in this country.
    Take the story of Mona and Ali (names have been changed to protect 
identity), a couple from Jordan. Mona and Ali came with their son to 
the U.S. over 17 years ago on a tourist visa. Once they were here, 
Mona's brother petitioned for Mona and her family to become legal 
permanent residents.
    Mona and Ali remained in the U.S. They had three more children. All 
four of their children went to public schools and maintained ``A'' 
averages. Mona and Ali were very hard workers and very involved in 
their children's school activities. They were upstanding and productive 
members of their community. They loved America and were working hard to 
live the American dream.
    After the events of September 11, Ali complied with the NSEERS 
Call-In registration. Through this registration, however, he was 
detained on the minor accusation of lying on a car title form. He was 
held in an immigration detention center in New Jersey for two years 
before finally being deported back to Jordan. No judge was able to 
review his situation and rule whether or not this minor crime should 
have been punishable by deportation.
    Mona and Ali's family have been ripped apart. Mona and her children 
are still living here, as the original petition from her brother was 
completed, and she is now a permanent resident. Their life, however, is 
not easy without Ali, who was the family bread winner. Before her 
husband's deportation, Mona was able to stay home to raise their 
children, take care of household duties and attend her children's 
school activities. Now, she is forced to find odd jobs and ask her 
family for financial help just to support her children and give them a 
decent life. Mona and Ali's children are growing up without a father. 
Their youngest daughter often wakes up in the night crying for her Dad.
    Ali's case should have been reviewed by a judge. However, current 
laws do not allow for this due process. This crime did not warrant the 
two years of detention that Ali endured, much less being deported from 
this country. He remains separated from his family as there is no 
ability, no matter how compelling the circumstances, to ``forgive'' his 
``unlawful presence.'' Unfortunately, this story is not unique. 
Community activists from across the nation are hearing similar stories 
of individuals being deported for very minor offenses and having no 
ability to be reunited with their families in the United States.
    We must stop forcing judges to deport U.S. residents without 
considering the circumstances. It does not solve the problem of 
undocumented immigration and it is inconsistent with our core American 
values.
    Judges must be allowed to study the circumstances of each case and 
decide what is best for that situation. Meaningful opportunity to 
receive a ``waiver'' for minor transgressions should be re-instated to 
allow for family unification. When our government denies due process to 
anyone in this country, it threatens the freedom of us all. The 
restoration of judicial and administrative discretion must be included 
in any comprehensive immigration reform bill that is passed in 
Congress.
    We want to make sure that a comprehensive solution to our broken 
immigration system protects families and restores due process. We want 
to be sure that any efforts to restore the rule of law fully 
incorporates the American tradition of respecting and protecting the 
rights of individuals to fair proceedings, government accountability, 
including checks and balances, and due process rights. As a nation we 
are at our best when we live up to the ideals of opportunity for all, 
equal treatment under the law, and basic fairness. It is morally 
unacceptable for a bill to eliminate our respected tradition of family-
based immigration and to erode due process protections. Legal status 
without the right to be with family or to have a fair day in court goes 
against the very basic principles of American consciousness and 
tradition.

    Ms. Lofgren. Thank you so much, Mr. Saleh.
    Ms. Pulido?

TESTIMONY OF ROSANNA PULIDO, ILLINOIS SPOKESPERSON, ``YOU DON'T 
                         SPEAK FOR ME''

    Ms. Pulido. Thank you.
    First of all, I just would like to acknowledge that whoever 
put the sarcastic and mean-spirited comments on my testimony 
and on my seat for me to find it, I found it. Thank you.
    Chairwoman Lofgren and Members of the Subcommittee, thank 
you so much for inviting me here today.
    I am Rosanna Pulido, an active member of You Don't Speak 
For Me. We are American Hispanics speaking out on illegal 
immigration, because, contrary to popular belief, a sizable 
number of Latinos oppose the recent marches and strongly object 
to illegal immigration.
    But our voices have been largely muffled by the protests in 
Chicago and Los Angeles and other cities, by journalists and 
mass media that absolutely refuse to report the story of law-
abiding American Hispanics.
    Members of You Don't Speak For Me, American Hispanics 
against illegal immigration, do not want comprehensive 
immigration reform. But we do want immigration law enforcement.
    Americans have learned that ``comprehensive'' means 
unlimited amnesty, a greater flow of immigrants into the 
country and the displacement of American workers.
    Anybody who can sneak into our country gets to stay in. 
That is not sound immigration policy.
    The bill our Senate is proposing is selling out the 
American worker and the rule of law.
    We have witnessed in the past 18 months, hundreds of 
thousands of Latinos marching across the country in support of 
immigration reform. Many of these marchers are here illegally. 
One of the objectives of these marches is to give the 
impression that all Latinos want illegal aliens to become 
citizens. It is simply not true.
    Jose, a legal Mexican immigrant, approached me and said, 
``You have got to help me. I am here in the United States 
legally. Look. Here are my papers. I cannot get a job. I go to 
the day labor centers on a daily basis, and they ignore me. And 
they give the jobs to illegal aliens. I cannot get work to 
support my family.''
    I am aware that there are many of my fellow Hispanics who 
are suffering, and those who followed the rules and respected 
our laws and came to this country the right way. It is for 
these people that I implore you to give them a chance at 
building their American dream they have patiently waited in 
line for.
    That can be done only by our government enforcing 
immigration laws on the books.
    In Chicago, Illinois, where I live, the city is under siege 
by illegal aliens who drain public services and take jobs away, 
especially from African-Americans and legal immigrants.
    Our city and county officials ignore Federal immigration 
law and want to ignore Congress and make their own laws. They 
are attempting to make Cook County the first sanctuary county 
in the United States.
    We have seen property taxes in Cook County rise 60 to 90 
percent this past year. This rise is directly related to 
bilingual education and other social services for illegal 
aliens.
    What illegal immigration has done is force our senior 
citizens out of their homes. They cannot keep up with the rise 
in property taxes on their fixed income. While these seniors 
look to us to assist them in their retirement years, we are 
letting lawbreakers completely drain our tax base--a tax base 
that should rightfully be going to our seniors and our 
veterans.
    One of those seniors is my 78-year-old father.
    We have recently heard about the injustices at Walter Reed 
Medical Center. Our wounded veterans in Illinois are the lowest 
paid in the nation. Some live like paupers, while illegal 
aliens get free health care and many other social services.
    This abuse of our welfare program is a modern-day atrocity. 
I am baffled, because my government, who I trust to enforce the 
law, no matter what the ethnicity or national origin of a 
person is, has been looking the other way while America is 
destroyed.
    Some measures that need to be considered for comprehensive 
immigration enforcement are putting border security and 
enforcement first. How can we fight a war on terror if our 
borders are not secure?
    Stop incarcerating our Border Patrol agents when they do 
their job, like Ramos and Compean, and support these agents in 
their job to stop illegal border crossings. Pardoning these two 
admirable Mexican-Americans would be a good start.
    While you think that employee program to verify the 
eligibility of workers they hire might be effective, consider 
this. The Illinois House is passing a bill as we speak to 
prohibit employers from using these very tools to verify 
eligibility, Illinois House Bill 1744.
    Finally, we do not want amnesty for illegal aliens. I ask 
you to remember that amnesty does not work. It just creates 
more of the criminal activity we want to prevent.
    We know this from past immigration amnesties, especially 
the one granted in 1986. If that amnesty worked as a solution 
to our immigration problem, why then are we here today?
    The definition of amnesty remains the same: to pardon 
immigration lawbreakers and to reward them with the objective 
of the crime.
    It is not animosity to punish those who break our laws. It 
is simply justice--a justice law-abiding Americans hunger for.
    Thank you.
    [The prepared statement of Ms. Pulido follows:]
                  Prepared Statement of Rosanna Pulido
    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to appear today and to discuss the 
critical importance of Immigration Law Enforcement.
    I am Rosanna Pulido, an active member of You Don't Speak For Me. We 
are American Hispanics speaking out on illegal immigration because, 
contrary to popular belief, a sizable number of Latinos oppose the 
recent protest marches and strongly objects to illegal immigration.
    But our voices have largely been muffled by the protests in Chicago 
, Los Angeles and other cities nationwide and by journalists and the 
mass media that absolutely refuses to report the story of law abiding 
American Hispanics. Instead, the media would rather focus on the 
Latinos who are breaking our laws and paint them as helpless victims.
    Members of You Don't Speak for Me American Hispanics against 
illegal immigration do not want comprehensive immigration reform, but 
we do want immigration law enforcement. Americans have learned that 
``comprehensive'' means unlimited amnesty, a greater flow of immigrants 
into the country and the displacement of American workers.
    Anybody who can sneak into our country gets to stay in. This is not 
sound immigration policy. Our open borders are a surrender of the 
United States to anarchy and the bill that the senate purposes is 
selling out the American public and the rule of law. This proposed 
legislation gives illegal aliens exactly what they want, legal status 
and permission stay in the United States.
    We have witnessed in the past 18 months hundreds of thousands of 
Latinos marching across the country in support of immigration reform. 
Many of these marchers are here illegally. They do not live in the 
shadows, but flagrantly boast about violating our laws in broad 
daylight. One of the objectives of these marches is to give the 
impression that ALL Latinos want illegal aliens to become citizens. It 
simply is not true!
    Let me tell you about a legal Mexican immigrant named Daniel. 
Daniel calls me on a regular basis. Daniel sees the injustice his 
fellow legal immigrants are going through. He tells me when an American 
or legal immigrant comes to look for a job at his place of employment, 
they never get called for an interview, but if an illegal alien comes 
and fills out an application, they will be working with a couple of 
days. He is beside himself and is seeking justice, who will right these 
wrongs?
    And Jose, a legal Mexican immigrant who approached me and said, 
``You have got to help me! I am here in the United States legally. Look 
here are my papers. I cannot get a job. I go to the day labor center on 
a daily basis and they ignore me and they give all the jobs to illegal 
aliens. I can't get work to support my family.''
    I am aware that there are many of my fellow Hispanics like this who 
are suffering, those who followed the rules and respect our laws and 
come to this country the right way. It is for these people and others 
like them that I implore you to give them a chance at building the 
American dream they patiently waited for in line.
    That can be done only by our government enforcing immigration laws 
on the books! In Chicago , Illinois where I live, the city is under 
siege by illegal aliens who speak Spanish, use public services and take 
jobs away from citizens, especially African-Americans, and legal 
immigrants.
    Our city and county officials ignore federal immigration law and 
want to ignore Congress and make their own laws. They are attempting to 
make Cook County the first sanctuary county in the United States. If 
this happens, then Cook County will be a haven for illegal aliens and 
other criminal elements.
    We have seen property taxes rise in Cook County by 60 to 90 percent 
this past year. This rise is directly related to bilingual education, 
free health care and other social services for illegal aliens. What 
illegal immigration has done is force our senior citizens, (yes, those 
folks who built our country and are known as the greatest generation) 
out of their homes. They cannot keep up with the rising property taxes 
on their fixed incomes.
    While these seniors look to us to assist them in their retirement 
years, we are letting law breakers completely drain tax base, a tax 
base that should be rightfully going to our seniors and our veterans. 
One of those seniors is my 78 year old father. He is bewildered by what 
is happening to the city he settled in many years ago.
    We have heard recently about the injustices at the Walter Reed 
Center and the poor treatment of our veterans. Well, our wounded 
veterans in Illinois are the lowest paid in the nation. Some live like 
paupers, while illegal aliens get free health care, education and may 
other social services. This abuse of our welfare programs is a modern 
day atrocity.
    I am baffled because my government, who I trust to enforce the law 
no matter what the ethnicity or national origin of a person is, has 
been looking the other way while America is destroyed.
    Some measures that need to be considered for Comprehensive 
Immigration Enforcement are:
    a. Putting Border Security and Enforcement First. How can we fight 
the War on Terror if our borders are not secure?
    b. Stop incarcerating our Border Patrol when they do their job like 
agents Ramos and Campeon and support these agents in their job to stop 
illegal border crossings! Pardoning these two admirable Mexican 
Americans would be a good start!
    c. While you may think that an Employers program to verify the 
eligibility of the workers they hire might be effective consider this. 
The Illinois House is passing a bill as we speak to prohibit Employers 
from using these tools to verify eligibility! (Illinois House Bill 
#1744)
    We have 14 million under employed Americans? This bill proposed by 
the Senate displaces more American workers! Whose interests are the 
senators looking out for?
    Finally, we do not want amnesty for illegal immigrants. I ask you 
to remember that amnesty does not work. It just creates more of the 
criminal activity we want to prevent. We know this from past 
immigration amnesties, especially the one granted in 1986. If that 
amnesty worked as a solution to our immigration problem, why, then, are 
we here today? The definition of amnesty remains the same: ``to pardon 
immigration lawbreakers and reward them with the objective of their 
crime.'' It is not animosity to punish those who break our laws. It is 
simply justices, a justice law-abiding Americans hunger for.

    Ms. Lofgren. Thank you.
    Mr. Ting?

           TESTIMONY OF JAN TING, PROFESSOR OF LAW, 
            TEMPLE UNIVERSITY BEASLEY SCHOOL OF LAW

    Mr. Ting. Chairman Lofgren, Chairman Conyers, 
Representative Gutierrez, I am honored and grateful for your 
invitation to join today's discussion on comprehensive 
immigration reform.
    My name is Jan Ting. I teach immigration law at Temple 
University in Philadelphia, and I am a former Assistant 
Commissioner of the U.S. Immigration and Naturalization 
Service.
    And, Chairman Conyers, I am also a native of Michigan. I 
was born in Ann Arbor and grew up in Dearborn Heights and went 
to high school in Dearborn.
    I am also proud to be the son of immigrants. And my 
family's immigration story is included in my written testimony.
    While each family's story is unique, all Americans are 
either immigrants or the descendents of ancestors who came here 
from somewhere else, and that includes Native Americans.
    All of us who know our family histories respect and admire 
our immigrant ancestors, because we know the immigrant 
experience is never easy. The immigrant story is always a story 
of hard choices and difficulties overcome by persistence and 
very hard work.
    So, our respect and admiration for immigrants, including 
illegal immigrants, should not be the issue.
    The real issue instead, I submit, is whether our respect 
and admiration for immigrants is so great that we are willing 
to let everyone in the world who wants to come here do so, as 
the Wall Street Journal editorial board and the Cato Institute, 
among others, have suggested we should.
    The alternative to open borders and open immigration is 
limited immigration, limited to only those immigrants we choose 
to admit and unavailable to all other would-be immigrants.
    Now, as a lawyer, I can argue both sides of that question. 
But if we opt against open borders and in favor of limited 
immigration, as we have in our recent history, there are two 
more questions we must answer.
    First, what do we do with those who are excluded under our 
law, but who come anyway? And second, which immigrants do we 
choose to admit, and which do we exclude?
    If the answer to that first question is, if we give them a 
break, find an excuse for them to stay, then what we really 
have is an open border system, which is fine, if that is what 
we wanted in the first place.
    We have heard a lot of discussion today on the semantics of 
amnesty. Why does that seem like such an important question? It 
matters, I suggest, because almost everyone will acknowledge 
the overwhelming majority of the American people want a system 
of limited--not unlimited--immigration, and are opposed to 
amnesty for those who enter the U.S. in violation of our 
immigration laws.
    So, the case for comprehensive immigration reform requires 
somehow distinguishing what is being proposed from amnesty. 
That can be a hard sell.
    The immigrant communities themselves, who have the most at 
stake in this debate, call it amnesty, or `amnistia, and that 
seems correct to me.
    To me, amnesty is anything that rewards a violation of 
immigration law by putting illegal aliens in a better position 
than other would-be immigrants, who have respected our laws by 
remaining outside our borders, waiting for their opportunity to 
immigrate legally.
    The May 17 agreement among U.S. Senate conferees, for 
example, does this by granting illegal aliens, and only illegal 
aliens, immediate probationary legal status of indefinite 
duration as the first step on a pathway to citizenship, both of 
which millions of others outside our borders wish they could 
have, too.
    The plan actually allows the government only 1 day for a 
security check from the time that the aliens apply for 
probationary status to when the government is obliged to give 
them work authorization.
    Those who have violated our laws receive the benefit and 
can live and work in the U.S. openly. Those who have respected 
our laws will not receive the benefit.
    It is false to claim that illegal aliens must go to the 
back of the line for benefits. There may be some delay under 
the May 17 Senate compromise in granting illegal aliens 
permanent residence and citizenship. But the principal benefit 
aliens seek is immediate, legal residence and work 
authorization, which will be awarded immediately under the 
Senate's version of comprehensive immigration reform.
    As in the case of the 1986 amnesty, temporary residents, 
such as students who have properly maintained and renewed their 
immigration status, will not qualify for amnesty benefits, 
while those who violated their status by overstaying and 
illegal entrants will.
    The yellow light is on, so let me jump ahead and say that 
the benchmarks are also not very good. They do not require any 
prior reduction in the number of illegal aliens.
    And finally, as has been mentioned, anyone who has to deal 
with the Federal immigration bureaucracy today understands that 
the bureaucracy is already overwhelmed by its current workload 
with backlogs in everything from visa processing to security 
screening, to naturalization.
    To add millions of applications for amnesty or probationary 
status, as well as the subsequent adjustments to permanent 
resident and then naturalization, is a formula for disaster.
    The May 17 compromise seems to acknowledge that the fees 
and fines to be paid by applicants will be insufficient to 
cover those additional costs.
    And let me just close by saying that the payment of back 
taxes hardly negates a finding of amnesty, since those taxes 
were already due and payable in any event. And similarly, 
requiring payment of a fine does not remove the taint of 
amnesty when that fine is in lieu of normally substantial 
processing fees that are required for legal immigration and 
citizenship.
    I have a lot more to say. It is in my written testimony. 
Thank you.
    [The prepared statement of Mr. Ting follows:]
                   Prepared Statement of Jan Ting \1\
---------------------------------------------------------------------------
    \1\ Professor of Law, Temple University Beasley School of Law, 
Philadelphia. Assistant Commissioner, U.S. Immigration and 
Naturalization Service, 1990-1993. B.A., Oberlin College, 1970; M.A., 
University of Hawaii, 1972; J.D., Harvard University, 1975.
---------------------------------------------------------------------------
    Madame Chairman and Members of the Subcommittee: I am grateful for 
your invitation to speak today to discuss Comprehensive Immigration 
Reform with you and with the other members of the panel.
    I am proud to be the son of immigrants. Both my parents came to the 
United States from China. They were able to enter as temporary students 
when the Chinese Exclusion Law prohibited their entry as immigrants and 
precluded their ever becoming U.S. citizens through naturalization. 
Chinese Exclusion was repealed by Congress in 1943. My father received 
his U.S. citizenship in 1945 in France, after service in the Battle of 
the Bulge and the Battle for Germany, as a result of special 
legislation enacted by Congress awarding citizenship to foreign 
nationals on active duty in the armed forces of the United States.
    My mother was a nurse, and my father spent most of his career as a 
physician in the Veterans Administration. As I was growing up, much of 
my family's social life centered on the small and scattered community 
of Chinese Americans in southeastern Michigan. Despite the repeal of 
Chinese Exclusion, immigration from China and other Asian nations 
remained negligible because the national origins quota system sharply 
limited immigrants from Asia, and in the case of China to 100 
immigrants per year. That quota system was repealed by Congress in 
1965, and most Chinese Americans today trace their ancestry back to 
immigrants who entered the U.S. after 1965.
    That the Chinese American community is composed of immigrants and 
their descendents is not anything special. Indeed all Americans are 
either immigrants or the descendents of ancestors who came here from 
somewhere else. And that includes Native Americans.
    All of us who know our family histories respect and admire our 
immigrant ancestors, because we know that the immigrant experience is 
never easy. The immigrant story is always a story of hard choices and 
difficulties overcome by persistence and very hard work. And knowing 
that, we have to respect all immigrants, including illegal immigrants 
who have their own hard choices and difficulties to overcome. The 
economist Walter Williams used to teach at Temple University where I 
recall him saying that, ``The poor people of the world may be poor, but 
they are not stupid. They are as capable of doing cost-benefit analysis 
to decide what's in their best interest as any of us.''
    So our respect and admiration for immigrants, including illegal 
immigrants, is not at issue, though some would try to poison the debate 
by saying that it is. The real issue instead, I submit, is whether our 
respect and admiration for immigrants is so great that we are willing 
to let everyone in the world who wants to come here do so, as the Wall 
Street Journal editorial board, and the Cato Institute, among others, 
have suggested that we should. The alternative to open borders and open 
immigration is limited immigration, limited to only those immigrants we 
choose to admit, and unavailable to all other would-be immigrants.
    As a lawyer, I can argue both sides of that question. But if we opt 
against open borders and in favor of limited immigration, as we have in 
our recent history, there are two more questions we must answer: 1. 
What do we do with those who are excluded but who come anyway? 2. Which 
immigrants do we choose to admit, and which do we exclude?
    If the answer to the first question is, ``give them a break, give 
them some kind of amnesty so they can stay anyway'', and especially if 
we set a pattern of successive amnesties, then what we really have is 
open immigration, where all who want to come here are in effect allowed 
and encouraged to do so. Which is fine if that's what we want. What do 
we want? And that brings us to ``Comprehensive Immigration Reform''.
     question 1: probationary status and the pathway to citizenship
    Is it or is it not amnesty? Why does that matter so much? It 
matters because, as almost everyone will acknowledge, the overwhelming 
majority of the American people want a system of limited, not 
unlimited, immigration, and are opposed to ``amnesty'' for those who 
enter the U.S. in violation of our immigration laws. So the case for 
``comprehensive immigration reform'' requires somehow distinguishing 
what is being proposed from ``amnesty''. That can be a hard sell.
    To me, amnesty is anything that rewards violation of U.S. 
immigration law by putting illegal aliens who have done so in a better 
position than other would-be immigrants who have respected our laws by 
remaining outside our borders waiting for their opportunity to 
immigrate legally. The May 17 agreement among U.S. Senate conferees, 
for example, does this by granting illegal aliens, and only illegal 
aliens, ``probationary'' legal status as the first step on a pathway to 
citizenship, both of which millions of others outside our borders wish 
they could have, too. Those who violated our laws receive the benefit 
and can live and work in the U.S. openly. Those who foolishly respected 
our laws do not receive the benefit.
    It is false to claim that illegal aliens must ``go to the back of 
the line'' for benefits. There may be some delay under the May 17 
Senate compromise in granting illegal aliens permanent residence and 
citizenship beyond the delay for those qualified legal immigrants now 
waiting in a queue. But the principle benefit aliens seek is immediate 
legal residence and work authorization, which will be awarded under 
``comprehensive immigration reform'' only to unqualified illegal 
aliens, not to qualified immigrants waiting in a queue for their chance 
to enter, or to other would-be immigrants outside the U.S. who have not 
violated our laws. As in the case of the 1986 Amnesty, temporary 
residents such as students who have properly maintained and renewed 
their immigration status will not qualify for amnesty benefits, while 
those who violated their status by overstaying, and illegal entrants, 
will.
    Just as the 1986 Amnesty set off the dramatic increases in illegal 
immigration we have experienced since then, and more than two decades 
of litigation as disqualified aliens challenged their disqualification 
for the amnesty in court, the May 17 amnesty compromise can be expected 
to attract new and even larger waves of illegal immigrants to the U.S., 
and more decades of litigation. Every amnestied alien has relatives, 
friends, neighbors, and acquaintances who also want to live and work in 
the U.S., and who suddenly know someone legal who can help them after 
they enter the U.S. illegally. Those outside the U.S. have new 
incentive to enter the U.S. illegally to await the next U.S. amnesty, 
having seen previous violators of U.S. law rewarded.
    Requiring payment of back taxes due hardly negates a finding of 
amnesty, since those taxes are already due and payable in any event. 
Similarly, requiring payment of a ``fine'' does not remove the taint of 
amnesty when that fine is in lieu of the normally substantial 
processing fees that are required for legal immigration and 
citizenship.
    The alleged benchmarks or triggers in the May 17 amnesty agreement 
do not require any prior reduction in the number of illegal aliens in 
or entering the United States each year, only that additional tax money 
be spent to hire personnel and attempt to improve border and technical 
infrastructure. A more meaningful benchmark or trigger would require 
actual reduction in both the number of illegal aliens in the U.S. and 
those entering the U.S. each year illegally. Without such clear 
evidence that U.S. immigration law is actually being enforced and the 
number of illegal aliens actually reduced by deportation and voluntary 
repatriation, consideration of amnesty is a mistake. Such actual 
reduction need not be to zero, and the warning that ``we can't deport 
all 12 million'' is a straw man and not a valid argument for amnesty.
    Finally, anyone who has had to deal with the federal immigration 
bureaucracy recently understands that the bureaucracy is already 
overwhelmed by its current workload, with backlogs in everything from 
visa processing, to security screening, to naturalization. To add 
millions of applications for amnesty, or ``probationary status'', as 
well as subsequent adjustment to permanent resident, and then 
naturalization, is a formula for disaster. How exactly do illegal 
aliens prove they were in the U.S. prior to January 1, 2007? How does 
the government prove they were not? The May 17 compromise seems to 
acknowledge that the fees and ``fines'' to be paid by applicants will 
be insufficient to cover additional costs, and that substantial new 
appropriations will be required.
              question 2: who should we admit and exclude?
    The U.S. is currently admitting historically high numbers of legal 
immigrants, each year admitting more legal permanent residents with a 
clear path to full citizenship than all the rest of the nations of the 
world combined. The single largest category of immigrant visas has been 
for family-sponsored immigrants. The balance between this category and 
the second largest category of employment-based immigrants has 
increasingly tilted towards family-sponsored immigrants, making our 
legal immigration system increasingly nepotistic. Reasons for this 
include the enormous demand for family-sponsored immigration and the 
difficulty in qualifying for employment-based immigration. The current 
expansiveness of the family immigration categories also accounts for 
its increasing demand through an expanding process of chain migration.
    The backlogs in all the family-sponsored preference categories have 
called into question whether such categories are too broad, and whether 
family immigrant visas should instead be focused primarily on the 
nuclear family, consisting of spouse and minor children of the citizen 
or permanent resident sponsor. The May 17 Senate compromise moves in 
this direction, and I generally support the elimination of preferences 
for adult children and siblings of citizen and resident sponsors, and 
the awarding of points instead for such relationships in the proposed 
merit-based evaluation system. The May 17 Senate compromise places a 
cap on the number of visas for qualifying parents. I would go further 
and abolish the category as such, replacing it with points in the 
merit-based evaluation system as for adult children and siblings.
    Given that we will be admitting only a limited number of those who 
would like to immigrate to the U.S., I find it reasonable to focus 
immigrant visas on reunification of the nuclear family and immigration 
which is most beneficial to the nation as determined by a Canadian-
style merit-based evaluation system. The scandal of spouses and minor 
children of legal permanent residents having to wait for visas while 
adult children and siblings and parents are receiving them has always 
struck me as indefensible. Persons who place a high priority on living 
in close proximity to their extended families, including parents, 
siblings, and adult children, should probably not be thinking about 
leaving their extended family to immigrate elsewhere. The Canadian 
points system has always seemed easier to administer and less 
burdensome than our system of employment preferences and labor 
certifications.
    The proposed transitional acceleration of visa processing for adult 
children and siblings already in the queue strikes me as unnecessary 
and an undesirable increase in the overall level of legal immigration 
which is not merit-based, does not clearly benefit the nation as a 
whole, and may in fact have adverse consequences in increased 
entitlements and lower wages for American workers than they might 
otherwise earn. Current backlogs could fairly be processed as scheduled 
until eliminated and the categories abolished. If amnesty recipients 
are truly required to ``go to the back of the line'' for permanent 
residence, they would consequently have to wait longer, too.
           question 3: what about a temporary worker program?
    The May 17 Senate compromise provides for a huge and complicated 
new temporary worker program with an initial cap of 400,000 new visas 
in the first year. The hope is that low-skill workers would enter this 
program instead of entering illegally, and then voluntarily depart the 
country after two years. I think it's more likely that this program 
will be a new pathway for illegal and permanent immigration into the 
U.S.
    I question whether the government ought to be in the business of 
supplying employers with cheap labor. The alternative might be rising 
wages and a more secure work environment for American workers. Or it 
might be a process of automation, innovation, and creativity if the 
price of labor seems high, as has occurred in the past
    I also think it's un-American to bring indentured workers to the 
U.S. to be worked and then expelled, without allowing them any stake in 
the country. This system of contract labor has been described as a 
Saudi Arabian-style work program since such practice is widespread in 
the Middle East. It's one thing to run such programs for college-
educated highly skilled workers who can change employers and eventually 
qualify for permanent residence. It's quite another thing to bring in 
temporary workers because they are unskilled and unable to change 
employers, and then expel them after two years.
                             in conclusion
    When I worked at the Immigration and Naturalization Service from 
1990 to 1993, the consequences of the 1986 Amnesty, and in particular 
how it would accelerate illegal immigration to the U.S., were not yet 
apparent. I thought of what the INS did as at least partially ``smoke 
and mirrors'' to convey the impression that we were enforcing the law, 
when our actual capability to do so was limited. As the problem of 
illegal immigration has grown, the inadequacy of our immigration 
enforcement has become more apparent.
    The solution to insufficient enforcement of our immigration laws 
is, I believe, not amnesty, but more enforcement. So I support the 
enforcement initiatives in the Senate's May 17 compromise. I also 
support the re-balancing of legal immigration as proposed in the May 17 
compromise between family and merit-based categories. But I oppose the 
temporary worker program which will add to the burdens of enforcement. 
And I oppose the amnesty which, if enacted, will only encourage more 
illegal immigration.
    What immigrant communities most want is not to be discriminated 
against. And so I applaud the proposed elimination of the so-called 
diversity visa lottery contained in the May 17 compromise. In 2004 I 
testified before this subcommittee against the diversity visa lottery 
because of the way it discriminates against would-be immigrants from 
Mexico, China, India, the Philippines and other high-admission states 
who are barred from participation. The proposed demise of the diversity 
visa lottery is welcome.
    But the 7% per-country cap, which makes qualifying immigrants from 
those countries wait in longer queues solely because of nationality, 
remains, only slightly ameliorated in the May 17 compromise up to 10%. 
The effect on certain immigrant communities of eliminating certain 
family-immigration preferences, as proposed in the May 17 compromise, 
can be at least partially offset by eliminating the discrimination 
inherent in the continuation of the per-country cap on legal 
immigration. I urge its complete repeal.

    Ms. Lofgren. Thank you very much.
    We will now move to questions from the panel. I will defer 
to the Chairman of the full Committee, Mr. Conyers, to begin 
his questions.
    Mr. Conyers. Thank you so much.
    This is such a big question. We know we will not finish it 
up in the limited format that we have here. But I invite you to 
stay in touch with us.
    To my former Michigander and friend, let me tell you that I 
find part of your presentation to be a straw-man-type argument. 
If you find anybody in the Congress supporting unlimited 
immigration, I would like you to identify them by name, because 
they are not on the Judiciary Committee, I can assure you.
    What we are trying to do--and this panel forms an 
incredible juxtaposition to the first panel. And I propose to 
reread the testimony of both panels, because there are some 
strange disjunctions and there are some similarities.
    For example, Ms. Bastien, in terms of temporary protective 
status, and the Haitian reform process that has been completely 
eliminated, but is in the STRIVE bill, is something that we 
must compensate for. President Preval was here only last week. 
And we are in the process of developing that, and I would like 
to do it with you.
    But Attorney Selah, your description at the end--it was 
more oral than in your presentation--about the processes that 
are so unfair, which I think you draw on your legal, 
immigration lawyer status, they need so much correcting. It is 
so hard for us to work a balance there.
    And I think I would like to hear you make any 
recommendations to this Subcommittee that will soon be meeting 
with the full Judiciary Committee, and soon we will be meeting 
with Senator Kennedy and their bill. We have a basketful of 
hard questions to resolve, and we want to make sure.
    I do not think anybody I have heard here in the more than a 
dozen hearings that we have had, describe so briefly but 
succinctly the fact that we have a lot of fairness to bring 
into our processes.
    Would you comment on that and anything else that is 
connected with it?
    Mr. Saleh. I would actually be glad to submit at a later 
time, and then in the immediate future a more detailed 
statement on those particular issues.
    But one of the things that we have learned from our 
immigration past and even from the amnesty of 1986, that, 
assuming that there is going to be amnesty or path to 
legalization, whatever we want to call it, then it needs to be 
implemented in a fair fashion.
    And since 1996, there has been an increasing retrenchment 
in our immigration laws, making it extremely more difficult for 
immigrants to remain in the United States, making it much 
easier for immigrants to be in technical violations of their 
status.
    And this has resulted in many an individual being removed 
and permanently barred from coming back, without a criminal 
violation, but just technical violations, or being barred for 
10 years and having no waiver available so that they could come 
back in advance of those 10 years, no matter how compelling the 
human circumstances are of an individual case.
    We have removed discretion from the Immigration Service and 
from the immigration judicial corps, so that there cannot be an 
individual determination on applications, because the law has 
eviscerated the ability of judges to grant waivers.
    And the zero tolerance policy--or the, you know, that the 
ICE, the legacy INS implemented--has resulted in a de facto 
situation where nobody wants to be the last person to sign off 
on a discretionary matter, because that person might be the 
``next.''
    Mr. Conyers. We have worked on a lot of issues, but this 
may be the biggest one that we will have to wrestle with for 
the coming months and the rest of the year. And I look forward 
to your cooperation in that regard.
    Mr. Saleh. It would be my pleasure. Thank you.
    Ms. Lofgren. The gentleman is, by unanimous consent, 
granted another minute so Ms. Iyer can also----
    Ms. Iyer. Thank you. I appreciate that, Madam Chair. I just 
wanted to respond to the question about fairness a little bit, 
as well.
    Especially since September 11, we have noticed how 
immigration has become a national security issue. And much of 
that has taken a toll on Arab-American, Muslim, and South Asian 
immigrants.
    I just wanted to mention a few specific pieces we have been 
noticing. Arbitrary detentions, special registration, lack of 
judicial review, closed hearings, lack of access to counsel--
these are some of the situations that immigrants are facing 
when it comes to detention and deportation proceedings.
    The second trend that we are seeing is how local law 
enforcement is collaborating with immigration authorities to 
enforce immigration laws. And I do not believe that that is off 
the table in either the House or the Senate. And that has led 
to fear. People are afraid of reporting crimes, seeking 
services and benefits that they are entitled to.
    So, I really want to point out those two trends especially.
    Ms. Lofgren. Thank you. The gentleman's time has expired.
    The gentleman from Chicago, Mr. Gutierrez, is recognized 
for 5 minutes.
    Mr. Gutierrez. Thank you, Madam Chair.
    And thank you to all of the witnesses for staying with us. 
It is almost going to be 6 p.m. It is good to see many of you. 
I thank you for all of your comments. I want to simply respond 
to some of you and the comments that you have made.
    Ms. Bastien, I want to tell you that Alcee Hastings and 
Kendrick Meek and Corrine Brown are sponsors of the STRIVE Act, 
and they make it absolutely clear that we need to address the 
issue of people who simply, if they lived another 75 miles to 
the west of Haiti, would arrive here under totally different 
circumstances. And we understand the political nature of our 
immigration decisions that are made here.
    We saw those political decisions being made when, without 
any protest, the Republican Congress, when we introduced the 
bill for Guatemalans and Salvadorians and Nicaraguans, the 
NACARA Act, refused to act and include Haitians, number one, 
and then subsequently gave a blanket amnesty--any Nicaraguan in 
the country that could prove he was here January 1, 1995, you 
are in.
    I was happy for them, I really was, for their families and 
for them. But if you were Guatemalan or Salvadorian, because 
you did not live in maybe Florida--or at least that was the 
conclusion we reached.
    So, politics has always played a role in our immigration 
system. It has always played a role.
    Politics played a role, as we know, when it came to people 
from China and the Chinese and their exclusion during the 
1880's. They were good when we needed someone to build a 
railroad. They were a good work force, and then all of a sudden 
they weren't good any more. And so we just said, no more.
    During World War II, if you were a child of a serviceman 
from England, the Congress said, fine, let us bring those 
orphans to America. We did not have the same policy if you were 
being afflicted by genocide and the Holocaust and you were a 
child of the Jewish family that needed to flee the Holocaust.
    So, our immigration system has always chosen winners and 
losers.
    And I think my point to all of you is that, I know that we 
are going to make sure that we do a fair comprehensive 
immigration bill that is fair to everyone, without politics, 
without fairness, but taking into consideration past 
injustices, past grievances, and taking the political reality 
that we live in into consideration.
    And so, Mr. Ellison is on the STRIVE Bill, but I am going 
to make sure--because we spoke about some of the issues that 
you raised--but I am going to make sure that he receives your 
testimony in full, because I notice that he is not here, so 
that he and I can discuss those issues vis-a-vis the Muslim 
community, because I think it is very, very important that we 
deal with that issue as we move forward.
    Let me just say that, I know that, as a Member of this 
Judiciary Committee and a very proud member of the Hispanic 
Congressional Caucus, I was delighted to go to Speaker Pelosi 
last week, so that we could reiterate our principles--our 
principles. And our principles are very, very clear.
    We want a legalization process that helps all of those earn 
their legalization, and that it be fair and that it be 
obtainable, and regardless of what country you came from.
    We want to make sure that the cornerstone of our 
immigration system, which is families--husbands, wives, 
children, grandparents--has been the cornerstone, continues to 
be the cornerstone of our immigration policy.
    And we want to make sure that we take care of these 
backlogs. In 6 years we could take care of the backlogs. There 
is no reason, as Asians point out, that it should take 23, 24 
years for a brother from the Philippines to come to this 
country. That is just wrong. It denies.
    And lastly, let me just say that there have always been 
those who will come before the American people and say, you are 
paying higher taxes, there is more crime in your neighborhood, 
you have not gotten a good job, because of those darned 
immigrants.
    They said it about the Irish in the 1850's. They said it 
about Italian immigrants at the turn of the century. They were 
wrong about them, and they are wrong about those immigrants 
coming to this country here today.
    And I think this Committee is going to make sure that we 
put our immigration policy into a historical context, so that 
we do not repeat the mistakes of the past.
    Thank you all so much for all of your commitment and your 
hard work.
    Ms. Lofgren. Thank you, Mr. Gutierrez.
    I will turn now to the lady from Texas, Ms. Jackson Lee, 
for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Madam Chairwoman, and 
to the Chair of the full Committee, to all of the witnesses.
    Allow me to just say that I have probably dreamed what you 
have testified, so please forgive me for not being present in 
the room. But I do want to thank you for what you have offered.
    And I will offer a few comments and will try to squeeze my 
questions in, because each of you, the moments that I have been 
able to hear, your comments speak directly to the challenge 
that we have to confront.
    And that is a challenge procedurally to reconcile the 
Senate and ultimately the House, and generate a solution for 
the ages. I frankly believe it would be great to have a living 
document that actually grows with how the nation grows.
    The difficulties of 1996 and 1987 is--the question is, did 
it grow with us as we changed in so many different, wonderful 
ways?
    And to the last two witnesses, Ms. Pulido, if I am 
pronouncing it correctly, and Mr. Ting, my simple statement 
is--and I do not know if we will ever overcome this hurdle--is 
that this is not a giveaway. However we construct this bill, it 
will not be a giveaway.
    And I do want to make the point that those who will come 
under this new legislation will be in a separate line. They 
will not intercede, interact, step in front of, because I know 
how the playground is. You don't want anybody to get in front 
of you on the playground line.
    And I respect those who have been here, but they will not 
get in front of those who have been here. But they will 
painfully have a process that will allow them to be documented.
    May I quickly turn to Ms. Bastien, if I can. We have 
Bastiens in Texas. Am I getting it correctly?
    Ms. Bastien. ``Bastien.''
    Ms. Jackson Lee. Bastien. Thank you. And they have probably 
left off the ``tien,'' because they are Texasized, but they do 
spell it the same way.
    Let me burden you by causing you to speak for members of 
the Caribbean community who have come to these hallways and 
said, they frankly have been left out. And I know that there 
are great efforts to make sure that we include, for example, 
Liberians and the Caribbean.
    Let me just, in a simple sentence, say how important it is 
to make sure that the legislation is comprehensive and relates 
to even segments of the populational communities that may not 
be high focus in terms of being immigrants.
    A lot of the Caribbean individuals have either been here, 
or seemingly they have sort of integrated. A lot of them are 
20-, 30-year persons who still may be subjected to deportation.
    Ms. Bastien. This is a great concern of us, too, advocates 
who have been fighting for years for comprehensive reform to 
address the needs of these immigrants from the Caribbean. Many 
of them, most of the time they are in hiding. They are under 
the radar, because their voices are hardly heard.
    Many of them are victimized and re-victimized over and over 
again. If they are a victim of crime, they are very afraid, 
very much afraid to come forward. They are suffering, but their 
voices are hardly ever heard.
    And whatever comprehensive reform is adopted, I want to 
assure that the Caribbean people, from Jamaica--people who we 
often do not hear from, because usually they are not invited to 
forums like that. And yet, they are in the country, yet they 
are contributing. They are working, paying taxes. They are 
contributing to a system that most of the time when they need 
it, they are not able to access.
    So, I think that whatever reform is presented, we have to 
make sure that these people who are here and also contributing 
and well under the radar and do not have a voice, are heard and 
are included.
    Ms. Jackson Lee. Thank you.
    Can I quickly go to Ms. Iyer and Ms. Narasaki quickly?
    Does the present structured bill undermine the family 
reunification issues that we have addressed over a number of 
years? If you both could answer that.
    And lastly to Mr. Saleh, your issues on 696 and the court 
system are crucial. If you can just comment further on how 
dastardly it has been to have removed the discretion out of 
judges and how important it is to have that?
    I will go with Ms. Iyer and Ms. Narasaki first, please.
    Ms. Narasaki. We are very concerned about the Senate bill 
that is before us. It does not take care of the entire backlog. 
In fact, it has an arbitrary May 2005 cutoff date. And so the 
800,000 people who have applied since May 2005, their 
applications will be simply thrown away.
    That is despite the fact that the legalization date, which 
we think is a good date, is January 1, 2007. And we are 
struggling to understand why those who follow the rules are 
being disadvantaged in that system.
    The second thing is that there is nothing to help the 
spouses and minor children of legal permanent residents, does 
not increase the number of visas available and does not take 
care of their over 1 million-person backlog, which makes the 
wait 7 to 8 years now.
    And finally, it completely eliminates the category of adult 
children and brothers and sisters, giving them--brothers and 
sisters get a paltry four points out of a 100-point system, 
which we think certainly devalues their value to the family.
    Some people have told me that maybe only Asians value their 
brothers and sisters and adult children. And I think that would 
be a fairly sad statement, because they tell me, maybe 
Americans think of families differently.
    I do not believe that. I think most Americans truly care 
about and trust and rely on their brothers and sisters and 
their adult children as they get old, as they need to take care 
of each other.
    Ms. Lofgren. The gentlelady's time has expired. By 
unanimous consent, she will have an additional minute from Ms. 
Iyer and Mr. Saleh, quickly.
    Ms. Jackson Lee. I thank the Chairwoman for her 
graciousness. Thank you.
    Ms. Iyer. Well, very quickly, I do not think I can expand 
on too much more than what Ms. Narasaki mentioned.
    But the one thing that I did want to mention about the 
Senate bill that is of concern is the merit-based point system 
that has been set in place for green cards. It heavily favors 
employment criteria, about 47 out of 100 points, and really 
does not compensate for family ties, how long you have been in 
this country.
    And we are concerned that it is going to create, again, a 
second class of people who, if you are poor or you are working 
class, you are not as well educated, again, you are going to 
find further obstacles and challenges.
    Ms. Lofgren. Mr. Saleh?
    Mr. Saleh. Thank you, Congresswoman.
    Obviously, 1996 is a huge issue that cannot be addressed in 
30 seconds. But basically, what we have seen since 1996 is an 
increasing stripping, not just of the immigration judges, but 
also even the Federal courts, where now Federal courts are 
incapable of intervening under the REAL ID Act.
    The Federal district courts have been stripped of 
jurisdiction to review whether there were any constitutional 
violations in immigration proceedings. That the Federal 
appellate courts are limited in review, strictly on legal 
questions. They can no longer review the decisions of an 
immigration judge based on abuse of discretion.
    And there was no great deference by the Federal--I mean, 
there was great deference, actually, of the Federal courts to 
the immigration and the board of immigration appeals.
    Ms. Lofgren. The gentlelady's time has expired.
    Mr. Saleh. So, these issues were missed and need to be 
revisited and addressed.
    Ms. Jackson Lee. Thank you, Madam Chairwoman. I look 
forward to working with you. Thank you.
    Ms. Lofgren. The gentlelady's time has expired.
    We turn now to Mr. Lungren for his 5 minutes.
    Mr. Lungren. Thank you very much, Madam Chairwoman. I am 
sorry, but I have been watching this in my office on 
television, as I had to attend to some other things.
    I would just like to ask a question to all the panelists. 
And that is, I was involved in the 1986 provision. I was the 
Republican floor manager. I was one of the authors of employer 
sanctions.
    But I also got the votes to manage for the legalization 
program, at least on the Republican side. And I thought that 
that bill was going to be a good, balanced bill. The problem 
is, the legalization worked. We never enforced anything after 
that, and we now have a lot more people here than we had then.
    And I think we have an obligation as Members of Congress to 
ensure that whatever we do does not create the same sort of 
situation, so that 20 years from now we are talking about 24 
million people who are here illegally and changing the rules 
for them.
    So, I think we have to do something with a good number of 
the people who have been here for periods of time. But we used 
to talk about how we would make special provisions for people 
who had gotten roots in the community, because there would be a 
situation of equities.
    And I mentioned this to an unnamed member of the Democratic 
Party on the Committee, and I said, I thought we were talking 
about roots, and I see the bill in the Senate says January 1 of 
this year. He says, well, they are sprouts. [Laughter.]
    I happen to think that is a serious, serious question. So, 
I would ask each one of the panelists. Can you tell me what 
date should be the date that we grant these new provisions, 
which literally give people an ability to stay in this country 
legally under certain circumstances, that they would not 
otherwise have, and why you would pick that date?
    Or should it be they got in yesterday? They have been here 
1 hour, they have been here 1 day, they have been here 1 month, 
they have been here 1 year? And does it make any difference if 
they have been here 5 years versus whether they got here 
yesterday?
    And I wish as many of you could answer as possible.
    Ms. Lofgren. Shall we start with Ms. Bastien and move 
forward?
    Ms. Munoz. They are all pointing at me, so I am afraid I 
will----
    Mr. Lungren. Well, I would really like to hear from all, 
because I have heard the testimony of all, talking about the 
equities. And I heard one of you, Ms. Narasaki, just say that 
that was a good date.
    So, I would like to know what date should it be, and why is 
it a good date?
    Ms. Munoz. I think the most important thing is that the 
legalization program minimize the size of the undocumented 
population as much as possible.
    If we have 1, 2, 3 million people at the end of this 
process, still living in the country without their papers, we 
still have a problem that this law is trying to address.
    Mr. Lungren. What date would it be?
    Ms. Munoz. We support the January 1 date of this year for 
that reason, because we think it is likely to be effective. And 
in many cases we are talking about people who have the 
commitment and the drive to walk across the border and risk 
their lives.
    They may be sprouts, but they have demonstrated some 
commitment to being here.
    Mr. Lungren. Well, so did the people that got here January 
30th.
    Ms. Munoz. That is true. And you do have to pick a date. 
And we do not think that the date should be--you know, we 
should not be picking a date contemporaneous with the debate, 
because we do not want to be encouraging people to come because 
we are having a legislative debate. But you want to maximize 
the extent to which people living here legally participate.
    Mr. Lungren. The Senate bill was introduced last year, was 
passed last year. That obviously was while we were debating it.
    So, that would be after it became clear that at least one 
of the houses thought we ought to have a large legalization 
program.
    Ms. Bastien?
    Ms. Bastien. If I had a choice, I would say that, if the 
provision passes while the immigrant lives in this country, he 
or she should be allow to apply. If I----
    Mr. Lungren. As long as they are already here.
    Ms. Bastien. Exactly. Because no matter when they come 
here, they are contributing, they are working, they are paying 
taxes. They are enriching the lives of people in this country. 
They are our teachers, our farmers, our hospital workers. They 
are us. They are contributing.
    If they are contributing and they are showing that they are 
contributing, they are to prove by any doubt they are 
contributing, I believe that they should be allowed to address 
this. That is my position.
    Mr. Lungren. Thank you----
    Ms. Bastien. But I am willing, I am----
    Mr. Lungren. I wanted your position.
    Ms. Iyer?
    Ms. Iyer. Thank you.
    We also agree that there has to be a date that is picked. 
And I want to echo sort of what Ms. Munoz was saying about 
being a little bit wary about picking a date that is very 
contemporaneous with the debate.
    But the January date that has been put forth is one that we 
feel we could support.
    Mr. Lungren. Ms. Narasaki?
    Ms. Narasaki. Well, I already noted that, for the same 
reason that Ms. Murguia supports the January 1 date.
    I do want to say, one of the reasons why I think that the 
prior 1988 effort did not work is because it did not fully 
address family. In fact, when it came out of the box, it had a 
built-in backlog. That is one of the reasons why the Filipino 
community is so backlogged.
    Mr. Lungren. So, it was not generous enough.
    Ms. Narasaki. Right, for understanding the need to have 
enough visas for family.
    The second thing was the employer verification system. And 
we believe that there has been a lot of effort over this last 
year with business and labor and immigrant advocates to come up 
with a system that is going to work.
    And we think that is going to be key to making sure that we 
do not have the same problem again.
    Ms. Lofgren. The gentleman's time has expired. By unanimous 
consent, he has an additional minute.
    Mr. O'Dowd. In the Irish community, that is actually quite 
an issue, because most of our immigrants who are undocumented 
have been here a number of years.
    So, but there was a lot of discussion about it last year on 
the Senate bill. The general sense was, the later the date the 
better, because you did not want to create a two-tier system of 
Irish immigrants, those who are going to have the amnesty and 
those who were not.
    Mr. Lungren. Okay.
    Mr. Saleh?
    Mr. Saleh. I would echo the positions put forth by other 
members of the panel.
    I am persuaded by the cogency of their argument that the 
more inclusive the provision can be without being an inducement 
for people that start coming over now, helps address the 
problem in a more meaningful fashion. And then the concept of 
control of undocumenteds is a more handleable issue for the 
agencies involved.
    Ms. Pulido. I am a very big fan of Senator Ted Kennedy. And 
I want to quote him from the 1986 amnesty, that after that 
amnesty in 1986 is passed, we will never have to pass another 
amnesty bill. So, I think we need to go back to 1986.
    Mr. Ting. Congressman, whatever date you set, you are going 
to generate litigation for the United States government. Thanks 
to the 1986 act, we have been in court for 21 years, litigating 
the question of who is entitled to that amnesty and who is not.
    So, whatever date you set, there are going to be people 
that come in afterwards who are going to claim the benefit. And 
how does an illegal alien prove the date of entry? And how does 
the government prove the date of entry to prove that they are 
not qualified?
    What it gives rise to is unlimited litigation that goes on 
forever. People say, well, they were intimidated by the 
government. That is why they did not get their application in 
on time. And so, we are in court forever. That is part of the 
problem with amnesty. It leads to this endless litigation.
    Ms. Lofgren. The gentleman's time has expired.
    And I will now not take my full 5 minutes of questions. I 
would like to just note that the Senate bill will be moving on 
its own pace. Clearly, we are watchful of that process, but the 
House is obviously not bound to do whatever the Senate does.
    I would note that one of the interesting issues in the 
Senate bill is that, while there are additional visas for 
backlogs in the family categories that are slated for 
elimination, it does nothing to reduce backlog for those 
categories that are not slated for reduction, so that the 
spouses and minor children of lawful permanent residents, who 
had remained backlogged for a considerable period of time, 
whereas, people, if you use the Senate's rationale, who are 
arguably less compelling, for example, siblings would have an 
immediate visa.
    So, I do not know whether that was an oversight, or 
whether, or what. But it seems inexplicable to me.
    I would just like to have one quick question, because I 
think you have all been very clear. And it has been useful to 
hear your perspectives and to be reminded of the Haitian issue 
that you did so well, the issue relative to South Asians.
    I appreciate that, for a whole variety of Hispanic groups 
arrived at one point of testimony, because obviously, we have 
limits on how many witnesses we can have from the Asian 
perspective, and on and on.
    Mr. Saleh, of course, from--and Ms. Pulido that you came, I 
appreciate, and Mr. Ting.
    Mr. O'Dowd, though, the one question I had in your 
testimony. You mentioned the concern about the Irish not having 
a root at this point to immigrate. And therefore, although you 
support family-based immigration, spoke favorably on the merit-
based proposal.
    In your mind, is that the point system that you are looking 
at?
    Mr. O'Dowd. Yes, I mean, just in terms of what we are 
looking for as a community, is a way that we can legally access 
the United States. We cannot do it on the family reunification.
    Ms. Lofgren. I see. But if I may, one of the interesting 
ramifications on this merit system that has come out--and as 
many people know, I represent Silicon Valley, which is kind of 
ground central for high technology--is that although I think it 
is intended to be supportive of higher educated individuals, it 
actually does not work for the high technology industry, 
because, if you are a Google, I mean, it is Dr. Smith that you 
want. It is not somebody, anybody with a Ph.D. It is a specific 
person with the patent portfolio that you have identified. And 
having an employment base tied with the high skill set, I think 
actually is something we are going to want to take a good look 
at.
    I will just say at this point that I appreciate your 
sticking with us for this long time.
    Although we do not have every Member here, as Mr. Lungren 
has mentioned, this has been televised. And one of the upsides 
of being so long is that no one else is on TV but us. 
[Laughter.]
    And so, everyone is watching you. And we appreciate your 
testimony.
    This is the 12th hearing that we have had. We will have 
just a few more.
    I would like to note that, under the rules, the minority is 
entitled to separate hearings using some procedures. And 
accordingly, at their request, we will have a minority hearing 
tomorrow at 5:30 in room 226----
    Mr. Lungren. That is 5:30 p.m.
    Ms. Lofgren. [continuing]. Yes, 5:30 p.m., because we have 
full Committee. [Laughter.]
    Well, that is sooner than we are today.
    We have full Committee prior to that. And we will also have 
a hearing Thursday morning at 9:00, where we will hear 
perspectives from members of the labor movement.
    I would like also to note that, by unanimous consent, we 
are amending a statement made by Reverend Cortes on page three, 
paragraph six, line four.
    We are admitting to the permanent record the American 
Jewish Committee letter, a letter from evangelical leaders with 
six pages of signatures, a letter from the Congressional Black 
Caucus, a Center for Trade Policy Study, and statements from 
the Muslim community referenced earlier by Mr. Ellison, and a 
statement for the record of the Conveners of the Latino 
Congreso.
    [An insertion entitled ``Muslim Americans: Middle Class and 
Mostly Mainstream,'' by the PewResearchCenter, May 22, 2007, is 
not reprinted in this hearing but is available on the Internet 
at http://pewresearch.org/assets/pdf/muslim-americans.pdf and 
is also on file with the Subcommittee.]
    Ms. Lofgren. And if there is nothing further, we will 
adjourn this hearing with thanks.
    [Whereupon, at 6:31 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I would like to welcome the Immigration Subcommittee Members, our 
witnesses, and members of the public to the Subcommittee's twelfth 
hearing on comprehensive immigration reform.
    Our series of hearings on comprehensive immigration reform began at 
Ellis Island, where we examined the need for comprehensive immigration 
reform to secure our borders, to address economic and demographic 
concerns, and there we reviewed our nation's rich immigrant history. We 
have studied immigration reform from 1986 and 1996 in an effort to 
avoid the mistakes of the past. We've considered the problems with and 
proposed solutions for our current employment and worksite verification 
system. In light of the recent Senate immigration agreement to 
eliminate family priorities in immigration and replace those priorities 
with a completely new and untested point system, we studied the 
contributions of family immigrants to America and various immigration 
point systems used around the world. We have explored the costs of 
immigration on our states and localities. And just last week, we had 
two hearings to explore the importance of immigrant integration and the 
future of undocumented immigrant students in the United States.
    Today we turn our attention to perspectives on comprehensive 
immigration reform from the faith based and immigrant communities.
    Among the most heavily invested groups in the ongoing discussion 
over immigration reform are the faith-based and immigrant advocacy 
organizations that represent the vast majority of individuals who will 
be directly affected by such reform. This hearing is meant to explore 
their positions and viewpoints, especially in light of recent action in 
the Senate yielding an immigration agreement being debated in the 
Senate this week.
    I look forward to hearing the voices of the faithful and the voices 
of community leaders that represent current and future immigrants. 
Thank you for being here with us today to provide your perspectives.

                                <F-dash>

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    Before making any big decision, it is always critical to hear from 
the persons who will be impacted the most.
    We have had a series of hearings in the last few weeks that has 
seen some of the most brilliant academic minds--from history and 
sociology departments, from law schools, and even from a few think 
tanks. We have all learned about immigration at a depth that is 
unprecedented for a Congressional process.
    Last week, we met some of the students who would be impacted by 
what we do here in the House. I think we can all agree, that hearing 
was one of the most moving hearings we have had on the immigration 
issues. These students serve as our conscience, and it is with them in 
our minds that we will work toward a controlled, orderly, and fair 
immigration system.
    Today, we will again hear from the consciences of our communities. 
Leaders from the religious community will discuss how, in their view, 
immigration is a moral issue; how a compassionate immigration system 
flows directly from the teachings of the great religions.
    And, representatives from immigrant communities will discuss how 
they will be impacted by what happens in Congress. We have 
representatives with us from Caribbean, South Asian, Latino, Asian, and 
Arab communities. These communities have brought immeasurable value to 
this Nation. In the Detroit area, the African-American community and 
the Arab-American community are stalwarts of the daily life of 
Southeastern Michigan, and I am glad to see leaders from both 
communities could join us for today's hearing.
    At the end of the day, this process makes us look at some of our 
core values as a country: Do we want to build a Nation that treats 
immigrants compassionately? Do we want to be in a system that values 
their worth? Do we want to lose their talents? Can we afford to? As one 
of the academic witnesses said of the students we met, would we rather 
support them in America, or would we rather compete against a Costa 
Rica, Zaire, or Vietnam to which they had been removed?
    Whether out of humaneness, or out of competitiveness, there are 
many reasons to engage in comprehensive immigration reform.
    The time to act is now.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Today we continue these series of hearings dealing with 
comprehensive immigration reform. This subcommittee previously dealt 
with the shortfalls of the 1986 and 1996 immigration reforms, the 
difficulties employers face with employment verification and ways to 
improve the employment verification system. On Tuesday May 1, 2007 we 
explored the point system that the United Kingdom, Canada, Australia, 
and New Zealand utilize, and on May 3, 2007 the focus of the discussion 
was on the U.S. economy, U.S. workers and immigration reform. Last week 
we took a look at another controversial aspect of the immigration 
debate, family based immigration. Today we continue the vital task of 
eliminating the myths and seeking the truth. Last Wednesday's hearing 
dealt with probably the most crucial aspect underlying the immigration 
debate, an immigrant's ability to integrate, and assimilate into 
American society. Last Thursday we tackled another pressing topic, the 
practical issue of the impact of immigration on States and Localities. 
Last Friday we discussed the issue of the ``Future of Undocumented 
Immigrant Students.''
    One of the things that we the Members of Congress tend to forget is 
that we work for the American people. We do the American people's 
business here on Capital Hill. Any type of legislation that we pass 
here in the halls of Congress will affect the people we represent 
financially, and emotionally. Therefore, we need to listen to the 
American people when we consider comprehensive immigration reform.
    I thank the Chairwoman, my colleague from California Zoe Lofgren 
for these series of insightful hearings starting on Ellis Island. Her 
approach which has been a thoughtful one, and an approach I encourage 
fellow Chairs of various Committees and Subcommittees to follow has 
been to bring in the players, and the stakeholders that would be 
affected by comprehensive immigration reform.
    One theme that I have reiterated is the need to debunk the myths, 
and seek the truth. That is why we brought in the Vice President of the 
Swift Meat Packing Co. to discuss the flaws in the Basic Pilot Program 
and with employment verification in general. This is why we examined 
the impact of illegal immigration on the national economy, on wages, 
and on States and Localities. This is why we took a gut-wrenching look 
last Friday at the plight of undocumented immigrant students. This is 
why members of the tech industry, construction industry, service 
industry, and agricultural industry have all spoken out against a point 
system.
    Perhaps some of our constituents are misguided by the lies and 
misperceptions that permeate this discussion about comprehensive 
immigration reform but we must be the leaders that our constituents 
elected us to be.
    Today we will look at the perspectives of faith based organizations 
and immigrant organizations as they are at the front lines of this 
ordeal. The majority of faith based organizations in our country would 
agree that the Government should provide a path for hardworking 
undocumented individuals to earn permanent residency in this country. 
However, many faith based organizations would take issue with the 
elimination of a family based system, and a system that bars workers 
from a path towards legalization.
    The following faith based organizations have stated the following. 
The U.S. Conference of Catholic Bishops says that ``immigration 
legislation should permit the prompt reunification of families and open 
a path toward the legalization of undocumented workers currently in the 
United States.'' The USCCB also states that they have ``a 
responsibility to be concerned about uniting families and to support an 
immigration reform that respects the dignity of the workers.'' I 
believe that Cardinal Mahoney put it best when he stated that we are 
willing to accept to their cheap labor but, ``we look the other way 
when they are exploited in the workplace, die in the desert or are 
arrested for providing nanny and cleaning services at desirable 
addresses. When convenient politically, we scapegoat the immigrant 
without acknowledging our complicity. Our immigration laws perpetuate 
this reality.''
    The Hispanic Evangelicals (Esperanza USA) has the following to say 
about Comprehensive Immigration Reform. First that it is the 
``Christian responsibility to care for those that live among us 
today.'' Second, ``we should provide comprehensive reform that provides 
a legal and dignified way to be part of our country,'' and finally ``it 
is unchristian to criminalize acts of mercy and compassion.''
    I find it odd that these faith based organizations seem to take a 
different approach towards immigration than some of my colleagues on 
the other side of the aisle, who trumpet themselves as men and women of 
faith, who are in turn guided by principles of faith, who now have seem 
to abandoned those principles because it is not convenient. The 
hypocrisy appalls me.
    My legislation, the Save America Immigration Act maintains a strong 
immigration policy based on family unification, an American value that 
is the bedrock of our nation. Save would establish a Board of Visa 
Appeals for family based visas. Save recognizes that culturally there 
are different definitions of family. My legislation would allow for 
children who are born out of wedlock to a United States citizen father 
to acquire citizenship. Save would also allow aunts, uncles, or 
grandparents to adopt orphaned or abandoned children of deceased 
relatives. Likewise by increasing the allocation of family based visas, 
and streamlining the application process Save is clearly committed to 
the common goal of uniting and strengthening the family core.
    It should come as no surprise that Immigrant organizations share 
the same sentiments as the members of the faith based communities. They 
also see the benefits of unifying the family, and creating a path to 
legalization that will end worker exploitation, deportation, and 
persecution. I look forward to the testimony of today's witnesses.
   Letter from Richard T. Foltin, Legislative Director and Counsel, 
 American Jewish Committee, to the Honorable Zoe Lofgren, Chairwoman, 
     and the Honorable Steve King, Ranking Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 Letter from the Christian Reformed Church in North America, et al. to 
   President George W. Bush and Members of the United States Congress

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Congressional Black Caucus Statement of Principles on Immigration 
                                 Reform
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

``The Fiscal Impact of Immigration Reform: The Real Story,'' by Daniel 
 Griswold, Director, Center for Trade Policy Studies, Cato Institute, 
                              May 21, 2007
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Prepared Statement of the Conveners of the Latino Congreso

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Letter from Eric M. Gutierrez, Legislative Staff Attorney, Mexican 
 American Legal Defense and Education Fund (MALDEF), to the Honorable 
  Zoe Lofgren, Chairwoman, Subcommittee on Immigration, Citizenship, 
            Refugees, Border Security, and International Law

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Revised Prepared Statement of Karen K. Narasaki, President and 
           Executive Director, Asian American Justice Center

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
